<html>
<title> - THE U.S. STRATEGY IN AFGHANISTAN AND IRAQ</title>
<body><pre>[Senate Hearing 112-349]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-349
 
               THE U.S. STRATEGY IN AFGHANISTAN AND IRAQ
=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
73-877                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

               The U.S. Strategy in Afghanistan and Iraq

                           september 22, 2011

                                                                   Page

Panetta, Hon. Leon E., Secretary of Defense......................     8
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....    16

                                 (iii)


               THE U.S. STRATEGY IN AFGHANISTAN AND IRAQ

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Akaka, 
Webb, McCaskill, Udall, Hagan, Begich, Manchin, Shaheen, 
Gillibrand, Blumenthal, McCain, Inhofe, Sessions, Chambliss, 
Wicker, Brown, Ayotte, Collins, Graham, Cornyn, and Vitter.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; Michael J. Kuiken, professional staff 
member; Peter K. Levine, general counsel; William G.P. Monahan, 
counsel; Michael J. Noblet, professional staff member; and 
William K. Sutey, professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Christian D. Brose, professional staff member; 
and Michael J. Sistak, research assistant.
    Staff assistants present: Hannah I. Lloyd, Maggie K. 
McNamara, Brian F. Sebold, and Bradley S. Watson.
    Committee members' assistants present: Christopher Griffin, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Nick Ikeda, assistant to Senator Akaka; Gordon 
Peterson, assistant to Senator Webb; Jennifer Barrett, 
assistant to Senator Udall; Roger Pena, assistant to Senator 
Hagan; Joanne McLaughlin, assistant to Senator Manchin; Chad 
Kreikemeier, assistant to Senator Shaheen; Ethan Saxon, 
assistant to Senator Blumenthal; Anthony Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Clyde Taylor IV, assistant to Senator Chambliss; Joseph Lai, 
assistant to Senator Wicker; Charles Prosch, assistant to 
Senator Brown; Brad Bowman, assistant to Senator Ayotte; Ryan 
Kaldahl, assistant to Senator Collins; Matthew Rimkunas, 
assistant to Senator Graham; Russ Thomasson, assistant to 
Senator Cornyn; and Charles Brittingham, assistant to Senator 
Vitter.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
receives testimony this morning on the U.S. strategy in 
Afghanistan and in Iraq. This morning's hearing is Secretary 
Panetta's first appearance before this committee as Secretary 
of Defense and we welcome you, Mr. Secretary. It's also likely 
to be Admiral Mullen's last appearance before he retires at the 
end of this month.
    Since the Admiral's appointment by President Bush as the 
17th Chairman of the Joint Chiefs of Staff in 2007 and his 
reappointment by President Obama in 2009, Admiral Mullen has 
led our Armed Forces through one of the most complex 4-year 
periods of security challenges in recent history.
    Among the challenges occurring on Admiral Mullen's watch 
have been the following: A drawdown of forces in Iraq; a shift 
to a counterinsurgency strategy and the surge of U.S. troops in 
Afghanistan; the reduction of U.S. troops in Afghanistan; 
support of the North Atlantic Treaty Organization (NATO) 
operations in Libya; management of a volatile relationship with 
Pakistan's military; and counterterrorism operations against al 
Qaeda and other transnational terrorist groups, including the 
extraordinary raid by our Special Operations Forces (SOF) this 
past May that killed Osama bin Laden in Pakistan.
    Throughout his chairmanship and more than 4 years of 
extraordinary service to this Nation, Admiral Mullen has 
provided steady, dedicated leadership and thoughtful, 
principled, and courageous military judgment. Admiral Mullen 
has been joined throughout this time by his wife, Deborah, who 
has been equally tireless in promoting initiatives on behalf of 
our military families and wounded warriors. On behalf of 
everyone on this committee, Admiral, thank you.
    The strategy the President charted in December 2009 in his 
West Point speech is on track to achieving its objectives. 
These include disrupting, dismantling, and degrading al Qaeda 
and training the Afghan National Security Forces (ANSF) to 
provide security for their country, so that Afghanistan will 
not again serve as a safe haven for extremists plotting attacks 
against us. As outlined in the West Point speech, the 
President's strategy called for a surge of an additional 33,000 
U.S. troops to Afghanistan to break the insurgency's momentum 
and to help build the capacity of the ANSF. He stated at that 
time that 18 months later these U.S. surge troops would begin 
to come home.
    Our military men and women have performed magnificently in 
Afghanistan. Coalition and Afghan forces have reversed the 
insurgency's momentum in much of Afghanistan and seized the 
initiative in key areas, including Taliban strongholds in the 
south. At the same time, the NATO training mission has added 
100,000 soldiers and police to the ranks of the ANSF, which are 
partnered with coalition forces in the field and are 
increasingly in the lead in operations.
    The Taliban has been reduced to suicide attacks and 
roadside bombings. In this regard, the assassination of Mr. 
Rabbani, the leader of Afghanistan's High Peace Council tasked 
with pursuing reconciliation talks with the Taliban, was 
tragic. However, that despicable act only highlights that the 
Taliban can no longer hold territory and are detested more than 
ever by the Afghan people because of their attacks on 
civilians.
    The President's decision to bring home the U.S. surge 
forces by 2012 maintains the sense of urgency at the highest 
levels of the Afghanistan Government. Further, as 33,000 U.S. 
troops draw down by next summer, the Afghan army and police at 
the same time will grow by another 70,000, to a total of over 
350,000, and these forces will increasingly be in the lead, be 
more capable and equipped, and more than willing to take on the 
Taliban.
    The growing capabilities of the ANSF represent the best 
chance for success of the mission, creating a secure 
Afghanistan which can no longer be the staging ground for an 
attack against us.
    This committee has heard directly that the military 
commanders charged with implementing the President's decision 
say that they support it. This includes Admiral Mullen, General 
Martin Dempsey, who will succeed Admiral Mullen as Chairman of 
the Joint Chiefs, and General John Allen, Commander of the NATO 
International Security Assistance Force (ISAF) in Afghanistan.
    ANSF have now assumed the lead in seven areas throughout 
Afghanistan. NATO and ISAF participating countries have agreed 
with President Obama and President Karzai that ANSF should 
assume responsibility for protecting the Afghan people 
throughout the country by 2014.
    This transition to Afghan control does not mean that the 
United States will abandon Afghanistan. The strategic 
partnership agreement currently being negotiated between the 
United States and Afghanistan will help define the long-term 
relationship between the two countries and play an important 
role in demonstrating to Afghanistan and its neighbors that the 
United States intends to remain engaged in this region and that 
we're not about to repeat the mistakes of 1989, when the United 
States turned its attention elsewhere following the Soviet 
withdrawal from Afghanistan.
    Clearly, great challenges remain. Foremost is the threat 
posed by the militant extremists launching attacks against 
Afghan and coalition forces from sanctuaries in Pakistan, 
particularly the Haqqani group in North Waziristan and the 
Afghan Taliban shura in Quetta. The U.S. Ambassador to 
Afghanistan, Ryan Crocker, has said that a series of recent 
attacks, including the deadly attack on the U.S. Embassy 
compound in Kabul, were the work of the Haqqanis operating out 
of Pakistan.
    Our Ambassador to Pakistan, Cameron Munter, said that there 
is evidence linking the Haqqani network to the Pakistan 
Government. The Ambassador added that: ``This is something that 
must stop.'' Secretary Panetta recently said: ``The message 
they need to know is we're going to do everything we can to 
defend our forces.'' I was glad to read a few days ago that 
Pakistan's leaders have been personally informed that we are, 
in fact, going to do just that, and act more directly.
    Now, I've repeatedly written to Secretary Clinton to press 
to have the Haqqani group added to the Department of State's 
(DOS) list of foreign terrorist organizations in order to make 
more tools available to our government agencies to sanction 
that organization. This step is long overdue. I hope DOS will 
move quickly to designate the Haqqanis as a foreign terrorist 
organization.
    When Senators Shaheen, Merkley, and I visited Afghanistan 
in August, we heard repeatedly how the insurgents' safe havens 
in Pakistan posed the main threat to our troops and Afghan 
troops and coalition troops in Afghanistan. In our discussions 
with Pakistani officials, we heard the same excuses that we've 
heard before about why Pakistan forces are unable, for whatever 
reason, to go after the Haqqanis in Northern Waziristan in 
Pakistan.
    When I pressed Pakistan Prime Minister Gillani on why 
Pakistan has not publicly condemned the deadly cross-border 
attacks on our troops by the Haqqanis and by the Afghan 
Taliban, he was unable to provide an answer.
    It is simply unacceptable that these deadly attacks on our 
forces continue, while Pakistan's leaders decline to go after 
the Haqqanis and fail to publicly condemn their violent cross-
border attacks. Because of providing that safe haven, because 
of connections between Pakistan intelligence and the Haqqanis, 
Pakistan bears some responsibility for the attacks on us. A 
positive relationship with Pakistan remains an important 
objective, but in order for there to be a normal relationship 
between our two countries, it is imperative that Pakistan 
actively break its ties with the militant extremists using 
their soil against us.
    The balance of my statement relative to both Afghanistan 
and Iraq will be put in the record at this point.
    I now call upon Senator McCain.
    [The prepared statement of Chairman Levin follows:]
                Prepared Statement by Senator Carl Levin
    Good morning. The committee receives testimony this morning on the 
U.S. strategy in Afghanistan and in Iraq. This morning's hearing is 
Secretary Panetta's first appearance before this committee as Secretary 
of Defense. It is also likely to be Admiral Mullen's last appearance 
before he retires at the end of this month.
    Since his appointment by President Bush as the 17th Chairman of the 
Joint Chiefs of Staff in 2007, and his reappointment by President Obama 
in 2009, Admiral Mullen has led our Armed Forces through one of the 
most complex 4-year periods of security challenges in recent history. 
Among the challenges occurring on Admiral Mullen's watch have been: a 
drawdown of forces in Iraq; a shift to a counterinsurgency strategy and 
a surge of U.S. troops in Afghanistan; support of NATO operations in 
Libya; management of a volatile relationship with Pakistan's military; 
and counterterrorism operations against al Qaeda and other 
transnational terrorist groups, including the incredible raid by our 
special operations forces this past May that killed bin Laden in 
Pakistan. Throughout his Chairmanship and more than 40 years of 
extraordinary service to this Nation, Admiral Mullen has provided 
steady, dedicated leadership and thoughtful, principled and courageous 
military judgment. Admiral Mullen has been joined throughout this time 
by wife, Deborah, who has been equally tireless in promoting 
initiatives on behalf of our military families and wounded warriors. On 
behalf of everyone on this committee, let me express our gratitude.
    The strategy the President charted in December 2009 in his West 
Point speech is on track to achieving its objectives. These include 
disrupting, dismantling, and degrading al Qaeda and training the Afghan 
security forces to provide security for their country so that 
Afghanistan will not again serve as a safe haven for extremists 
plotting attacks against us. As outlined in the West Point speech, the 
President's strategy called for a surge of an additional 33,000 U.S. 
troops to Afghanistan to break the insurgency's momentum and help build 
the capacity of the Afghan security forces; and he stated at that same 
time that 18 months later, these U.S. surge troops would begin to come 
home.
    Our military men and women have performed magnificently in 
Afghanistan. Coalition and Afghan forces have reversed the insurgency's 
momentum in much of Afghanistan and seized the initiative in key areas, 
including Taliban strongholds in the south. At the same time, the NATO 
training mission has added 100,000 soldiers and police to the ranks of 
the Afghan security forces, which are partnered with coalition forces 
in the field and increasingly in the lead in operations. The Taliban 
has been reduced to suicide attacks and roadside bombings. In this 
regard, the assassination of Mr. Rabbani, the leader of Afghanistan's 
High Peace Council tasked with pursuing reconciliation talks with the 
Taliban, was tragic. However, this despicable act only highlights that 
the Taliban can no longer hold territory and are detested more than 
ever by the Afghan people because of their attacks on civilians.
    The President's decision to bring home the U.S. surge forces by 
2012 maintains the sense of urgency at the highest levels of the Afghan 
Government. Further, as 33,000 U.S. troops draw down by next summer, 
the Afghan Army and police at the same time will grow by another 70,000 
to a total of 352,000, and these forces will increasingly be in the 
lead, capable, equipped, and more than willing to take on the Taliban. 
The growing capabilities of the Afghan security forces represents the 
best chance for success of the mission, creating a secure Afghanistan 
which can no longer be the staging ground for an attack against us.
    As this committee has heard directly, the military commanders 
charged with implementing that decision have said they support the 
President's decision. This includes Admiral Mullen; General Martin 
Dempsey, who will succeed Admiral Mullen as Chairman of the Joint 
Chiefs of Staff; and General John Allen, Commander of the NATO 
International Security Assistance Force in Afghanistan.
    Afghan security forces have now assumed the lead in seven areas 
throughout Afghanistan. NATO and the ISAF participating countries have 
agreed with President Obama and President Karzai that Afghanistan 
security forces should assume responsibility for protecting the Afghan 
people throughout the country by 2014.
    This transition to Afghan control does not mean that the United 
States will abandon Afghanistan. The Strategic Partnership agreement 
currently being negotiated between the United States and Afghanistan 
will help define the long-term relationship between our two countries 
and play an important role in demonstrating to Afghanistan and its 
neighbors that the United States intends to remain engaged in this 
region and that we are not about to repeat the mistakes of 1989, when 
the United States turned its attention elsewhere following the Soviet 
withdrawal from Afghanistan.
    Certainly great challenges remain. Foremost is the threat posed by 
militant extremists launching attacks against Afghan and coalition 
forces from sanctuaries in Pakistan, particularly the Haqqani group in 
North Waziristan and the Afghan Taliban shura in Quetta. U.S. 
Ambassador to Afghanistan Ryan Crocker has said that a series of recent 
attacks, including the recent deadly attack on the U.S. Embassy 
compound in Kabul, were the work of the Haqqanis operating out of 
Pakistan. Our ambassador to Pakistan, Cameron Munter, said that there 
is evidence linking the Haqqani network to the Pakistan Government. 
Ambassador Munter added, ``This is something that must stop.'' 
Secretary Panetta said, ``The message they need to know is: we're going 
to do everything we can to defend our forces.'' I was glad to read a 
few days ago that Pakistan's leaders have been personally informed that 
we are in fact going to do just that and act more directly.
    I have repeatedly written to Secretary Clinton to press to have the 
Haqqani group added to the State Department's list of Foreign Terrorist 
Organizations, to make more tools available to our government agencies 
to sanction this organization. This step is long overdue and I hope the 
State Department will move quickly to designate the Haqqanis a Foreign 
Terrorist Organization.
    When Senators Shaheen, Merkley, and I visited Afghanistan in 
August, we heard repeatedly how the insurgents' safe havens in Pakistan 
pose the main threat to our troops. In our discussions with Pakistani 
officials, we heard the same excuses we have heard before about why 
Pakistan forces are unable, for whatever reason, to go after the 
Haqqanis in Northern Waziristan. When I pressed Pakistan Prime Minister 
Gilani on why Pakistan had not publicly condemned the deadly cross-
border attacks on our troops by the Haqqanis and the Afghan Taliban, he 
was unable to provide an answer. It is simply unacceptable that these 
deadly attacks against our forces continue, while Pakistan's leaders 
decline to go after the Haqqanis and even fail to publicly condemn 
their violent cross-border attacks. Because of providing that safe 
haven and because of connections between Pakistani intelligence and the 
Haqqanis, Pakistan must bear some responsibility for attacks on us. A 
positive relationship with Pakistan remains an important objective, but 
in order for there to be a normal relationship between our two 
countries it is imperative that Pakistan actively break its ties with 
these militant extremists.
    Other challenges to the success of our strategy in Afghanistan 
include the need for the Karzai Government to improve governance, the 
resolution of the current crisis within the Afghan Parliament, and 
rooting out corruption at all levels. In addition, the sustainability 
of the Afghan security forces is being closely reviewed, and more needs 
to be done to bring down the long-term costs of maintaining those 
forces. But the cost of the Afghan Army and police taking the security 
lead will be a small fraction of the costs of U.S. and coalition 
forces' operations.
    In Iraq, U.S. forces are on a course to withdraw the remaining over 
40,000 U.S. troops by December 31 of this year, as required by the 
U.S.-Iraq Security Agreement concluded by President Bush and Prime 
Minister Maliki in 2008. After more than 8\1/2\ years of conflict in 
Iraq, the end of this year will mark the completion of the transition 
of responsibility for Iraq's security to the Government of Iraq.
    U.S. and Iraqi officials are discussing a possible small residual 
U.S. military force to remain in Iraq after the December 31 deadline. I 
have a number of concerns about these negotiations, both in terms of 
process and substance. First, any continuing U.S. troop presence in 
Iraq should be pursuant to an Iraqi request for that assistance. It is 
inappropriate in my view for the United States to be publicly 
soliciting a request--sometimes sounding like we're pleading for one--
from the Government of Iraq for the retention of U.S. troops in Iraq. 
Instead, the United States should set a date by which the Iraqi leaders 
need to make their request for U.S. forces in order for us to have 
sufficient time to consider that request.
    More importantly, I am concerned about the size of some options for 
a U.S. residual force reportedly under consideration. News accounts 
cite proposals varying from around 3,000 to as large as 18,000 U.S. 
troops or more. The fundamental question that must be answered, 
however, is what would be the mission or missions of any U.S. force 
retained in Iraq past the end of this year. Army Chief of Staff General 
Ray Odierno, who previously commanded U.S. Forces in Iraq, has warned 
that the larger the residual force the greater the risk of creating the 
impression of a U.S. ``occupation force'' in Iraq.
    Leaving behind a stable Iraq, capable of providing for its own 
security, may be assisted by our having a continuing training mission 
in Iraq. There may also be a role for a small U.S. contingent to 
support Iraq's counterterrorism operations and to protect our 
diplomats.
    Some have cited the need for significant numbers of U.S. forces to 
be retained in northern Iraq to maintain the peace along the internal 
boundary under dispute between the Kurds and the Government of Iraq. 
General Odierno has suggested that one option may be to have a 
multilateral peacekeeping force maintain stability along this boundary 
while the political and security issues are addressed. I hope our 
witnesses will address the merits of a multilateral approach to 
addressing the internal boundary dispute in northern Iraq. In addition, 
protecting Iraq's most vulnerable--those in religious minority groups--
must also be a concern after December 2011.
    The administration needs to come forward with a clear explanation 
of what missions any residual U.S. troop presence in Iraq would be 
intended to carry out. I believe any such force should be limited in 
purpose, scope, size, and the duration that they would be deployed to 
Iraq. It would be a mistake, as the December 31 deadline set by 
President Bush for the withdrawal of U.S. troops approaches, to retain 
a large number of troops in Iraq in an open-ended commitment.

    Chairman Levin. I now call upon Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and let me thank 
our distinguished witnesses for joining us this morning and for 
their continued service to our country. I also want to echo the 
chairman in recognizing Admiral Mullen in his final appearance 
before our committee as Chairman of the Joint Chiefs and 
thanking him for a lifetime of devoted service to our Nation 
and to his fellow men and women in uniform, who do everything 
we ask of them and more to keep us safe.
    This is an important time for this committee to consider 
the wars in Iraq and Afghanistan. If we continue on our current 
trajectory, all U.S. troops will be out of Iraq in just over 3 
months. In that same time, 10,000 U.S. forces will depart from 
Afghanistan to comply with the President's aggressive drawdown 
schedule. I have deep reservations about both of these looming 
deadlines.
    In Iraq, during my repeated visits to that country, every 
military commander I have spoken with and every knowledgeable 
civilian expert I have consulted with has told me that the 
United States must leave at least 10,000 troops in Iraq beyond 
this year to support the Iraqis in safeguarding their country's 
stability, which both of our nations have paid a huge price in 
blood and treasure to achieve thus far.
    For this reason, many of us were very concerned to see 
recent media reports suggesting that the administration had 
dramatically reduced the number of troops that it was 
considering for a post-2011 force in Iraq, perhaps as low as 
3,000 troops. Administration officials have since insisted that 
such a number is not final and that no ultimate decision has 
been made. I hope this is true because everything I have heard 
from our military commanders on the ground, leads me to believe 
that such a minimal force presence in Iraq after this year 
would significantly jeopardize the real but tenuous gains we 
have made in that strategically important country.
    As Ambassador Jeffrey and General Austin testified to this 
committee in February, the Iraqi security forces (ISF) still 
have major gaps in their capabilities that will persist beyond 
2011. This leads to a set of missions in which Iraqi forces 
will require sustained U.S. military support, from intelligence 
collection and fusion, training and maintenance, 
counterterrorism cooperation, air sovereignty, and perhaps most 
importantly, a continued need for U.S. forces in the disputed 
territories of northern Iraq.
    If U.S. military support is not forthcoming in helping 
Iraqi forces to fill these gaps in their capabilities, the 
country's stability will be put at grave risk. I understand 
that Americans are war-weary, but I would urge the President to 
listen to the advice of our military commanders and to maintain 
the necessary presence of U.S. forces in Iraq, that all of the 
major political leaders in Iraq have told many of us they need 
and want. In short, the administration must ensure that it does 
not withdraw from Iraq as irresponsibly as they often claim 
that the Bush administration invaded Iraq.
    I would also urge the administration to listen to our 
military commanders in Afghanistan and to consider slowing the 
pace of the President's announced drawdown. The fact is, as 
General Petraeus recently testified before the Senate Select 
Committee on Intelligence, no military commander recommended 
the plan that the President adopted, to draw down 10,000 troops 
this year and the remaining 23,000 surge troops by next summer. 
Admiral Mullen, you yourself have stated that the President's 
plan would incur more risk than you had been prepared to 
accept.
    The reason none of our commanders recommended this drawdown 
plan is because it would take vital combat power out of the 
hands of our commanders on the ground just when they need it 
most, during next year's fighting season, which will continue 
through the summer. After achieving so much after 10 hard years 
of fighting and with the prospects of success finally being 
within reach, at exactly the moment when we should be limiting 
the risk to our mission, the President's plan would do the 
opposite. It would increase the difficulties and risks to our 
mission.
    I visited Afghanistan in July again and it was clear that 
our counterinsurgency strategy is working at a tactical 
military level in all of the ways that Admiral Mullen outlines 
in his prepared testimony. Our counterterrorism operations are 
inflicting enormous damage on al Qaeda and their Taliban 
allies. We and our Afghan partners have taken critical terrain 
away from the insurgency. Afghan security forces are growing 
bigger, better, and more professional. The Taliban can still 
launch spectacular attacks like the one that tragically killed 
former President Rabbani on Tuesday and these send a damaging 
signal to our Afghan friends, who fear that our security gains 
are fleeting and that the Taliban will return to power.
    But such attacks are occurring from a position of growing 
weakness, not mounting strength, and now is not the time to put 
our security gains at unnecessary risk. This is especially true 
in light of the ongoing strategic challenges we face in this 
campaign, challenges that, if not seriously addressed, could 
limit and even jeopardize the tactical gains that our troops 
are making at such great cost.
    One such challenge is the persistence of weak, corrupt, and 
predatory Afghan governance. The other, far larger challenge is 
the problem of Pakistan, in particular the fact that insurgent 
groups like the Haqqani network continue to enjoy sanctuary in 
the country as well as active support from Pakistan's 
intelligence service, which they continue to use to attack and 
kill Afghans, Pakistanis, Indians, and Americans. This is the 
fundamental reality from which we must proceed in reevaluating 
our policy towards Pakistan.
    But we must also recognize that abandoning Pakistan is not 
the answer. We tried that once. We cut off U.S. assistance to 
Pakistan in the past and the problem got worse, not better.
    I say this with all humility, not recognizing just yet what 
a better alternative approach would be. I hope this hearing 
will provide some clarity on how to proceed in this critical 
matter, which likely will have the largest bearing of all on 
our national security and interests.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Secretary Panetta.

    STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE

    Secretary Panetta. Thank you, Mr. Chairman. I would ask 
that my full statement be made part of the record.
    Chairman Levin. It will be.
    Secretary Panetta. Chairman Levin, Senator McCain, members 
of this committee: It is an honor for me to appear before you 
for the first time as Secretary of Defense and to represent the 
men and women of the Department of Defense (DOD) of our Armed 
Forces. I want to thank you on their behalf for your dedication 
and for your support, particularly in a time of war, and for 
your determination to join me in doing everything possible to 
ensure that they succeed in their mission of protecting America 
and keeping us safe.
    When I testified before this committee as the nominee for 
the Secretary of Defense, I pledged that I would treat Congress 
as a full partner, and in the months since, I've had the 
opportunity to consult with you, many of you, on all the 
challenges that DOD faces, and I will continue to do so. It's 
important to have your guidance and your counsel as we deal 
with the challenges facing DOD.
    Before turning to the pressing issues of the challenges of 
the wars in Iraq and Afghanistan, I would like to briefly 
address the challenge of the defense budget, which relates to, 
obviously, everything we do. DOD has been undergoing a 
strategy-driven process to prepare to implement the more than 
$450 billion in savings that will be required over the next 10 
years as a result of the debt ceiling agreement. While this 
review is ongoing and no specific decisions have been made at 
this point, I'm determined to make these decisions 
strategically, looking at the needs that DOD has to face, not 
just now, but in the future, so that we can maintain the most 
dominant military in the world, a force that is agile, ready, 
capable, and adaptable.
    These reductions will require hard decisions. Those 
decisions will force us to take on greater risk in our mission 
of protecting this country. My goal is to try to make those 
risks acceptable, but that is the reality.
    The guidelines that I will be putting in place as we move 
forward on these decisions are the following: First of all, I 
want to maintain the best military in the world.
    Second, I do not want to hollow out the force. Every time 
we have gone through these reductions in the past the danger 
has always been that we've hollowed out the force. I am not 
going to do that.
    Third, it requires a balanced approach in order to achieve 
the significant reductions that I'm required to do. So I am 
going to look at all areas. I'm going to look at efficiencies, 
reducing overhead, and duplication. There are opportunities to 
try to achieve savings, additional savings, in those areas. 
Procurement, looking at the whole process of tightening up on 
our contracting, creating greater competition with regards to 
our procurement area. I'm also going to look at the 
compensation area. The fact is that in some of those areas the 
costs have increased by 80 percent. Health care alone in the 
military costs some $53 billion.
    But I have to do it in a way that does not jeopardize the 
volunteer force, and to that extent I have to maintain faith 
with those that have gone deployment after deployment, put 
their lives on the line. We cannot undermine the commitments we 
have made to them. Nevertheless, we do have to look at reforms 
in these areas.
    Lastly, as I said, we do have to maintain faith with those 
that are out there fighting every day.
    We are going to have to look at how we turn a corner. We 
have gone through a decade of war, in which the defense budget 
has more than doubled. Now we have to look at a decade where we 
have to prevent war, but be able to fight wars and win wars if 
we have to, recognizing we will have less resources. That's the 
challenge that we face as we confront this budget issue.
    DOD is taking on its share of our country's efforts to 
achieve fiscal discipline and we will. I want to caution 
strongly against further cuts to defense as we go through that, 
particularly with the mechanism that's been built into the 
agreement called sequester. This mechanism would force defense 
cuts that, in my view, would do catastrophic damage to our 
military and its ability to protect this country. I know you 
share my concern about the process of sequester. It is kind of 
a blind formula that makes cuts all across the board and 
guarantees that we will hollow out the force.
    Working with this committee and others in Congress, I am 
confident that we can meet our national security 
responsibilities and do our part to help this country get its 
fiscal house in order, but at the same time maintain a strong 
national defense. We do not have to make a choice between 
fiscal security and national security.
    Even as DOD grapples with the budget, our most immediate 
challenges are the wars in Iraq and Afghanistan. My submitted 
statement goes into more details on the progress we are making 
and the challenges that remain to achieving our strategic 
objectives, but let me just briefly address both of these 
efforts.
    I'll begin with Iraq, where our focus has been on ending 
the war in a responsible way that allows Iraq to become a 
secure, sovereign, stable, and self-reliant nation and a 
positive force for stability in that region. Today, fewer than 
50,000 U.S. forces remain in Iraq and, based on the November 
2008 security agreement reached with the Iraqi Government and 
the last administration, we are planning to draw down our 
combat troops in Iraq by the end of the year.
    Still, last month, the Iraqi political leadership indicated 
publicly that they are interested in an ongoing training 
relationship with the United States in the post-2011 period. As 
a result, General Austin and Ambassador Jeffreys have been in 
the process of negotiating with Iraqi leaders as to what their 
needs are and how we can address that. We are seriously 
considering this request and I want to make clear that no final 
decisions have been made. We'll continue to consult extensively 
with the Iraqis, but we will also consult with Congress before 
such decisions are made as to what a post-2011 training 
presence will look like.
    I want to be clear that, obviously, any future security 
relationship in Iraq will be different from the one that we've 
had since 2003. The United States wants a normal, productive 
relationship and a close strategic partnership with a sovereign 
Iraq and with other countries, similar, frankly, to the 
partnerships that we have with other countries in the region 
and around the world.
    This kind of security assistance would be a means of 
furthering our strategic partnership with Iraq that looks to 
the kind of future role that can best address their security 
needs. But there's no question that challenges remain there. 
They have to stand up a council for higher policies. They have 
to develop a resolution to the Kirkuk situation and dispute. 
They have to pass a hydrocarbons law. They have to promote 
security efforts to deal with Iranian-supported Shia extremist 
groups that have been attacking their forces as well as ours. 
They have to have security efforts to go after the remnants of 
al Qaeda which still remain in Iraq. They have to work at a 
political process that builds a safer and stronger Iraq for the 
future.
    As we moved decisively since 2009 to end the war in Iraq, 
we have also turned our attention, our focus, and our resources 
to Afghanistan and the effort to build a stable and secure 
country there that does not provide a safe haven to al Qaeda or 
to its extremist affiliates. Because of the hard work and the 
sacrifices of Afghan and coalition forces, we have established 
conditions that are putting Afghans on the path to assume lead 
responsibility for security nationwide by the end of 2014.
    The insurgency has been turned back in much of the country, 
including its heartland in the south, and ANSF are increasingly 
strong and capable. As the chairman pointed out, we have made 
significant progress with regards to our primary mission of 
disrupting, dismantling, and ultimately defeating al Qaeda, 
particularly with the operations that took down bin Laden and 
that continue to take down key leadership of al Qaeda and their 
affiliates.
    This undeniable progress has allowed us to begin 
transitioning to Afghan security control. We've done that in 
seven areas of the country since July. As this transition 
commenced, we began implementing a gradual and responsible 
drawdown that is essential to the success of that transition 
process and lasting security and stability in Afghanistan. 
General Allen, who has briefed me just this week again, is in 
the process of laying out those plans that will provide a 
responsible transition that will not undermine the security of 
Afghanistan.
    While my overall assessment is that our effort in 
Afghanistan is headed in the right direction, I think we also 
have to be clear-eyed about the challenges that remain. First, 
as the Taliban lost control of territory last year they shifted 
away from large attacks on our forces to greater reliance on 
headline-grabbing attacks. In recent weeks we've seen a spate 
of such high-profile attacks, including the attempt to attack 
the U.S. Embassy and NATO headquarters in Kabul last week and 
the assassination of former President Rabbani, the chairman of 
the High Peace Council, this last Tuesday.
    At this time of loss, we have conveyed our condolences to 
the family of Professor Rabbani and the Afghan people. But we 
are concerned that these attacks, because of the loss of life 
and because they represent an effort to disrupt the process we 
have made, must be confronted and cannot be allowed to 
continue. Overall, we judge this change in tactics to be a 
result in a shift in momentum in our favor and a sign of 
weakness of the insurgency. While overall violence in 
Afghanistan is trending down and down substantially in areas 
where we concentrated the surge, we must be more effective in 
stopping these attacks and limiting the ability of insurgents 
to create perceptions of decreasing security.
    We are working with our Afghan partners to discuss with 
them how we can provide better protection against these 
attacks. But the bottom line is that we can't let these 
sporadic attacks deter us from the progress that we've made.
    A second challenge is the difficult campaign we have ahead 
of us in the east, where the topography, the cultural 
geography, and the continuing presence of safe havens in 
Pakistan give the insurgents advantages they have lost 
elsewhere in the country. We cannot allow terrorists to have 
safe havens from which they can launch attacks and kill our 
forces. We cannot allow that to happen, and we have to bring 
pressure on the Pakistanis to do their part to confront that 
issue.
    A third key challenge is that we must not underestimate the 
difficult task the Afghans still face in developing governance 
that can meet the minimum needs of the Afghan people and help 
them take and sustain control of their country.
    I believe we're capable of meeting these challenges if we 
keep our efforts focused and maintain our dedication to the 
fight. We've had some tough days in this campaign and 
undoubtedly there are more tough days that lie ahead. This is a 
heavy burden that I feel personally now as Secretary of Defense 
every time I write a condolence letter.
    Since taking this office, I've been to Dover to receive the 
remains of those who were killed in the Chinook helicopter 
crash last month. I've been to Arlington and I've been to 
Bethesda. In spending time with the families of those who've 
died or been seriously wounded in the service of our country, 
there isn't a family member who hasn't come up to me and said: 
``If you really care about what happened to my loved one, you 
will carry on the mission that they gave their life for or were 
seriously wounded.'' We owe it to those who've paid this price 
to continue the hard work of doing this right and protecting 
our country.
    I'd also like to close by recognizing the man sitting next 
to me, Mike Mullen. He has worked tirelessly and successfully 
to advocate effective operations, for effective operations in 
Afghanistan and Iraq, and the strategy that is now bearing 
fruit owes much of its success to his vision and his 
determination.
    I know that all of you and that all of America join me in 
thanking him for his decades of dedicated service and his 
extraordinary work on behalf of our country and our men and 
women in uniform. Mike has set a standard for responsibility 
and performance as Chairman that will forever be his legacy. I 
am deeply grateful for his service and for his friendship.
    Thank you.
    [The prepared statement of Secretary Panetta follows:]
               Prepared Statement by Hon. Leon E. Panetta
    Chairman Levin, Senator McCain, members of this committee. It is an 
honor to appear before you today for the first time as Secretary of 
Defense, and to represent the men and women of the Department and our 
Armed Forces. I want to thank you, on their behalf, for your support in 
a time of war, and for your determination to join me in doing 
everything possible to ensure that they succeed in their mission of 
protecting America.
    When I testified before this committee as nominee for Secretary of 
Defense, I pledged that I would treat Congress as a full partner. In 
the months since, I have consulted with you regularly about many of the 
challenges the Department faces and I will continue to do so.
    Before turning to the most pressing of these challenges--the wars 
in Iraq and Afghanistan--I would like to address another issue that I 
know is of great concern to members of the committee, the defense 
budget. The Department has been undergoing a strategy-driven process to 
prepare to implement the more than $450 billion in savings that will be 
required of it over 10 years as a result of the debt ceiling agreement. 
While this review is ongoing and no decisions have been made, it is 
clear that achieving these savings will be very hard and require 
difficult tradeoffs for the Department and the country.
    As we approach these decisions, I am determined to make them 
strategically, so that we maintain the most dominant military in the 
world--a force that is agile, ready, capable, and adaptable. We must 
preserve capabilities that are most important to protecting our vital 
interests, and we must avoid hollowing out the force and breaking faith 
with the men and women who are fighting for us. We have a strong 
military and strong national defense, but one that has been stressed by 
a decade of fighting, squeezed by rising personnel costs, and is in 
need of modernization given the focus the past decade on capabilities 
for ongoing wars. While the Department will look first to reduce 
overhead and duplication, make no mistake that the reductions will 
require hard decisions that will force us to take on greater risk in 
our mission to protect the country. My goal is to make that risk 
acceptable.
    This Department is taking on its share of our country's efforts to 
achieve fiscal discipline, but I want to caution strongly against 
further cuts to defense, particularly through the mechanism known as 
sequester. This mechanism would force defense cuts that, in my view, 
would do catastrophic damage to our military and its ability to protect 
the country. I know you share my concern about sequester. Working with 
this committee and others in Congress, I am confident we can meet our 
national security responsibilities and do our part to help the country 
get its fiscal house in order.
    Even as the Department looks to maintain the ability to protect our 
core national security interests over the long-term by making these 
budget decisions strategically, our most immediate challenges are the 
wars in Iraq and Afghanistan. Today I will update you on the progress 
we are making in these efforts, and the challenges that remain to 
achieving our strategic objectives.
                                  iraq
    Let me begin with Iraq, where our focus has been on ending the war 
in a responsible way that allows Iraq to become a sovereign, stable, 
self-reliant nation and a positive force for stability in the region. 
Given Iraq's importance, situated strategically in the Middle East, it 
is profoundly in the American national interest that it emerge as a 
strategic partner for the United States, and our broader goal moving 
forward is to build an enduring partnership with the sovereign Iraqi 
Government.
    The fact that we are in a position to build this kind of 
relationship is a reflection of how much progress has been made over 
the past 4 years, and a tribute to the extraordinary sacrifices of our 
men and women in uniform and the Iraqi people, who have fought to build 
a stable and secure country. I visited Iraq in 2006 with the Iraq Study 
Group, at a time when the country was in considerable turmoil. 
Returning on several visits over the last 2\1/2\ years, first as CIA 
Director and then as Secretary of Defense, the change in the situation 
on the ground has been profound.
    Today fewer than 50,000 U.S. forces remain in Iraq, and based on 
the November 2008 Security Agreement reached with the Iraqi Government 
under the last administration, we are planning to remove all of our 
troops from Iraq by the end of the year. Under the capable leadership 
of General Austin, we are moving ahead on implementing that agreement 
and withdrawing our forces. Still, last month, the Iraqi political 
leadership indicated publicly that they are interested in an ongoing 
training relationship with the U.S. military post-2011. Since we 
believe a relationship with the ISF will be an important part of a 
broader enduring partnership with the Iraqi people, we are now 
negotiating with the Iraqi Government about the future nature and scope 
of our military-to-military ties. While we are open to considering this 
request, no final decisions have been made, and we will continue to 
consult extensively with Congress before such decisions are made about 
a post-2011 training presence.
    At the outset of these negotiations, it's important to make clear 
that any future security relationship with Iraq will be fundamentally 
different from the one that we have had since 2003. The United States 
wants a normal, productive relationship and close strategic partnership 
with a sovereign Iraqi Government going forward--similar to the 
partnerships we have with other countries in the region and around the 
world.
    Moreover, Iraq no longer needs large numbers of U.S. forces to 
maintain internal stability. We have drawn down more than 100,000 U.S. 
forces without a significant or sustained uptick in attacks, and with 
the ISF in the lead for security, levels of violence have remained 
dramatically reduced from where they were in 2006 and 2007. Our 
commanders in the field believe that the ISF are competent at 
conducting counterinsurgency operations, but that the Iraqis will have 
gaps in their ability to defend against external threats and in areas 
such as integrated air defense, intelligence sharing, and logistics. It 
is the Iraqi interest in filling these gaps that is guiding our 
conversations about a post-2011 training role. This kind of security 
assistance would be a means of furthering our strategic partnership 
with Iraq that looks to the kind of future role that can best address 
Iraq's security needs.
    While Iraq today is closer than ever to being a stable and secure 
country, we are mindful of the challenges that remain to achieving our 
strategic objectives. The Iraqis are taking critical steps to resolve 
ongoing political issues, but internal divisions remain. For example, 
they still have to stand up the National Council for Higher Policies 
and implement other power sharing arrangements. The status of Kirkuk 
and the disputed territories also remains unresolved and they have yet 
to pass a hydrocarbons law. These issues must be addressed to avoid 
potential conflicts, and Iraqi leaders are talking about ways to 
address these challenges. Regardless of DOD's post-2011 training role, 
our civilian mission will be focused on helping address these issues 
through a robust and representative political process, which is the 
best safeguard against a return to violence.
    Another ongoing challenge in Iraq is the push for influence by 
Iran, and the activities of Iranian backed militias that have attacked 
U.S. forces and the Iraqi people. We take this issue very seriously, as 
does the Iraqi Government, and the ISF have been more active and 
successful against this threat in recent months. We have also worked 
with the Iraqi Government to conduct joint operations against Iranian-
backed militias, and we reserve the right to take other steps as 
necessary and appropriate based on right of self-defense consistent 
with the security agreement we have with the Iraqi Government--a point 
I made very clearly when I visited the country in July. Unlike Iran, 
the United States is working to build a safer and stronger Iraq, and it 
is that shared interest that gives me confidence we can build an 
enduring partnership with the Iraqi Government.
                              afghanistan
    As we have moved decisively since 2009 to end the war in Iraq, we 
have also turned attention, focus and resources to Afghanistan, which 
has become our military's main operational effort. The core goal of 
President Obama's strategy in Afghanistan and Pakistan is to disrupt, 
dismantle, and defeat al Qaeda, to deny it safe haven in the region, 
and to prevent it from again attacking the United States and our 
allies, as it did on September 11, 2001. Earlier this month, in 
observances large and small, the Nation came together to mark the 10 
year anniversary of that horrific attack--one planned and directed by 
al Qaeda from the safe haven they were afforded in Afghanistan by the 
Taliban Government.
    In our determined response to September 11, our military quickly 
toppled the Taliban regime and drove al Qaeda's leadership from the 
country. But in the ensuing years, as the war in Iraq drew attention 
and resources, we lost our focus and allowed the Taliban and insurgents 
to regroup and threaten to topple Afghanistan's legitimate government--
a recipe for regenerating the conditions that enabled the planning and 
execution of the September 11 attacks.
    Although we have achieved significant success in weakening al 
Qaeda, particularly with the operation that took down Bin Laden, and 
the threat from al Qaeda and violent extremism has spread to new 
geographical centers such as Yemen, Somalia, and North Africa, a 
central part of the mission to defeat al Qaeda remains our effort to 
build a stable and secure Afghanistan that does not provide them safe 
haven. Under President Obama's strategy, this effort finally has had 
the resources and focus needed to achieve these objectives. It also has 
an extraordinary leadership team in General Allen and Ambassador 
Crocker, who this summer assumed lead of our military and civilian 
efforts.
    This has been a difficult fight for our country, our coalition 
partners, and the Afghan people. Significant challenges remain. But, 
because of the hard work and sacrifices of Afghan and coalition forces 
we have established conditions that are putting Afghans on a path to 
assume lead responsibility for security nationwide by the end of 2014. 
The insurgency has been turned back in much of the country, including 
its heartland in the south, and Afghan National Security Forces are 
increasingly strong and capable.
    This undeniable progress allowed us to begin transitioning to 
Afghan security control in seven areas of the country in July. As a 
result, nearly 25 percent of the Afghan population now lives in areas 
of the country where Afghan forces have the lead responsibility for 
security. As this transition commenced, we began implementing the 
responsible drawdown that is essential to the success of that 
transition process, and the lasting security and stability in 
Afghanistan. The drawdown of the surge forces began on schedule with 
July's redeployment of two Army National Guard battalions. Through the 
remainder of this year, a total of 10,000 troops will redeploy, and 
another 23,000 troops will come home by the end of summer 2012.
    This is a measured drawdown of our surge forces that provides our 
commanders with the right mix of flexibility, resources, and time to 
continue building on our progress on the ground. The reduction in 
roughly 33,000 American personnel takes place as we are adding more 
than 50,000 new personnel to the Afghan National Security Forces. That 
means by the time we have finished drawing down our surge forces, the 
insurgents will face more forces than they did during this summer's 
fighting season--and substantially more of those forces will be Afghan.
    The development of the Afghan National Security Forces over the 
past 2 years has been one of the most notable successes of the 
campaign, and it has only been possible with the solid support of 
Congress--especially the leadership and members of this committee. 
Surveys conducted regularly for ISAF now show that 86 percent of the 
Afghan population see their local shuras and village elders, the Afghan 
National Police and the Afghan National Army as bringing the most 
security to their areas. The police and army achieved their respective 
October 2011 growth targets of 134,000 and 171,600 personnel ahead of 
schedule, and they are already moving out on their respective October 
2012 targets of 157,000 and 195,000 toward a total force of 352,000.
    This growth in numbers occurs as we continue to strengthen the 
emphasis on quality. The NATO Training Mission-Afghanistan has 
completed the establishment of all 12 branch schools where Afghans are 
now developing key enabling capabilities in logistics, engineering, 
medical, intelligence, signals, and other specialty disciplines. 
Together with steady growth in the officer and non-commissioned officer 
ranks, as well as the experience gained through partnered operations 
with coalition forces, Afghan units continue to improve their ability 
to carry out operations with decreasing levels of advice and 
assistance.
    Despite this progress, we recognize the work that remains before us 
in developing the Afghan National Security Forces. Attrition rates in 
particular have remained too high--sometimes as much as 3 percent per 
month. Although some of these personnel subsequently return to the 
force, overall attrition still impedes the development of experience 
and leadership that are essential to force professionalization.
    Likewise, we know that the long-term sustainment of these forces 
will outstrip Afghanistan's own resources and will require continued 
support from the United States and our international partners for years 
to come. Given our growing budgetary constraints, we need to ensure 
that our support for the Afghan National Security Forces is fiscally 
sustainable at home. To that end, already we are looking at where we 
can take additional steps to reduce the costs of these force 
development efforts.
    Even as the growth in the credibility and capabilities of the 
Afghan National Security Forces are allowing a responsible transition 
to proceed, another critical component of a durable transition will be 
for the United States to address concerns about America's long-term 
commitment to Afghanistan's security and stability. To that end, we are 
putting into place the long-term architecture that will support and 
sustain security and stability in the region beyond 2014. This 
Strategic Partnership Declaration, which the Department of State is 
working with the Afghans to develop, is a framework of mutual 
commitments that will help focus the sovereign efforts Afghanistan will 
take in the years ahead to develop its government, expand its economy 
and improve its security.
    While my overall assessment is that our effort in Afghanistan is 
heading in the right direction, we must also take a clear-eyed look at 
the challenges ahead.
    First, as the Taliban lost control of territory last year, as 
expected, they shifted away from large attacks on our forces to greater 
reliance on improvised explosive devices (IEDs), suicide attacks, 
assassinations, and headline-grabbing attacks. In recent weeks we've 
seen a spate of such high-profile attacks, including the attempt to 
attack the United States embassy and NATO headquarters in Kabul last 
week and the assassination of former President Rabbani, the Chairman of 
the High Peace Council, on Tuesday. At this time of loss, I want to 
extend my condolences to the family of Professor Rabbani and the Afghan 
people. We're concerned about these attacks because of the loss of life 
and because they represent an effort to disrupt the progress we have 
made. These kinds of attacks were not unexpected and we have been able 
to prevent the vast majority of the Taliban's efforts to carry them 
out.
    Overall, we judge this change in tactics to be a result of a shift 
in momentum in our favor and a sign of weakness in the insurgency. 
Still, these attacks show the adaptability of the insurgents and can 
have powerful psychological effects on the Afghan people and on public 
sentiment in coalition nations, creating the appearance of increased 
violence and insecurity, even when the opposite is increasingly true. 
While overall violence in Afghanistan is trending down--and down 
substantially in areas where we concentrated our surge--we must be more 
effective in stopping these attacks and limiting the ability of 
insurgents to create perceptions of decreasing security. We are working 
with our Afghan counterparts to discuss with them how we can provide 
better protection against these attacks. But the bottom line is that we 
can't let these sporadic events deter us from the progress that we've 
made.
    Second, we have a difficult campaign ahead of us in the east, where 
the topography, cultural geography, and continuing presence of safe 
havens in Pakistan give the insurgents advantages they have lost 
elsewhere in the country. Additionally, as relations with Pakistan have 
become strained over the past year, and as we have met Pakistan's 
requests to reduce our training and liaison presence in their country, 
our diminished ability to coordinate respective military operations in 
the border regions has given insurgents greater freedom of movement 
along the border. Our forces are working in the east to cut off 
insurgent lines of communication and deny their ability to threaten 
Kabul and other population centers. Nonetheless, progress in the east 
will likely continue to lag what we see elsewhere in the country.
    Third, we must not underestimate the difficult tasks the Afghans 
still face in developing governance that can meet the minimum needs of 
the Afghan people and help them take and sustain control of their 
country. Over 10 years, our military has learned that one indispensable 
element of modern counterinsurgency warfare is civilian partners who 
bring skills and capabilities beyond the expertise of our military. The 
Department of Defense is working hard with the Department of State, the 
U.S. Agency for International Development, and other civilian agencies 
on these challenges. I appreciate the efforts this committee has 
already made, and would ask for your continued support in working 
together with those agencies' oversight committees to ensure that our 
civilian partners have the authorities and resources they need to 
succeed in this mission.
    While these challenges are considerable, I believe that we are 
capable of meeting them, if we keep our efforts focused and maintain 
our dedication to this fight. We have had some tough days in this 
campaign, and undoubtedly many more lie ahead. This is a heavy burden 
that I feel personally as Secretary of Defense every time I write a 
condolence letter. Since taking this office, I've gone out to the war 
zones, and looked the troops in the eye. I've been to Bethesda and to 
Walter Reed and seen those who have been terribly wounded as a result 
of the wars. I've been to Dover to receive the remains of those who 
were killed in the Chinook helicopter crash. I've been to Arlington.
    The greatest inspiration to me has been that, in spending time with 
the families of those who have died in the service of their country 
there isn't a family member that hasn't come up to me and said, if you 
really care about what happened to my loved one, you will carry on the 
mission that they gave their life for. We owe it to those who have paid 
this price to continue the hard work of protecting our country, and its 
interests, in Afghanistan and Iraq.
    I would like to close by recognizing the man sitting next to me 
here, Admiral Mullen. He has worked tirelessly and successfully to 
advocate for a greater focus on operations in Afghanistan, and the 
strategy that is now bearing fruit owes much of its success to his 
vision and determination. I know that you join me in thanking Admiral 
Mullen for his decades of dedicated service, and his extraordinary work 
on behalf of our country and our men and women in uniform. Mike has set 
a standard for the responsibilities and performance of Chairman that 
will forever be his legacy.

    Chairman Levin. Thank you, Secretary Panetta.
    Admiral Mullen.

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Thank you. Mr. Chairman, Senator McCain, 
members of the committee: Thank you for the opportunity to 
appear before you today to discuss the situations in 
Afghanistan and Iraq. As this will--and Mr. Chairman, you said 
``most likely''; I actually liked Senator McCain's 
characterization of it--it definitely will be my last hearing. 
[Laughter.]
    This will be the last time I appear before you in uniform. 
Let me begin by expressing my deep gratitude for the 
exceptional support you provide our men and women and our 
families.
    You and I may not always agree on every issue and I think 
it's fair to say that you don't always agree amongst 
yourselves, but none of you ever has failed to put foremost in 
your minds the best interests of our troops and their families. 
The issues you debate here, the votes you take, hold in the 
balance the very lives of America's sons and daughters. Where 
they fight, whom they fight, how they fight, and, just as 
critically, what care and support they need when they come home 
from the fight, dominate your discussions.
    It is easy to lose perspective in this town, to forget what 
really matters. You haven't, and for that, Deborah and I are 
eternally grateful.
    Now, let me turn to some of those fights I talked about. In 
Afghanistan, I believe the security situation is steadily 
improving. The military component of our strategy, to the 
extent it can be separated from the strategy as a whole, is 
meeting our objectives. Afghan and ISAF forces have wrested the 
initiative and the momentum from the Taliban in several key 
areas. The number of insurgent-initiated attacks has for 
several months been the same or lower than it was at the same 
time last year. We are on a pace and even slightly ahead of our 
end strength goals for the ANSF.
    The process for transition to Afghan lead of certain 
districts and provinces has already begun, with seven 
localities now in Afghan hands. We are well-postured to begin 
the withdrawal of 10,000 American troops by the end of this 
year.
    As we have advanced, the Taliban have adapted. More than 
ever before, they are concentrating their efforts on attacks 
that will produce a maximal psychological impact for a minimal 
investment in manpower or military capability. The recent truck 
bomb in Wardak falls into this category, as do the attacks last 
week in Kabul, including the one on our embassy and the 
assassination Tuesday of former Afghan President Rabbani. These 
acts of violence are as much about headlines and playing on the 
fears of a traumatized people as they are about inflicting 
casualties, maybe even more so.
    We must not misconstrue them. They are serious and 
significant in shaping perceptions, but they do not represent a 
sea change in the odds of military success. We will continue to 
work with the Afghanistan Government to improve the protection 
of key leaders. We will continue to put pressure on the enemy 
and expand the ANSF, their capability, and the territory they 
hold.
    But as I have said many times, Mr. Chairman, no amount of 
military success alone in counterinsurgency is ever enough. 
Other critical challenges plague us, challenges that undermine 
our efforts and place at risk our ultimate success in the 
region. First among them in my view is the pernicious effect of 
poor governance and corruption. Corruption makes a mockery of 
the rule of law. It delegitimizes the very governing 
institutions to which we will be transitioning authority and it 
sends an aggrieved populace further into the waiting arms of 
the Taliban.
    If we continue to draw down forces at this pace--while such 
public and systemic corruption is left unchecked, we risk 
leaving behind a government in which we cannot reasonably 
expect Afghans to have faith. At best, this would lead to 
localized conflicts inside the country. At worst, it could lead 
to government collapse and civil war.
    A second, but no less worrisome, challenge we face is the 
impunity with which certain extremist groups are allowed to 
operate from Pakistani soil. The Haqqani network for one acts 
as a veritable arm of Pakistan's Internal Services Intelligence 
(ISI) agency. With ISI support, Haqqani operatives planned and 
conducted that truck bomb attack as well as the assault on our 
embassy. We also have credible intelligence that they were 
behind the June 28 attack on the Intercontinental Hotel in 
Kabul and a host of other smaller, but effective operations.
    In choosing to use violent extremism as an instrument of 
policy, the Government of Pakistan and most especially the 
Pakistani army and ISI jeopardize not only the prospect of our 
strategic partnership, but Pakistan's opportunity to be a 
respected nation with legitimate regional influence. They may 
believe that by using these proxies they are hedging their bets 
or redressing what they feel is an imbalance in regional power, 
but in reality they have already lost that bet. By exporting 
violence they have eroded their internal security and their 
position in the region. They have undermined their 
international credibility and threatened their economic 
wellbeing. Only a decision to break with this policy can pave 
the road to a positive future for Pakistan.
    I have expended enormous energy on this relationship and 
I've met with General Kayani more than two dozen times, 
including a 2\1/2\ hour meeting last weekend in Spain. I have 
done this because I believe in the importance of Pakistan to 
the region, because I believe that we share a common interest 
against terrorism, and because I recognize the great political 
and economic difficulties Pakistan faces. I have done this 
because I believe that a flawed and difficult relationship is 
better than no relationship at all.
    Some may argue I've wasted my time, that Pakistan is no 
closer to us than before and may now have drifted even further 
away. I disagree. Military cooperation again is warming. 
Information flow between us across the border is quickening. 
Transparency is returning slowly.
    With Pakistan's help, we have disrupted al Qaeda and its 
senior leadership in the border regions and degraded its 
ability to plan and conduct terror attacks. Indeed, I think we 
would be in a far tougher situation in the wake of the 
frostiness which fell over us after the bin Laden raid were it 
not for the groundwork General Kayani and I had laid, were it 
not for the fact that we could at least have a conversation 
about the way ahead, however difficult that conversation might 
be.
    What matters most right now is moving forward. While the 
relationship must be guided by clear principles to which both 
sides adhere, we can no longer focus solely on the most obvious 
issues. We should help create more stakeholders in Pakistan's 
prosperity, help the Pakistani people address their economic, 
political, and internal security challenges, and promote 
Indian-Pakistani cooperation on the basis of true sovereign 
equality. It can't just always be about counterterrorism, not 
in the long run. Success in the region will require effort 
outside the realm of security.
    We must agree upon a strategic partnership declaration with 
Afghanistan that will clarify and codify our long-term 
relationship. We must work toward a reconciliation process 
internal to Afghanistan that provides for redress of grievances 
and a state-to-state interaction between Afghanistan and 
Pakistan to resolve matters of mutual concern. We must make 
clear to friends and enemies alike that American presence and 
interest and commitment are not defined by boots-on-the-ground, 
but rather by persistent, open, and mutually beneficial 
engagement.
    That leads me briefly to Iraq, where we are now ending our 
military mission and setting the stage for just such a long-
term strategic partnership. We are on pace to remove all 
American troops from Iraq by the end of the year, per the 
strategic framework agreement and the orders of the Commander 
in Chief. We are also in discussions with the Iraqi Government 
about the possibility of leaving behind a residual training 
force. No final decisions have been made by either our 
government or theirs, but I can tell you the focus of those 
discussions remains centered on capability, the sorts of 
capabilities for which the Iraqis believe they need help and 
the sorts of capabilities we believe we can offer them.
    I know you share my conviction that, having shed the blood 
we shed in places like Mosul, Fallujah, Tikrit, and Basra, we 
owe it not just to the Iraqi people, but to the memory of those 
who never made it home, to get this partnership right for the 
future.
    Mr. Chairman, I came into this job humbled by the scope of 
these efforts and the sorts of challenges that exist by wars in 
Iraq and Afghanistan that weren't heading in the right 
direction. I leave satisfied in the knowledge that one of those 
wars is ending well, while the other one certainly could if 
larger and more local issues are addressed. I leave humbled now 
by the performance and the resilience of men and women in 
uniform and their families, who did not shrink from duty when 
duty sent them in harm's way.
    Again, thank you for all you have done to make possible 
what they have done.
    [The prepared statement of Admiral Mullen follows:]
             Prepared Statement by ADM Michael Mullen, USN
    Mr. Chairman, Senator McCain, members of the committee, thank you 
for the opportunity to testify on the situations in Afghanistan, where 
nearly 98,000 U.S. forces are currently deployed; in Pakistan; and in 
Iraq, where we are transitioning to a more normal military-to-military 
relationship. As this should be my last appearance before you, I want 
to thank you for your unwavering commitment to our national security 
and especially to our servicemembers and their families. I greatly 
appreciate the tremendous support you have consistently given our 
military.
    The security situation in Afghanistan is steadily improving. The 
military component of our strategy--to the extent it can be separated 
from the strategy as a whole--is meeting our objectives. Afghan and 
International Security Assistance Force (ISAF) forces have wrested the 
initiative and momentum from the Taliban in several key areas of the 
country and have forced them out of critical population centers, 
particularly in the south and southwest. Some of these areas have been 
Taliban controlled for years. Our combined forces are placing sustained 
pressure on insurgent groups. As a result, the number of insurgent-
initiated attacks has for several months been lower than it was at the 
same time last year. Security is holding in most cleared areas, 
particularly in those districts where governance and economic 
opportunity were also playing a constructive role. Critically, NATO 
members and other coalition partners remain committed.
    As a result, the insurgents have predictably shifted tactics. 
Rather than confront Afghan and international security forces directly, 
insurgent groups have and will increasingly focus on high profile 
attacks as well as assassination attempts against high-level officials. 
Like the recent complex attack in Kabul and the assassination of former 
President Rabbani, these incidents are designed to reap a maximum 
strategic and psychological effect with minimal input. Make no mistake, 
combating an insurgency is about combating perceptions. We must not 
attribute more weight to these attacks than they deserve. They are 
serious and significant, but they do not represent a sea change in the 
odds of military success. We will step up our protection of key 
officials, continue our pressure on the enemy, and patiently, 
inexorably expand the Afghan National Security Forces (ANSF), their 
capability, and the territory they hold. I expect that following the 
consolidation of gains in Kandahar in the south and Helmand in the 
southwest, our forces will increasingly focus on eastern Afghanistan 
going into next year's campaign season. Given the sequencing of this 
campaign plan, we do not expect to see the full extent of the effects 
of our military operations until late next year.
    While ISAF and Afghan forces are fighting, they are also 
transitioning security responsibilities. A sensible, manageable, and, 
most importantly, Afghan-led transition process is up and running. The 
first tranche of transitions--selected by President Karzai in March 
2011--has already changed hands. The three provinces and four districts 
in which ISAF forces have transferred lead for security 
responsibilities to the ANSF are home to nearly one quarter of the 
Afghan population. However, it is too early to judge how well Afghan 
structures handle transition, because the first tranche locations were 
already fairly developed and secure. The Afghan Government and ISAF are 
receiving feedback from these districts and provinces and incorporating 
lessons drawn from the experience into future plans. President Karzai 
is expected to announce the areas in the second tranche of transitions 
in the next few weeks. I expect ISAF will be able to thin out forces 
and employ them elsewhere in the country, and as conditions on the 
ground allow, U.S. and other coalition forces will redeploy. As 
directed by the President, we will withdraw 10,000 American troops by 
the end of this year and complete the withdrawal of the remaining 
23,000 surge troops by the end of next summer.
    Vital to this process is ANSF development. Placing security 
responsibilities into Afghan hands rests on the availability of 
capable, credible, and legitimate Afghan security forces. The Afghan 
army and police have progressed in quantity, quality, and effectiveness 
far more than we thought possible 1 year ago. We have helped the ANSF 
to already reach their 2011 end strength goal of 305,600. They are 
ahead of schedule. More important, the ANSF are in the fight, and the 
reviews from the field are increasingly positive. The Afghan National 
Police, whose capabilities and professionalism for a long time lagged 
behind the Army's, are also seeing capability gains. The ANSF now have 
a training base, and they will be taking on more force-development 
tasks during the coming year. Overwatch remains essential, and reports 
of human rights violations are serious and will be investigated and 
fixed. I expect the ANSF to be able to increasingly assume 
responsibility for securing Afghanistan and to meet the goal of 
assuming lead responsibility for security by the end of 2014.
    Despite this steady progress in the areas of security and ANSF 
development, however, a successful military strategy alone cannot 
achieve our objectives in Afghanistan. Other critical problems remain, 
problems that will undermine hard-won gains if they are not addressed.
    The fact remains that the Quetta Shura and the Haqqani Network 
operate from Pakistan with impunity. Extremist organizations serving as 
proxies of the Government of Pakistan are attacking Afghan troops and 
civilians as well as U.S. soldiers. For example, we believe the Haqqani 
Network--which has long enjoyed the support and protection of the 
Pakistani Government and is, in many ways, a strategic arm of 
Pakistan's Inter-Services Intelligence Agency--is responsible for the 
September 13 attacks against the U.S. Embassy in Kabul. There is ample 
evidence confirming that the Haqqanis were behind the June 28 attack 
against the Inter-Continental Hotel in Kabul and the September 10 truck 
bomb attack that killed 5 Afghans and injured another 96 individuals, 
77 of whom were U.S. soldiers. History teaches us that it is difficult 
to defeat an insurgency when fighters enjoy a sanctuary outside 
national boundaries, and we are seeing this again today. The Quetta 
Shura and the Haqqani Network are hampering efforts to improve security 
in Afghanistan, spoiling possibilities for broader reconciliation, and 
frustrating U.S.-Pakistan relations. The actions by the Pakistani 
Government to support them--actively and passively--represent a growing 
problem that is undermining U.S. interests and may violate 
international norms, potentially warranting sanction. In supporting 
these groups, the Government of Pakistan, particularly the Pakistani 
Army, continues to jeopardize Pakistan's opportunity to be a respected 
and prosperous nation with genuine regional and international 
influence. However, as I will discuss later, now is not the time to 
disengage from Pakistan; we must, instead, reframe our relationship.
    There is also notable lack of progress in improving governance and 
countering corruption in Afghanistan. Pervasive corruption, by criminal 
patronage networks that include government officials--at both national 
and local levels--impedes all efforts to consolidate tactical 
successes. Corruption makes a mockery of the rule of law, something 
demanded with increasing urgency by peoples across the region. It also 
hollows out and delegitimizes the very governing institutions to which 
we will be transitioning authority. Few efforts to improve government 
capabilities and legitimacy over the past several years have borne 
fruit, and without a serious new approach, systematic change in next 3 
years, before 2015, increasingly seems improbable. If we continue to 
draw down forces apace while such public and systemic corruption is 
left unchecked, we will risk leaving behind a government in which we 
cannot reasonably expect Afghans to have faith. At best this would lead 
to continued localized conflicts as neighborhood strongmen angle for 
their cut, and the people for their survival; at worst it could lead to 
government collapse and civil war.
    Pakistan also increasingly faces the threat of corruption. It 
consistently ranks among the most corrupt countries in the world by 
numerous international organizations. Corruption is a hidden tax that 
retards business investment and economic growth, makes politicians less 
responsive to people's needs, degrades the ability of the government to 
provide services, and undermines public confidence. Just as in 
Afghanistan, the people of Pakistan will struggle until the country's 
leadership addresses corruption head-on.
    Despite these challenges and their implications for local and 
regional stability, al Qaeda in this part of the world seems 
increasingly incapable. With Pakistan's help, we have disrupted al 
Qaeda and its senior leadership in the border regions and degraded its 
ability to plan and conduct terror attacks. The deaths of al Qaeda 
founder, Osama bin Laden, and a great number of other senior leaders 
and operators have put the organization in the worst position it has 
seen since the September 11 attacks. While the terrorist group still 
retains the ability to conduct murderous attacks, with continued 
pressure on all fronts, the defeat of al Qaeda's leadership and 
dismantlement of its operational capabilities in the region is within 
reach.
    Our interests in the region, however, do not rest solely in the 
operational effectiveness of al Qaeda's senior leadership. The United 
States, the countries in the region, and their neighbors all share 
interests in regional stability, nuclear surety, and increased 
prosperity. That stability is threatened by too many other factors for 
the United States to simply walk away once al Qaeda is effectively 
crippled. We must and will remain steadfast partners with Afghanistan 
and, yes, work closely with Pakistan, as difficult or as uneven as that 
relationship might be. Even as we remain committed to a conditions 
based drawdown in Afghanistan and the transition of lead for security 
responsibilities by the end of 2014, we must further develop the ANSF. 
We should shape our ongoing assistance to Afghanistan so as to promote 
reliability, accountability, and representation in both governance and 
the economic environment. We must continue to work with the government 
and military in Pakistan to forge a constructive relationship.
    I have spent a great amount of time during the past 4 years 
cultivating a relationship with Pakistan's military. I have been 
dedicated to this task because I know the importance of this 
relationship, strained as it is, and because I recognize the 
difficulties Pakistan has had and the many sacrifices it has made in 
its own internal fight against terrorism. Despite deep personal 
disappointments in the decisions of the Pakistani military and 
government, I still believe that we must stay engaged. This is because 
while Pakistan is part of the problem in the region, it must also be 
part of the solution. A flawed and strained engagement with Pakistan is 
better than disengagement. We have completely disengaged in the past. 
That disengagement failed and brings us where we are today. Thus, our 
engagement requires a combination of patience with understanding what 
is in Pakistan's national interests, and a clear-eyed assessment about 
what is in ours.
    Even in the midst of extraordinary challenges in our relationship 
today, I believe we can take advantage of this situation and reframe 
U.S.-Pakistan relations. While the relationship must be guided by some 
clear principles to which both sides adhere, we can no longer simply 
focus on the most obvious issues. We must begin to address the problems 
that lie beneath the surface. We must also move beyond counterterrorism 
to address long-term foundations of Pakistan's success--to help the 
Pakistanis find realistic and productive ways to achieve their 
aspirations of prosperity and security. Those foundations must include 
improved trade relations with the United States and an increasing role 
for democratic, civilian institutions and civil society in determining 
Pakistan's fate. We should help the Pakistani people address internal 
security challenges as well as issues of economic development, 
electricity generation, and water security. We should promote Indo-Pak 
cooperation and strategic dialogue. We should also help create more 
stakeholders in Pakistan's success by expanding the discussion and 
including the international community; isolating the people of Pakistan 
from the world right now would be counterproductive.
    In summary, success in Afghanistan and in the broader region will 
require substantial efforts outside the realm of security--they are now 
largely in the political domain. We must address the unfinished 
business of safe havens in Pakistan, poor Afghan governance, and 
corruption for there to be any hope of enduring security in 
Afghanistan. We must work toward a reconciliation process that produces 
both an intra-Afghanistan compromise providing for a real redress of 
grievances and state-to-state interaction between Afghanistan and 
Pakistan to resolve matters of sovereign concern. We must agree upon a 
Strategic Partnership Declaration with Afghanistan that will clarify 
and codify our long-term relationship. Addressing these and other 
internal problems will require hard work by the Afghans and by the 
Pakistanis and also by us. We cannot afford to put off tackling these 
problems for later.
    Turning briefly to Iraq, we have ended our combat mission there, 
and, over a year ago, we successfully transferred lead for security 
responsibilities to the Iraqi Security Forces. Iraq's military and 
political leaders are responding to the residual, but still lethal, 
threat from al Qaeda and Iranian-sponsored militant groups. As a 
result, and despite a drawn-out government formation process, the 
security situation there remains stable, and the Iraqi people are 
increasingly able to focus on jobs and development. However, the end of 
the war in Iraq will not mean the end of our commitment to the Iraqi 
people or to our strategic partnership. We must focus on the future to 
help Iraq defend itself against external threats and consolidate a 
successful, inclusive democracy in the heart of the Middle East. As we 
continue to draw down forces through December 31, 2011, in accordance 
with the U.S.-Iraqi Security Agreement, we will transition to a more 
normal military-to-military relationship.
    It has been a privilege working with this committee over the past 4 
years while serving as Chairman of the Joint Chiefs of Staff and in my 
previous positions, as well. Your untiring efforts, while important in 
themselves to our Nation's security, also serve as a much appreciated 
salute to our men and women in uniform and their families during this 
time of war. I thank you, and the entire Congress, on their behalf, for 
your unwavering support.

    Chairman Levin. Admiral, again, on behalf of every member 
of this committee and I know every Member of the Senate and all 
the people who we represent, we thank you for that 
extraordinary service and your statement as well about our 
troops.
    Let's try a 7-minute first round. Hopefully, there will be 
time for a second round, but we never know that in advance.
    Let me go back to Pakistan. Admiral, you made a very strong 
statement about the Pakistanis giving safe haven to the Haqqani 
network, to the al Qaeda group, that are attacking and killing 
our people, the Afghan troops, the coalition troops. I totally 
share it and I just want to ask the Secretary the first 
question.
    I assume from your statement that you basically share what 
Admiral Mullen has said in perhaps more detail than you did, 
but that you basically share his thoughts about the need for 
Pakistan to end that safe haven situation?
    Secretary Panetta. Absolutely.
    Chairman Levin. You said the other day that we're not going 
to allow these types of attacks to go on. I'm wondering, can 
you make it clear what kind of options are available to us to 
stop those attacks if the Pakistanis will not prevent them from 
happening?
    Secretary Panetta. Mr. Chairman, I've made clear that we 
are going to do everything we have to do to defend our forces. 
I don't think it would be helpful to describe what those 
options would look like and talk about what operational steps 
we may or may not take.
    I think the first order of business right now is to put as 
much pressure on Pakistan as we can, to deal with this issue 
from their side. Admiral Mullen has met with General Kayani. I 
know that Director Petraeus met with General Pasha. There's 
been a very clear message to them and to others that they must 
take steps to prevent the safe haven that the Haqqanis are 
using. We simply cannot allow these kinds of terrorists to be 
able to go into Afghanistan, attack our forces, and then return 
to Pakistan for safe haven, and not face any kind of pressure 
from the Pakistanis for that to stop.
    Chairman Levin. Now, that's been our position for some time 
and we've heard their excuses for some time as well. When I 
pressed Prime Minister Galani about not publicly condemning 
those attacks, his first reaction was that he has. I said: 
``Well, send me the clippings if you have.'' He backed off 
immediately and he said: ``Well, maybe I didn't, but at a lower 
level we've made statements publicly.''
    Mr. Secretary, a number of us, our leaders, have told the 
Pakistanis apparently fairly directly that we are going to have 
to take steps to end these attacks. Even though you're not able 
to outline those kind of possibilities here publicly, would you 
say that the Pakistani leaders are aware of what options are 
open to us so that they're not caught by any surprise, if, in 
fact, we take steps against that network?
    Secretary Panetta. I don't think they would be surprised by 
the actions that we might or might not take.
    Chairman Levin. Admiral, on the troop reductions in 
Pakistan, the President has announced that after the surge 
forces are returned home, the 33,000, by next summer, in his 
words, that our troops are going to continue to come home at a 
steady pace as Afghan security forces move into the lead. Is 
that a position or policy that you support?
    Admiral Mullen. I do.
    Chairman Levin. Admiral, is it your assessment that the 
NATO training mission is on track to build an Afghan army 
capable of assuming security responsibility in Afghanistan in 
accord with the timetable that's been set?
    Admiral Mullen. Actually, my own perspective on the 
training mission is one, if we go back a couple of years--and I 
think sometimes we understate the significant improvements. We 
had no structure, meaning schools, classrooms, curriculums, et 
cetera, a couple of years ago, and I think General Bill 
Caldwell and a lot of other people have focused on this in a 
way that has provided a dramatic both breakthrough and ramp-up 
of Afghan security force capability.
    A couple of years ago, many of us, yourself included, Mr. 
Chairman, and this committee, were increasingly concerned about 
the police in particular. Not unlike Iraq, the police training 
and getting them on the street lags the military. But that gap 
has been significantly closed.
    The issue of illiteracy, which was a huge issue, and it 
still remains a challenge, but we have put in place a literacy 
training which has been very effective. So we see them out now, 
trained. Typically during a week we have somewhere between 
25,000 and 35,000 Afghan military and police in training. We 
are putting in place branch schools for their army. We've 
improved the training capacity and capability on their air 
force, for their air force.
    So we've really made great strides there. They are more and 
more taking the lead in the field. I am encouraged by the 
advancements. There are a lot of tough issues left with respect 
to them, but the way it's being integrated is a great 
improvement, and I think so far it's been very successful. We 
are by no means where we need to be as of this moment, though. 
There's a lot of hard work left.
    Chairman Levin. The course that we're on you believe will 
allow us to meet the calendar?
    Admiral Mullen. As far as I can see, yes, sir.
    Chairman Levin. Thank you.
    Now, relative to Iraq. Admiral, let me ask you this 
question. There is a security agreement which was entered into 
by President Bush and Prime Minister Maliki in 2008, which set 
a deadline of December 31 of this year for the withdrawal of 
the remaining U.S. troops in Iraq. After 8\1/2\ years of 
conflict in Iraq, the end of this year is going to mark the 
completion of the transition of responsibility for Iraq's 
security to the Government of Iraq.
    What you've testified to here today is that what we are 
considering is a training mission, at the request of the 
Iraqis, so that that particular part of our presence could 
remain if it is negotiated and agreed to. The Chief of Staff of 
the Army, General Odierno, has cautioned publicly that we 
should avoid creating the impression of a large American 
presence in Iraq by agreeing to have too many U.S. soldiers in 
that country after the deadline to withdraw this December.
    Have you read those comments of General Odierno or have you 
talked to him about this, and do you basically agree that that 
appearance needs to be avoided?
    Admiral Mullen. I actually did talk to General Odierno 
about his comments and we had a very good discussion about 
that.
    Chairman Levin. I assume you urged him to keep the comments 
private while the President is considering his decision?
    Admiral Mullen. There was no one more sensitive when he was 
a commander on the ground over there on comments from some of 
us in Washington. So I think we just all have to be very 
careful.
    Chairman Levin. I agree with that. But putting that aside, 
in terms of a mission in Iraq, would you agree that we must be 
careful to avoid keeping a large number of troops in Iraq as 
being, number one, inconsistent with the agreement that 
President Bush has entered into; and number two, that it could 
unleash some street demonstrations which possibly could result 
in instability, but that whatever we are negotiating should be 
at the request of the Iraqis and we should be very careful in 
terms of the numbers that we might negotiate?
    Admiral Mullen. I think we have to be very careful about 
the numbers. For me at a very high level, the most critical 
part of this is to get the strategic partnership right, as the 
Secretary testified, and that we really are in the middle of 
negotiations right now with respect to what do the Iraqis want 
and what, quite frankly, can the Iraqi political leadership 
deliver. As the Secretary said, there has been no determination 
and no decision at this point.
    Chairman Levin. The issue is not what the Iraqis want; the 
issue is what we believe is going to be appropriate, if any, 
after they make a request.
    It's our decision; is that correct?
    Admiral Mullen. I think it will be, certainly. But that's 
part of the negotiation.
    Chairman Levin. Of course.
    Secretary Panetta, do you want to add anything to that in 
terms of a continuing training mission in Iraq?
    Secretary Panetta. I think it's important that the whole 
purpose of these negotiations is to listen to what it is that 
they need in order to ensure that they can provide security, 
and that they can deal with the threat of terrorism, in order 
to ensure that they can take the steps necessary to be able to 
deal with security threats within their country.
    We have to listen to their needs, take them into 
consideration, indicate what can be provided in order to meet 
those concerns, and then, obviously, through a process of 
negotiation, arrive at what that is going to look like. That's 
the process that's going on now. Clearly, it's going to be 
limited. Clearly, it's not going to reflect the numbers that 
we've had there in the past. But it does have to meet their 
needs, and that's what's being negotiated by General Austin, as 
we speak.
    Chairman Levin. Senator McCain.
    Senator McCain. Secretary Panetta, I don't want to waste 
the time of the committee in my questioning, but the fact is 
that one of the reasons why this has been delayed as much as it 
has been is because the Iraqis wanted to know what our 
assessment was as to how many troops should be there and that 
has not been forthcoming, and it's very difficult for the 
Iraqis to make a decision without our input into what those 
needs are. If we are basing it all on Iraqis' needs, that to me 
is an incomplete picture, because we need to know what 
America's national security needs are as paramount reason for 
leaving American troops in harm's way.
    Admiral Mullen, do you believe that U.S. forces should 
remain in the disputed territories of northern Iraq as part of 
a post-2011 mission?
    Admiral Mullen. Again, Senator, I think certainly that is a 
very contentious area and it----
    Senator McCain. Do you believe or not believe that we 
should----
    Admiral Mullen. I think the security posture in that area 
has to be such that that doesn't in any way, shape, or form, 
blow up. It's a very tough area, and the exact composition of 
how that should happen is a product of these negotiations. 
Quite frankly, I've gotten----
    Senator McCain. So you will not give your opinion as to 
whether we need to have a residual peacekeeping force in 
northern Iraq post-2011?
    Admiral Mullen. Quite frankly, very recently there is still 
a very contentious debate about that issue.
    Senator McCain. I understand there's a debate. I was asking 
for your opinion.
    Admiral Mullen. That an issue that a security force is 
going to have to be there to resolve, yes. Its composition is 
to be determined.
    Senator McCain. Every number that I have heard and been 
briefed on has stated that at least 5,000 troops would be 
needed in that area, U.S. troops, to prevent what has already 
been a very volatile area and if we weren't there, there 
probably would have been conflict.
    Admiral Mullen, from a military and strategic standpoint, 
how beneficial would it be if the President decided to delay 
the departure of the remaining surge forces from the summer of 
next year to the end of next year?
    Admiral Mullen. I think from the standpoint, now that I'm 
now into Afghanistan, sir, from the standpoint, as I testified 
to before, in terms of risk, every commander, and this is not 
just General Allen or General Petraeus before him, would like 
as much combat power for as long as possible. So I think there 
is increased risk, although to get it done by the end of 
summer, and while I said to the chairman a little while ago, do 
I support the President's policy, and absolutely I do; General 
Allen is working his way, really through what it's going to be 
at the end of this year. He hasn't worked through what it means 
for next year. That will be based on conditions on the ground.
    So, generally speaking, a commander is going to want combat 
power for as long as possible. That said, the decision has been 
made to bring them out by the end of summer and while the risk 
is up, I think it's manageable and that there's no question 
that we can get there and sustain the military success and the 
military component of the campaign.
    Senator McCain. But there is no doubt that every military 
leader, including General Allen, has testified openly that by 
accelerating the withdrawal it does increase the military risk?
    Admiral Mullen. It does increase the risk.
    Senator McCain. Thank you.
    Admiral Mullen. The military risks, yes, sir.
    Senator McCain. The military risk.
    Admiral Mullen. Senator McCain, if I could just say one 
other thing just quickly. One of the things that we've 
learned--and all of you have been going to Iraq and Afghanistan 
certainly as long, if not longer, than I. I started in 2004. 
We've learned a lot about the importance of composition of 
forces in addition to just sheer numbers. So there's been 
pressure on both sides of this issue in two countries, and that 
is something that I take away at the end of my tour, that it 
isn't just simply always about numbers.
    In Afghanistan, in particular, it's the combined security 
forces, because the ANSF are going to be in a lot better shape 
a year from now. So that's just part of the lesson that I've 
learned.
    Senator McCain. Thank you.
    Finally, getting back to Iraq, Mr. Secretary, it's not a 
training mission in the disputed areas; it's a peacekeeping 
mission. So if you're confining it only to a training mission 
then you haven't got that complete picture of the security 
risks in Iraq that I have.
    Mr. Secretary, obviously you have stated publicly, and I 
appreciate it very much, the degree of cooperation between the 
Haqqani network and the ISI, the trucks, the improvised 
explosive device (IED) factories, the ammonium nitrate 
factories, the attack that was based at the hotel. You 
understandably said that you couldn't share with us the 
operational options you have, and I understand that.
    But we better understand what the options are to bring 
about a change in the present status quo, which is not 
acceptable, which is the Haqqani network killing Americans and 
that being supported by Pakistanis. So Congress does have a 
role to play, not on just policy, but also on funding. I think 
you're going to have a real uphill battle here in convincing 
Congress to maintain a level of funding and assistance to 
Pakistan unless there is some change.
    As I said, I don't know exactly what the way through this 
is. As I mentioned earlier, we all know that we tried cutting 
off all relations with them once and that didn't turn out well. 
But I strongly recommend that you start discussing with Members 
of Congress what our options are to try to bring about a change 
in the status quo.
    Finally, doesn't Tuesday's killing of former President 
Rabbani show that the Taliban doesn't want to reconcile; it 
wants to murder and maim its way to victory?
    Secretary Panetta. There's no question that when that 
happens and it's done by the Taliban that it certainly is an 
indication that at least that particular faction, that that 
individual was from, is not interested in pursuing 
reconciliation if they're blowing up a peacemaker in that 
process.
    I think it does raise concerns. It raises suspicions. 
Nevertheless, I think, obviously, we have to continue to try to 
pursue the opportunities that are out there, but we ought to do 
it with our eyes open. We ought to do it understanding who 
we're dealing with and where they're coming from, and not 
expect that this is by any means going to be easy in dealing 
with them.
    Senator McCain. My time has expired, but General Allen said 
that it's pretty clear that the Taliban still has their highest 
priority winning on the battlefield. Would you agree with that?
    Secretary Panetta. I think from everything I've seen they 
continue to pursue their goals, and I don't think we can, as I 
said, underestimate where they're coming from. The best signal 
we can send to the Taliban is that we're going to continue to 
fight them and that we're going to continue to be there and 
that we're not going anywhere. If we can send them that clear 
signal, I think that more than anything would influence their 
willingness to develop reconciliation.
    Admiral Mullen. Senator McCain, to some degree that's 
becoming more and more aspirational. In a discussion I had with 
General Allen earlier this week and with Secretary Panetta, he 
sees their leadership parked in Pakistan. The fighters in the 
field in Afghanistan are more and more disgruntled. Their 
morale is down. It's harder to resource them.
    So I would agree that that is what they would like to 
accomplish. They're just moving further and further away from 
accomplishing that part of their mission.
    Senator McCain. I wish we were sending as clear a signal as 
you just described, Mr. Secretary.
    Again, I want to thank Admiral Mullen for his outstanding 
and dedicated service to the Nation.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Welcome, Mr. Secretary, and let me also thank Admiral 
Mullen for his extraordinary service to the Navy and to the 
Nation, his great integrity, intelligence, and remarkable 
service. So thank you very much, sir.
    In fact, I think in your opening comments you mentioned how 
you have been the principal intermediary with General Kayani, 
and I think when the history is written your contributions will 
be extraordinary, particularly at the time when they had to 
redeploy from their border with India into the tribal areas, 
your efforts and others were critical in making that happen.
    But in your dialogue with General Kayani--and I think 
you've expressed the complex relationship we have with 
Pakistan. They are at times helping us immeasurably and at 
other times aiding people who are attacking us. Correct me if 
I'm wrong, but there's two points that I think I hope you're 
making. One, is that we will have a presence in Afghanistan 
after 2014, a robust counterterrorism presence, a training 
presence, an assistance presence, because one of the notions 
running around is that we're going to be all out by 2014 and 
it'll be Pakistan's exclusive enclave.
    The second point, if you have raised or not--and correct me 
if you think I'm wrong--is that when we come out or come down, 
I should say--let me say ``come down''--in 2014, we will not 
have to rely upon the lines of communications through Pakistan 
and other support mechanisms they provide, which would give us 
more operational flexibility to strike anywhere in the region.
    Is that accurate and have those points been made?
    Admiral Mullen. At least from my perspective, I think it's 
important to know that we continue on this path to shift lead 
security responsibility to the Afghans by the end of 2014. 
While there may be some ongoing discussions about what's next, 
the discussions that I've seen essentially model, if not 
unlike, Iraq--a shift to a training mission and then obviously 
a negotiation with the Afghans about what the long-term 
strategic relationship will be.
    That's why I think this strategic partnership declaration 
currently being negotiated is so important, because that really 
is a commitment we're going to be there longer than 2014. Not 
unlike Pakistan, we left Afghanistan in 1989. They remember 
that. So that long-term commitment is absolutely critical.
    The pieces of it, we just haven't put that together. We can 
speculate about what the composition might be. I honestly don't 
know, and there's been no determination, except to say that 
there is this long-term commitment, and how we do that, which I 
think will be critical, is going to be important. If we leave, 
if we leave the region, it's my view, not unlike what happened 
before, we'll be back. It'll only get worse, and you have two 
unstable countries, quite frankly, one with nuclear weapons, 
terrorists who seek nuclear weapons, and the proliferation of 
them without any question should we depart will bring us back 
in a much more difficult situation.
    Senator Reed. Before I ask the Secretary to comment, 
though, we are going to have a long-term presence, but it's not 
going to be the same footprint we have today.
    Admiral Mullen. No.
    Senator Reed. We're not going to be supplying 150,000 
troops, we're not going to depend upon the gasoline being 
trucked from Karachi up through there, et cetera. That, I would 
think--and again, correct me if I'm wrong--would give us more 
operational flexibility, which I would hope the Pakistanis 
would appreciate.
    Admiral Mullen. I think they will. Certainly we will have 
more operational flexibility because we just won't have as many 
troops. That said, we're working hard to create other options 
even right now to supply our troops. There are a lot of 
difficulties associated with that. So, I would not say that 
we're going to be completely done with respect to needing the 
ground lines of communication coming up from the south.
    Senator Reed. Mr. Secretary, your comments on these topics?
    Secretary Panetta. I think from the very beginning the 
President's made clear that we will have an enduring presence 
there, and we're in the process, obviously, of negotiating that 
now with the Afghans with regards to the agreement on forces. 
But I think it's clear that as we draw down, as we try to 
provide this transition that we're working towards, that in the 
future we have to be prepared to listen to their needs and what 
will they need in terms of training, in terms of security, in 
the future; that will give us the opportunity to ensure that 
all of the gains that have been made will continue on the right 
track.
    Senator Reed. Let me raise another aspect of the policy in 
the region. That is, as we come down we're going to put a lot 
of increased burden upon first the ANSF. I concur with your 
assessment and particularly Admiral Mullen's assessment that 
there's been remarkable progress. The question is, first, can 
that progress be sustained; and then second, the issue of 
governance, which is the wild card every place we look across 
the globe, and not just in the developing world, but everywhere 
we look.
    But I would have to think that the strongest element we 
have is the ANSF. The issue of corruption, we have a task 
force; I know we're trying to root it out. But frankly, that's 
a long-term effort.
    Then the question comes, I think, how are we going to 
financially support ANSF? The United States can't do it alone. 
Is there an international agreement? Because it consumes 
probably what, 40 percent of the budget if they were fully 
funding their forces, Mr. Secretary?
    Secretary Panetta. First of all, Senator, I think I'm 
relying a great deal on General Allen as he develops the plans, 
not only for how we begin to bring down the surge, but also 
what happens between now and 2014. I have a tremendous amount 
of confidence in his ability to lay out a plan as we 
transition, that we bring in capable Afghan army and police to 
be able to provide security.
    In the seven areas that we have already transitioned, by 
the way, it is working very well. Now, admittedly those are the 
easier areas. We have some more difficult tranches to do. We'll 
do another tranche in the fall.
    But I think one of the things that he's working on is to 
make sure that as we transition, as we reduce our forces, that 
there is a competent Afghan military force that's in place to 
provide security. We'll have a chance to see that takes place 
and I think that will obviously impact how we measure the 
transition going down.
    With regard to the cost, it is a concern that we develop 
this large force; what is the sustainability because it's not 
cheap. So the effort right now, and I think General Allen is 
making good progress on this, is how can we reduce the costs of 
how we maintain and sustain that force in the future? They are 
making progress at reducing the cost.
    In addition to that, this isn't a cost that we ought to 
bear. It's a cost that NATO and others ought to bear as well.
    Senator Reed. Thank you.
    Thank you very much, General.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I echo the remarks made about you, Admiral 
Mullen, for your service. I thank you very much for that.
    Secretary Panetta, I was jotting down things during your 
opening statement. Some things I didn't find in the printed 
statement, but I applaud you on a great statement, but I'd like 
to comment on three things, in particular.
    First of all, a lot of people question the mission, the 
value of the mission, where we are today, and the ones who know 
it best are the fighters in the field, the commanders in the 
field, and the families of those who've lost their lives.
    When you made this statement, I was thinking that was just 
unique to me. As I visit the families of those who have lost 
people, I have yet to have one of them deny that, I talked 
about, how we cannot allow this mission not to be carried 
through. That's a very difficult thing. These are young people 
and the families of these young people. So I think maybe that's 
pretty consistent, not just in Oklahoma and our exposure to 
these people, but elsewhere, too.
    The second thing you said that I think is very significant 
is looking at any future cuts, whether they come through 
sequestration or anything else, would be, using your words, 
devastating to our abilities to defend ourselves.
    Closely related to that and the question I wanted to ask 
you, when you talked about the hollow force and we're going to 
avoid the hollow force, the easy thing to do for someone in 
your position is to put all the resources into what's bleeding 
today, and all too often that happens. So what gets neglected 
is usually maintenance and modernization. If we don't do that, 
we're going to have a hollow force.
    So I guess the first thing I'd ask you is--I know what's 
happening to your resources, I know where they're committed. 
How are you going to maintain things and avoid the hollow force 
that we've seen in the past?
    Secretary Panetta. I think the key is not to take the 
simple way out, which is to reduce everything by some kind of 
percentage across the board and try to take everything down. 
That's what we've done in the past.
    Senator Inhofe. Right.
    Secretary Panetta. The result is that training was 
weakened, the force was weakened. They didn't have the 
weaponry, they didn't have the equipment, they didn't have the 
training, and as a result, we did hollow out the force.
    So my approach to it is to look at key areas here and make 
some tough decisions with regards to savings that do not 
involve just saying we're going to take everything down by a 
certain percentage. I'm just not going to do that.
    Senator Inhofe. Also, I would hope that you would be 
looking towards the future in terms of modernization and 
maintenance, those things that are not visible to the American 
people today. I know that's what you meant and that's what you 
will do.
    Let me just ask both of you. Senator Reed talked about the 
fact of the long-term commitment and something that a lot of 
the American people don't think about, and that is if we have 
to come back a year from now, each month that goes by the 
terrorists gain greater capability. We're talking about nuclear 
capability, delivery systems, and all of that. I know that when 
Israeli Prime Minister Benjamin Netanyahu paid his visit here, 
his concern is that as time goes by--he was referring to Iran--
the capability of the other side is increasing.
    So to me, that ties into something that I have thought was 
a mistake, whether it's this President or past presidents, in 
making withdrawal dates, just the general concept, the fact 
that we are telling the enemy what to do--what we're going to 
do and when we're going to do it. If they know the time line, 
and thinking about the mentality that we're dealing with--we 
think in terms, Americans generally do, of hours and days. They 
think in terms of years and decades.
    Last week, Ambassador Crocker said, and I'm going to quote 
now, he said: ``What we have to do is, I think, demonstrate the 
strategic patience that is necessary to win a long war. It's 
going to require more resources, it's going to require more 
time.'' I hope we can bring those to bear, because it's hard 
and painful. As expensive as it has been in blood and treasure, 
it's cost us a lot less actually than 9/11 did.
    In terms of the concept of setting these dates, I would 
just say, that when the dates were set, one already gone by us, 
that is July 2011, then the summer 2012, and then December 
2014, do you think that demonstrates the strategic patience 
that he was talking about? What's your feeling about the 
withdrawal dates as a concept?
    Secretary Panetta. I understand your view on that. I guess 
my approach to it is that the most important signal we can send 
is if we do this right and we pay attention to conditions on 
the ground and make sure that it works. Whether we have a date 
or not, the key here is making this transition work, making 
sure that the areas that we transition remain secure, making 
sure that stability is put in place, making sure that we don't 
allow that country to ever again become a safe haven for the 
Taliban.
    In many ways, that's my test for whether this works or not. 
Whether there's a date or not, obviously we'll have differences 
over that. But I think the real key is how do you conduct this 
transition in a way that makes it clear that we're headed in 
the right direction.
    Senator Inhofe. Right. I think it's a difficult thing to 
deal with. I have to say this, that during every visit I've 
made over there the Afghan and coalition personnel unanimously 
said that setting the dates was a bad idea. I know that you 
take that into consideration.
    We've talked a little bit about something I want to 
elaborate on, and that is we seem to concentrate on the bad 
things that are happening, but, Admiral Mullen, this thing 
that's happening over there in terms of the training program--I 
was over there on New Year's Day and I spent a long time going 
over and looking at what they are doing in this--in the Kabul 
Military Training Center. You look at that, it mirrors what 
we're doing in this country, the segregation between infantry 
and artillery.
    I just applaud everyone who had anything to do with that. 
The last figure I got was about $12 billion a year, the cost. I 
would hope that you would look at the successes we're having 
there, not just in the abilities of these guys that we're 
training, but in their attitudes, because in each case they'd 
stop and say, why are you doing this, and they were very proud. 
They are looking for the day when they are going to be able to 
do the very job that they're being trained for.
    Do you have any comments to make on that?
    Admiral Mullen. Senator, I visited the police academy 
there, and one of the things that I took away was exactly what 
you said. What I didn't understand was, clearly we've focused 
so much on illiteracy, but in fact the officer corps is a 
literate force, an 85 to 90 percent force. So the illiteracy 
challenge has obviously been on the enlisted side, and we've 
made great improvements there, against what seemed to be 
impossible 2 years ago, as we used to discuss it.
    This year, General Caldwell has actually returned, because 
of the analysis, $1.6 billion in 2011. We know $12 billion a 
year isn't going to work. There has been a lot of detailed work 
now to look at how to get that significantly down. Actually, 
John Allen has a lot of confidence in that work. We know that 
there has to be something there long-term, but it can't be at 
that level. So do the Afghans. They understand that.
    So from that model standpoint, I'm very encouraged with 
where we are and where we've come from in less than 24 months.
    Senator Inhofe. I am too. I know, Secretary Panetta, you're 
new in this particular job, but you're fully familiar with what 
we're talking about there and the successes. I would just hope 
that nothing is done that's going to change that successful 
pattern that has been developed.
    My time has expired, but I do have a question for the 
record having to do with coalition forces, which I will submit. 
Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you. It will be asked for the record. 
Thank you, Senator Inhofe.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Let me begin by joining everyone else in thanking Admiral 
Mullen for his many years of service and adding a particularly 
personal note in that we've had the pleasure of knowing each 
other for more years than I can count, since we were plebes at 
the Naval Academy, trying to figure out what entropy was and 
how you can measure the thermodynamic properties of steam. It's 
been a long journey and Mike Mullen from day one all those 
years ago has always been known for his forthrightness and for 
his integrity.
    It's been just a great honor to be able to work with you in 
your present capacity. I also wish your family and Deborah 
well. She has done enormous things for veterans and for wounded 
warriors in those other areas. So again, thanks so much for 
your service and we look forward to seeing you on other 
occasions.
    It occurred to me when listening to the exchanges that we 
tend to go tactical when we have these discussions. At the same 
time, I think from my perspective we should be struggling here 
with the strategic and operational model, that we should be 
using looking into the future in order to address the issue of 
international terrorism. There's not a cure-all, but I think if 
we look at the models of the past 10 years, how we have 
struggled with this issue, we ought to have a better idea in 
terms of how we're going to move into the future on these 
things.
    We can start with the model of Iraq. Certainly the 
discussions that I've listened to today clearly indicate that 
we have inherited certain responsibilities as a result of what 
in my view was a great strategic blunder. There was no al Qaeda 
activity in Iraq when we invaded. We ended up as an occupying 
force in the middle of sectarian violence that followed our 
invasion.
    We've spent well over $1 trillion. At the same time, as I 
and others were predicting, we have seen the empowerment of 
Iran in the process.
    We can then go to the Afghanistan model, where there were 
legitimately issues in terms of international terrorism, but 
more recently we have assumed the risk and the expense clearly 
of nation-building. It's costly, it's casualty-producing. I 
quite frankly don't know what the outcome is going to be. I'm 
going to ask a question about that in a minute.
    Then we've seen recently an addition to this model in 
Libya, where we have seen unbridled presidential discretion in 
terms of the decision when to use military power beyond all 
normal historical precedent. I've spoken about this many times. 
We have a definition of humanitarian mission in order to 
unilaterally introduce the American military into a theater of 
operations.
    I worry about that. It's a vague and worrisome standard 
when you apply it into the future and when an administration 
comes forward and says, this isn't conflict, we don't have to 
discuss that with Congress, I think we all ought to be thinking 
hard about the implications down the road.
    Then we have, especially recently, the use of special 
operations, and more particularly Predators, from remote bases, 
attacking terrorist targets in highly secret missions in remote 
locations, and all of these occurring in areas which have 
fragile governmental systems or, quite frankly, no governmental 
systems.
    So really what I come back to is what have we learned from 
this? What is the model now for the future in terms of how we 
define the existential threats to the United States and how we 
apply military force to them? Admiral, this is your final 
voyage here on the Senate Armed Services Committee. I'd like to 
hear your thoughts on that.
    Admiral Mullen. As I listened to you, Senator Webb--and I 
appreciate not only your comments, but obviously the friendship 
that is pretty special just because of where we both came from. 
I think, honestly, we're to some degree learning as we go here. 
Obviously, decisions get made about where we go to fight and 
how we fight, and we learn lessons from that.
    Clearly, Iraq--this is notwithstanding whether we should 
have gone there or not, but certainly, once there, with a 
conventional force that needed to dramatically shift, and a 
development of an understanding which we'd lost. We've 
forgotten about what counterinsurgencies were. Now evolution in 
that regard to where we are, and in my view, which I spoke to 
very early in this job, left us underresourced in Afghanistan.
    Clearly, the main effort has shifted there. In ways it's 
the same kind of fight, but it's a much different place and the 
complexities are enormous, and it's not just one country any 
more.
    Just back to Iraq for a second, I hear the Iran 
emboldenment piece and I get that, but I've watched them. In 
ways, what's happened in the Arab Spring is just rejected al 
Qaeda, rejected Iran. So as they've tried to insert themselves 
even in the opportunities in the Arab Spring, in fact, it's 
continuing to be rejected.
    Then the President's decision with respect to Libya, 
obviously it was a completely different way to support the 
overall effort. We have in these hearings and historically, 
we've beaten NATO to death. We haven't heard a word today about 
NATO support, negative word today about NATO support in 
Afghanistan. I met with all my counterparts last weekend. It's 
extraordinary where NATO is on these kinds of things versus 
where they were 2 or 3 years ago.
    I would argue there--and I was delighted to see Europe take 
the lead there--again, I don't get to decide what we do; that's 
somebody else--and, quite frankly, have an impact, however we 
got to that decision.
    But I think all of that--and I take the tactical counsel 
well, but there are strategic implications for all these 
things, significant differences. I guess I would want to really 
carefully look at the lessons and integrate that into the 
longer-term strategic view, how do we get ahead of this? Right 
now it's very much one at a time.
    For me, there's only two existential threats to our country 
right now. One, the nuclear weapons that Russia has, and I 
think we have that very well-controlled inside New START. Two, 
is cyber, quite frankly. So, you pose very important and 
difficult questions that, out of all this, if we can step back 
from day to day, we owe ourselves some answers about how to 
move ahead, because it's not going to get any easier.
    I think there will be situations where the use of military 
force will continue to rise, maybe not in the scale that we 
have right now. But taking what we've learned, as difficult as 
this decade has been, and figuring out what that means for the 
future is a very important effort.
    Secretary Panetta. Senator, if I could?
    Senator Webb. Mr. Secretary.
    Secretary Panetta. Senator, you've raised some very 
important issues. This is really a very appropriate time to 
raise those questions, as we're in the process of trying to 
trim over $450 billion from the defense budget. We have to look 
at larger strategies here as to what kind of defense system do 
we need to build as we confront those challenges and as we look 
to the future.
    Part of this has to be based on the threats that are out 
there. Clearly, we're going to continue to have a threat from 
terrorism and we're going to have to confront that. I don't 
think it necessarily means that we put 150,000 people into 
different countries in order to deal with that. We have ways to 
do that that are much more effective, much more agile, much 
more efficient, that can confront that. But that's an area we 
need to talk about.
    We continue to have the threat of nuclear capability from 
both North Korea and Iran. We have to be prepared to deal with 
that threat. We have to be able to confront China. We have to 
be able to deal with the cyber threat. We have to deal with the 
challenge of other rising powers.
    All of these things are the kinds of threats that we're 
going to confront. What kind of force do we need to have that 
would make us effective at dealing with those threats? That's 
something clearly I need your advice and guidance on as we try 
to structure the future in DOD.
    Senator Webb. My time has expired, Mr. Chairman. I'd just 
like to--on that point, Mr. Secretary, just one sentence, that 
if we or you indeed want the country to have the patience with 
respect to fighting a long war, I think it's going to be even 
more important to define very clearly what is the vital 
national interest in terms of our current operations in 
Afghanistan.
    Thank you, Mr. Chairman.
    Admiral Mullen, Mike, good luck to you.
    Admiral Mullen. Thank you.
    Chairman Levin. Thank you, Senator Webb.
    Senator Sessions.
    Senator Sessions. Thank you.
    Thank you for that good discussion. It's the kind of thing 
that we do need to be talking about. It's critical to the core 
of our strategic world positioning.
    Secretary Panetta, you said that DOD had doubled in the 
last 10 years. Actually, I find that to be an 84 percent 
increase, not quite doubled. Over 10 years--that's the base 
budget. That's a significant increase, but not as much as a lot 
of the other accounts in our government have had over the last 
10 years.
    The war costs are beginning to come down. This year it's 
$159 billion. Next year we expect $118 billion, thereabouts, 
the cost of both wars, overseas contingency operations. The 10-
year cost for both wars was about $1.3 trillion and that's less 
than this year's deficit. Our total deficit this year will be 
about $1.4 trillion and the war costs will be a little more 
than 10 percent of that.
    So, I guess, I think it is important for all of us to 
realize we will not balance the budget by the war costs coming 
down.
    Secretary Panetta. That's true.
    Senator Sessions. They just will not. It did cost us a lot 
of blood and a lot of treasure and we should never 
underestimate that. But in terms of balancing the budget--and 
I'm ranking on the Budget Committee, so I'm seeing these grim 
numbers. They are really tough. They are really tough, and I 
believe DOD has to tighten its belt, as I think both of you do.
    Admiral Mullen, you've been quoted frequently about the 
greatest threat to our national security is our debt, and I 
think it is.
    So you've used today, I believe, Secretary Panetta, $450 
billion as the amount that was part of the debt ceiling that 
we've already voted. So the vote we did on the debt ceiling 
takes the defense budget down about $450 billion over 10 years, 
which is pushing 10 percent. However, the challenge I know that 
you are faced with is what happens if there's not an agreement 
within the committee and the sequester takes place.
    Admiral Mullen, it looks to me like it'll be about $850 
billion over 10 years, maybe $800 billion, some have said, 
reduction in spending. In your best military judgment, is that 
acceptable? Is that an acceptable reduction in spending?
    Admiral Mullen. Absolutely not. Actually, our estimates go 
to about $1.1 trillion if sequester goes into effect. But it's 
not only just the amount; it's how it's executed, because it's 
peanut butter, it's everything. From my perspective, it has a 
good chance of breaking us and putting us in a position to not 
keep faith with this All-Volunteer Force that's fought two wars 
and that needs to be reset in everything else that we look at 
for the future. It will impose a heavy penalty on developing 
equipment for the future.
    If we're not able to--and it will hollow us out. So I think 
we do need to participate, and I have argued for doing that in 
roughly the current amount.
    Secretary Panetta said a very important thing in his 
opening statement, that whatever changes we make, and this also 
is at the heart of this discussion with Senator Webb, we have 
to be strategically focused. We have to have a strategy, and 
having that strategy or different views of the future, and then 
what is it going to take to meet that. This is not the 1970s, 
it's not the 1990s. This is from my perspective a much more 
dangerous time because of the world that we're living in, and 
the world keeps showing up on our doorstep for the use of the 
military.
    So we have to be very judicious about that. I think the 
work that we've done to look at how we would do this at the 
$450 billion plus level has forced us to look into the abyss of 
what it would be if we had to roughly double that. I think it 
would be incredibly dangerous for our country's national 
security to go there.
    To your point, we are not going to solve that debt problem 
on the back of DOD. You can't do it if you zeroed the budget.
    Senator Sessions. That's correct. We have a $1,400 billion 
deficit this year and the total defense budget is $529 billion. 
It's not possible.
    Admiral Mullen. Senator Sessions, just one other thing. We 
have the same problem you have here. Yes, it's 10 percent, but 
we have our own discretionary accounts and our own mandatory 
accounts, and in fact, if we can't get at some of the mandatory 
side, pay, benefits, those kinds of things, we're way above 10 
percent on the accounts that we can affect modernization, which 
is where we always end up going, modernization and force 
structure, the people accounts. So we get smaller faster, which 
again, I think, would be significantly smaller faster, and I 
think it would be very dangerous.
    Senator Sessions. Admiral Mullen, just briefly, you said 
you could break the military. I have a sense about our fabulous 
men and women in uniform. They're willing to do tough things. 
They're willing to take their share of the cuts. But it could 
be very demoralizing if there is a perception that they've been 
targeted for exceptional cuts that others aren't taking. Would 
not you agree?
    Admiral Mullen. I would, completely. I think the Service 
Chiefs would tell you, and I've seen it myself, we've all 
talked about tightening our belts and we don't get much 
pushback. There can be some specific areas. There is concern 
for changing the retirement system and that isn't on the 
immediate horizon.
    We, Secretary Panetta and I, both agree we have to figure 
out, if we make these changes, that we grandfather them 
properly to keep faith with those that we contracted with that 
are in the force right now.
    But yes, they are extraordinary and I think they are 
willing to do their fair share here, but they would not be 
willing and should not be willing to do that at an exceptional 
level.
    Senator Sessions. Let me just point out for my colleagues, 
the sequester is not an across-the-board sequester. DOD, even 
though last year we went up, it was a flat budget, from $528 
billion to $529 billion, got no increase basically last year in 
the base defense budget. So you're talking about 15 or more 
percent, maybe more percent than that, whereas in the last 10 
years defense has gone up 84 percent, but the food stamp 
program has gone up 297 percent, the Medicaid program has gone 
up 113 percent. In the last 2 years, nondefense discretionary 
went up 24 percent.
    So, I guess, what I'm worried about is that our committee, 
they really do need to reach an agreement that can produce some 
reductions in spending that are significant and meet the goal 
that the committee was given. But it would be unacceptable, I 
think, to allow these unfair cuts, because Medicaid, for 
example, and the food stamps, earned income tax credit, are 
exempted under the sequester from any cuts.
    Secretary Panetta, thank you for your strong opening 
statement that represents a mature, solid view of where we are. 
Would you like to comment before we wrap up?
    Secretary Panetta. Senator, I'm probably one of the few 
people here that, having worked on a number of budget summits, 
ultimately did achieve a balanced budget. Let me tell you, if 
the idea is that you can rely on sequester in order to get 
there, that's an irresponsible view. Sequester was always 
fashioned--I actually was present at the conference in Gramm-
Rudman, when we fashioned the first sequester, and it involved, 
incidentally, entitlement programs as part of the sequester. 
That's why it never happened.
    But when you develop these kinds of doomsday mechanisms 
that are supposed to blow everybody up, in the hope that 
they'll do the right thing, very frankly, it doesn't work very 
well. The responsibility does lie with the people on that 
committee to look at the entire Federal budget. You can't deal 
with a Federal budget that's close to $4 trillion and expect 
that you can do it through sequester on the discretionary side 
alone. Discretionary accounts for one-third of that budget. 
Two-thirds of that budget is in the mandatory area. You have to 
be willing to put all of that on the table if you're serious 
about reducing the deficit. I hope the committee does do that 
when they look at all these issues.
    Senator Sessions. Briefly, one quick question. Based on 
your experience in the previous effort that succeeded in 
balancing the budget, would you agree that the depth of our 
challenge this time is far greater than it was when you made 
that achievement last time?
    Secretary Panetta. It sure is. The last time we balanced 
the budget, I thought we were in Valhalla and that we'd be able 
to continue to operate on a balanced budget and that it would 
stay in place and we wouldn't dare put us back into a huge 
deficit again. Unfortunately, that happened and now it's much 
worse than it was when I faced that issue. It's a huge 
challenge.
    But nevertheless, this Congress has the responsibility, 
working with the administration, to get us on a track to 
ultimately reduce that.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to say good morning and, Admiral, welcome to our 
witnesses this morning. Admiral Mullen, please convey my aloha 
to Deborah as well. I join my colleagues in thanking you and 
your family for the many years of outstanding service to our 
country.
    To my classmate, Secretary Panetta, I want to say aloha to 
you, too, and to Sylvia, and wish you well in your 
responsibilities.
    I want to thank our men and women in uniform, as well as 
the families, for all of their sacrifices. As we both know, we 
face difficult decisions regarding our future in Iraq and 
Afghanistan. However, the one thing that is not in doubt is the 
fact that our soldiers, sailors, airmen, and marines continue 
to serve with honor and distinction, and we are proud of them.
    Secretary Panetta, the Special Inspector General for 
Afghanistan released an audit showing that efforts to track the 
billions of dollars in aid provided to Afghanistan since 2002 
has been hampered by numerous factors. As we look to the 
future, what are some of the adjustments that are being made to 
increase the accountability of how these dollars are being 
spent?
    Secretary Panetta. Senator, one of my concerns is that, I 
think, we have to be able to audit the books of DOD. While this 
is done now in each of the areas, we don't have an overall 
auditability for DOD. The effort right now, I think, is on 
track for something like 2017 in order to complete that 
process. I think that's too long. I think we have to be able to 
be auditable, we have to be accountable to the American people 
about how these dollars are being spent.
    So for that reason, I've basically urged all of the people 
in our budget shop to do everything necessary to try to speed 
that process up so that we can track these dollars and make 
certain that the taxpayers are getting the best bang for the 
buck.
    Senator Akaka. Thank you.
    Secretary Panetta, last quarter ISAF rated three additional 
units within the Afghan National Army that are capable of 
operating independently. As we continue to transition regions 
of Afghanistan back to host nation control, what is the state 
of the remaining units that are attempting to achieve this high 
rating level?
    Secretary Panetta. Senator, I'll yield to Admiral Mullen, 
who has worked directly with this issue. But my understanding 
now is that the number of units that had that capability has 
gone up, gone up dramatically. What I've seen, both in the 
trips I've taken there and listening to General Allen, is that 
there are more and more units that are operational, that are 
able to go into battle, that are able to conduct the kind of 
operations that have to be conducted in order to defeat the 
Taliban.
    So we are seeing--it's taken a while, it's taken a lot of 
training, it's taken a lot of work. But what we are seeing are 
units that are increasingly capable of engaging in battle. If 
we're going to be able to make this transition, we have to make 
sure that all of their units have that capability.
    Admiral Mullen. I'd just say, Senator Akaka, that over 70 
percent of the police units are rated in the top three 
proficiency levels. 90 percent of the overall ANSF units are 
partnered with ISAF and the ANSF lead occurs in about 60 
percent of our operations. That is just a far cry from where we 
were 12 or 18 months ago.
    So, as the Secretary says, the trends are all in the right 
direction. I don't want to overstate this. There's an awful lot 
of hard work that's left, but in this area in particular it has 
been extremely successful over the course of the last year and 
a half, and we look for that to continue and we see nothing 
that gets in the way of them continuing to take the lead, 
become more proficient, so that they can have the lead 
throughout the country by the end of 2014.
    Senator Akaka. Thank you.
    Admiral Mullen, the Joint IED Defeat Organization (JIEDDO) 
was created in 2006 to reduce or eliminate the effects of all 
forms of IEDs used against U.S. and coalition forces. What is 
your overall assessment of how the organization is achieving 
its three-part mission: attack the network; defeat the device; 
and train the force?
    Admiral Mullen. I think JIEDDO has been an enormous 
success. I'm not unaware of the amount of investment that it's 
taken. What strikes me is when it was stood up and heavily 
focused, although not exclusively on Iraq, it had an enormous 
impact across all three of those mission sets.
    It's currently being led by somebody who's been in the 
fight. As we shifted the main effort to Afghanistan, the IED 
threat is still extremely difficult, and yet the enemy is 
shifting more and more to these spectacular attacks, on the one 
hand, and to a very heavy focus on IED implants. It's a 
different IED set. We've needed this organization, I think, to 
be in touch with the fight and to be able to respond as rapidly 
as we can.
    Actually, I appreciate the efforts on the part of many here 
in the Senate, Senator Casey leading the effort to continue to 
put pressure on the ammonium nitrate piece in Pakistan, so that 
we can cut that down as rapidly as possible.
    There is a view that we should integrate this into our 
overall organization. I'm not there yet. I think we need to 
wait until it's much more obvious that we fully integrate 
JIEDDO, because oftentimes in our big bureaucracy that can 
bring an outfit to parade rest or elimination, and it's too 
vital for our overall fight to do that at this time.
    Senator Akaka. Thank you.
    Admiral Mullen, you are an outstanding leader and have 
served your country with honor over the last 4 decades. In your 
view, aside from budgetary issues, what do you see as the 
biggest challenge facing our military in the future?
    Admiral Mullen. I think when people ask me about the 
future, as we look in the discussions that we're hearing right 
now, I think if we are able to retain the right people, take 
care of our families, reset this force, we're the most combat-
experienced force in our history, and that we not hollow it 
out. It may be best summarized by: We may be the biggest threat 
to ourselves if we don't get this right.
    But if we keep the people right now, that doesn't mean keep 
all the people. If we are able to ensure that this best force 
I've ever seen in my life stays whole at whatever size and is 
supported, then I think we can address whatever threats are out 
there and provide the military capabilities and provide for the 
vital national interests.
    So it may be that in the budget world our care has to be so 
precise that we don't break this force or break faith with our 
people. If we get that right, I think we'll be okay for the 
future.
    Senator Akaka. Thank you very much, Admiral Mullen, and 
thank you for your service, and my best to you and your family 
in the future.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of you for being here today. Admiral 
Mullen, obviously we will miss having you before this 
committee, and thank you so much for your decades of service to 
our country.
    Director Clapper testified last week before the House and 
Senate Intelligence Committees that the reengagement rate from 
those that we have released from Guantanamo Bay is at an all-
time high, 27 percent, which means that out of the 599 
detainees who have been repatriated from Guantanamo, there are 
161 of them who we've either confirmed or suspected of 
reengaging in terrorist activities or insurgent activities that 
obviously put our troops in danger, further undermine security 
in areas that we're fighting, and are threats to the American 
people.
    So I would ask both of you: At this point, would you agree 
with me that that reengagement rate is unacceptable?
    Secretary Panetta. There's no question that we can't allow 
that to happen, where you release individuals that immediately 
go back into the battle and start killing our forces. Now, one 
of the protections is that any kind of transfer that's made I 
have to certify that the country that accepts that transfer has 
taken all of the precautions necessary to ensure that that 
doesn't happen. I haven't done any of that up to this point as 
Secretary, but you can be assured that I'm not going to certify 
unless I am damn sure that that's going to happen.
    Senator Ayotte. Can we have your assurances that you, as 
you just said, that you won't allow someone to be transferred 
from Guantanamo to another country unless you can be assured 
that they're not going to reengage back in the battle to harm 
us.
    Secretary Panetta. That's correct.
    Senator Ayotte. I appreciate that. One of the issues I 
would ask both of you about is, if tomorrow we capture a high-
value terrorist outside of Iraq and Afghanistan, where do we 
put them, assuming we want to interrogate, assuming we want to 
detain, assuming we continue to have security concerns about 
them if we were to immediately release them or put them in some 
other country?
    Secretary Panetta. Senator, the approach now in dealing 
with that is very much looking at a case-by-case approach. We 
did it recently with Warsami, who was a terrorist who we 
located and captured. We were able to gather a great deal of 
intelligence from him. As we developed that case, there was a 
decision made that he could be prosecuted in the courts, so he 
was transferred for the purpose of being prosecuted.
    With regards to the issue of ability to detain individuals 
under the law of war provision, that is an area, frankly, that 
I think we need to work with Congress to decide how we do that, 
because the answers to that aren't very good right now.
    Senator Ayotte. I would agree with you. I think we need a 
long-term detention policy. Right now, would you both agree 
with me there isn't an alternative to Guantanamo that exists 
right now?
    Admiral Mullen. First of all, I agree with the thrust of 
what you're saying. There's not a military commander out there 
that wants to see anybody back, and the return rate is far too 
high. Secretary Panetta as well. None of us want to see that 
happen.
    We do need a long-term detention policy. I think the 
Warsami case actually is instructive. In that case, we actually 
kept him at sea for a while. Now, that has limits. You don't 
want your Navy completely tied up and this is a case-by-case 
basis, and in fact, moving in that direction. There is a way to 
keep him and he is being kept right now, having gotten to the 
point where he can be prosecuted.
    But the law of war piece, it's a very hard problem that is 
going to, from my perspective, take everybody getting together. 
It's been very contentious. We understand all that. But without 
that, it's given us this return rate and it puts people on the 
ground who are in the fight in a pretty tough spot.
    Senator Ayotte. When you talk about the situation with 
Warsami, we couldn't do that with every single individual, 
though, put them on a ship, could we, in terms of a practical 
reality?
    Admiral Mullen. No, not really.
    Senator Ayotte. I think we're going to need more ships if 
we're going to do that.
    One of the concerns that I have that brings me to this is 
Attorney General Holder pledged this week that the 
administration would close Guantanamo Bay prior to the 2012 
presidential election. My concerns about his comments are that, 
hearing what you have said and what our military leaders have 
said before this committee, right now we don't have an 
alternative, and we have a recidivism rate that's unacceptable.
    So I would just say to both of you, I think it's very 
important that we not put political considerations ahead of 
making sure that these individuals don't get back in theater to 
further harm us, our allies, and our troops.
    Secretary Panetta. The bottom line here, Senator, is we 
have a real conflict here. Obviously, the President is very 
intent on closing Guantanamo and not adding to the Guantanamo 
population. At the same time, Congress has made very clear that 
there's no other place that we're going to be able to put these 
individuals through legislation of one kind or another.
    We have to be able to resolve that for the benefit of this 
country, and I would hope that, working together with Congress, 
we could find a way to deal with these conflicts.
    Senator Ayotte. I hope so, too. I firmly believe we should 
keep Guantanamo open. I think that it is a top-rate detention 
facility. I've been there, and I think that is the best way to 
move forward. I am hopeful that we will resolve. It must make 
our troops so angry when they come across someone that we 
released, and they're confronting them again. So I don't want 
them to be in that position.
    I wanted to ask you about Iran, and in particular Iran's 
influence on Iraq right now. Admiral Mullen, how would you 
describe Iran's surrogate activities in southern Iraq, and is 
Iran providing weapons to Shiite militias in Iraq who are in 
turn attacking our troops, and how much is Iran contributing to 
increased violence in Iraq?
    Admiral Mullen. I think over the summer there was a 
significant spike, what the Secretary said earlier, with 
respect to Iran supporting two Shia extremist groups, Asa'ib 
al-haq (AAH) and Kata'ib Hizballah (KH). They have control of 
that, very clear, because we went by several channels, but 
politically to Iraq. Iraq went to Iran and it stopped. So it 
is--there's no question that Iran can control this, and it's a 
very dangerous potential. They're shipping Explosively Formed 
Penetrators (EFP) and Improvised Rocket-Assisted Munitions 
(IRAM) in particular, and the IRAMs are getting bigger and 
bigger.
    So there is a great down-side potential for destabilizing, 
particularly southern Iraq, that actually I think Prime 
Minister Maliki and the Iraqi leadership are concerned about. 
So in that regard, it is on the one hand up to them. It's very 
clear that if they want to do it they can do it. They have been 
warned about continuing it and, consistent with what the 
Secretary has said about the Haqqani network, that if they keep 
killing our troops that will not be something we will just sit 
idly by and watch.
    Senator Ayotte. My time is up, but I appreciate your 
answer, and I would suggest also that as we look at troop 
levels that it is in our national security interest, 
particularly with respect to Iran, that we have a government in 
Iraq that is independent of Iran and that we do not allow Iraq 
to be in a situation where Iran has a greater influence than we 
would want them to, given our posture toward Iran, our concerns 
about Iran. So I'm hopeful that we will take that into 
consideration and make sure we have enough troops to secure 
Iraq.
    Thank you.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    We're all sounding like a broken record, Admiral Mullen, 
but you're the real deal. You have been an incredible leader 
for our military and your family has been terrific. I haven't 
always liked every answer you've given, but I never doubted for 
a minute you were giving me absolutely your most honest 
assessment of any question that was being put your way. That's 
all we can ask for as the U.S. Senate, is that kind of 
forthright, this isn't always easy, real good information. So 
thank you for that.
    I want to talk a little about sustainability. I think it is 
something that as we have developed as the strongest military I 
believe in the world counterinsurgency strategies, I think that 
the military has done a good job of figuring out how we work 
with a counterinsurgency situation, but I'm not sure that we 
focused enough on sustainability. We have a country, 
Afghanistan, that has without our help somewhere between $2 and 
$3 billion gross domestic product (GDP), and they're now 
getting $16 billion a year in GDP because of foreign aid.
    Now, there are two parts of sustainability. One is what 
we're doing for their Armed Forces and what we're doing for 
infrastructure. I have yet to have anybody explain to me how 
they afford the army we're building for them. They can't afford 
it. They can't afford to pay for the army we're building for 
them. We've built a university for them, for their military, 
that will cost $40 million a year just to maintain and operate, 
and their GDP without all the foreign aid is not going to be 
sufficient to even operate that.
    The other part, before either of you respond, is the 
infrastructure. I need to know who did the sustainability 
analysis on the Kabul power plant. How do we spend $300 million 
taxpayers' dollars for a power plant that they can't afford to 
operate now, even with the $16 billion GDP that they have with 
our aid. It is sitting there as a $300 million generator that 
is used every once in a while when there's a power plus or when 
there is a problem with the electricity they're buying. I don't 
remember which one of the Stans, but they're buying electricity 
from one of the Stans at a much cheaper cost than it will be to 
operate the $300 million power plant we built for them.
    I'm very worried that we are throwing money at something 
that is just not sustainable, and that is the ultimate insult, 
I think, to the men and women who have risked their lives.
    Admiral Mullen. We talked about this earlier, Senator 
McCaskill. This is a critical issue that we, one, understand; 
and two, there's a lot of detailed work going on right now, and 
it is not finished. It isn't something I could bring and say, 
here's the answer. But we recognize that $12 billion a year for 
the ANSF isn't anything close. It has to be dramatically, 70, 
80 percent less at best, in order to be able to sustain it. It 
also needs to be shared. This isn't just a U.S. burden in the 
long run. It needs to be shared with other partners from an 
international perspective, but done in a way that allows them 
to provide for their security.
    So, we just got them to a point where we started to build 
them up. Your questions are valid. We're asking them of 
ourselves from an infrastructure standpoint. But I also don't 
associate their GDP this year with what it's going to be 
forever as well. There's an opportunity to develop. Whether it 
will or not, I think, is an open question.
    It's a question actually, I think, Afghan seniors are 
starting to understand, the Government of Afghanistan, to some 
degree. I don't think we're going to have any answers here in 
the next couple of months, but over the course of the next 12 
to 18 to 24 months, I think, we'll know a lot more about that, 
and we'll have a better perspective on questions like the one 
you raised.
    I'll have to get back to you on the Kabul electric plant. 
But it's the same kind of question. We are looking at it, and 
the President has tasked us with looking at the infrastructure 
piece of this along the lines of what you're talking about, not 
just the military, but DOS and other agencies as well.
    [The information referred to follows:]

    The Kabul Power Plant, more commonly called the Tarakhil Power 
Plant, was a U.S. Agency for International Development (USAID) project. 
According to USAID, in March 2007 USAID and Embassy Kabul sent a 
message to Washington relaying their support for the Government of 
Afghanistan's plan to guarantee long-term, 24-hour access to 
electricity in Kabul through the construction of the Tarakhil Power 
Plant. The plant would provide insurance against disruption of power 
supplies from Central Asia and as peak backup. The March 2007 message 
passed on the Government of Afghanistan's request for urgent donor 
assistance to construct Tarakhil after it was determined that 
significant power shortages would persist throughout Kabul even after 
the North East Power System (NEPS) came online. According to the 
message, the grid at the time did not include back up capacity to 
provide sufficient electricity to overcome operating constraints of the 
NEPS and potential supply disruptions of electricity coming from 
Central Asia. During Ambassador Eikenberry's remarks at the 
commissioning of the first 35MW block of the Tarakhil Power Plant in 
August 2009, he specifically attested to the use of this plant as a 
peaking and backup power plant.
    On the issue of sustainability, USAID has been working with the 
Afghan national utility Da Afghanistan Breshna Sherkat (DABS) on two 
fronts. First, they have been providing extensive hands-on training to 
DABS engineers charged with operating and maintaining this power 
facility so that they carry out their duties effectively. Second, USAID 
is working with DABS to strengthen its commercial operation so that it 
can sustain the operation of the entire power network, including the 
Tarakhil Power Plant, with reduced support from donors. With USAID 
assistance, DABS' revenues have reached $175 million per year and are 
increasing--a situation that now permits the Government of Afghanistan 
to cease providing an annual operating subsidy of $150 million per year 
as it has had to do in the past.

    Senator McCaskill. Secretary Panetta, we've spent $70 
billion in Afghanistan just on reconstruction and development. 
That's not MILCON. That's not any of our ongoing training of 
the military. That's none of our military operations on the 
ground. I really do think it's important that you require both 
your replacement, Admiral Mullen, and you, Secretary Panetta, 
require the senior leadership of all of our military and DOD to 
read the War Contracting Commission's summary report.
    It is an eye-opening piece of work, done by a very credible 
and bipartisan organization made up of a lot of expertise. The 
report has just come out, and it is really frustrating when you 
realize how fast and loose and sloppy that we have played with 
so much of this money.
    I need to know right now who is making the decision on the 
$400 million--I don't know if the American people are aware 
that, for the first time in history, DOD has asked for a 
reconstruction fund. We've gone from the Commanders Emergency 
Response Program (CERP), which started--I remember it being 
described to me when I first came to this committee as money 
that would be used to fix broken windows in storefronts. We're 
now up to multiples of billions of dollars in the CERP.
    Now for the first time, we actually have an Afghanistan 
reconstruction fund as part of the defense budget. I don't know 
what the thought process was that we would get. What I don't 
like about it is it gives everyone the opportunity to blur the 
lines between DOS, the U.S. Agency for International 
Development, and DOD as to who's in charge of this 
reconstruction and who is making the decision as to whether or 
not there's sustainability and security that is adequate enough 
for us to begin to invest hard-earned Missouri and U.S. 
taxpayers' dollars in these various infrastructure projects.
    I'm not confident about the process of approval, especially 
in light of some of the things that have been built that 
clearly have been a giant waste of money.
    Secretary Panetta. Senator, I don't disagree with a thing 
you said. My job is to try to make sure that we take a hard 
look at all of those issues, because frankly, based on the 
budget constrictions that we're facing, we simply can't afford 
to operate that way. We're going to have to go back, we're 
going to have to look at these infrastructure issues. We're 
going to have to look at reconstruction funds. We're going to 
have to look at every area to determine just exactly what is 
needed, are we doing this right, are we getting the best bang 
for the buck, or is it something we just simply don't have to 
do.
    For example, on the whole issue of sustainability of the 
force, in looking at what now is an unacceptable cost of about 
$12 billion a year, they've been able, by virtue of looking at 
infrastructure--we don't have to build the level of 
infrastructure in Afghanistan that we built here in this 
country. It doesn't have to be that. So we can find savings 
there. We can find savings in other areas to try to reduce 
those costs.
    We are going to have to implement much better discipline in 
order to make sure that we not only are accountable to you, but 
to the American people.
    Senator McCaskill. I just want to make sure we circle back 
and make sure that the CERP funds and the infrastructure 
investments we've made, I hope someone is tasked to going back 
to Iraq and actually trying to document what difference it made 
in the success or failure of our mission. I don't think we 
should hold onto the notion that we have to spend a huge amount 
on building schools and health centers and hospitals and roads 
and power plants, that the American people have to spend a lot 
of money on that under the rubric of counterinsurgency.
    I just want to make sure that that strategy has been borne 
out as successful, and I frankly haven't seen that 
documentation yet.
    Admiral Mullen. I think it's, and we can certainly do the 
work. From my perspective, when I go back to the origins of 
CERP, while there certainly were those projects that were more 
expensive than others, but the vast majority of it was, 
particularly at the height of the surge, in that timeframe, was 
turned to enable young soldiers in the field.
    Senator McCaskill. Right.
    Admiral Mullen. It wasn't just windows and store fronts. It 
was a lot of other things that really did make a difference. 
While it may not be documented to the degree that we need to, 
there's no question in my mind that it was significant in 
turning the tide and getting Iraq to where we are right now. 
Some of the bigger projects we can certainly take a look at and 
answer that question.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Panetta, first let me thank you for your very 
forthright comments on the dangers of excessive budget cuts. I 
too am very concerned about the possibility of a sequester. I 
think it would be the height of irresponsibility for Congress 
to allow that kind of indiscriminate, automatic cuts to take 
place, particularly since it so disproportionally affects DOD. 
That's just wrong.
    It troubled me when it was included in the debt package, 
and I had a hard time deciding to vote for the package because 
of it. So I very much appreciate your putting this committee on 
notice about how devastating it would be were that to go into 
effect. So I just wanted to begin by thanking you for that.
    Admiral Mullen, I also would be remiss if I did not thank 
you for your more than, I think it's 40 years of service. It 
has been such a great pleasure to work with you, not only in 
your current position, but when you were Chief of Naval 
Operations. I appreciate all that you've done for our Navy, for 
our country, and for working with us in such a collaborative 
way. You've been an extraordinary leader and we will miss you 
both.
    I want to follow up on the issue of Iranian influence in 
Iraq, because I am very concerned that with the withdrawal of 
our forces and the shrinking of our civilian presence as well 
that we're creating a vacuum that Iran is rushing to fill. We 
have seen a steadily increasing flow of arms and money and 
training to the Shiite militias, particularly in southern Iraq. 
My fear is that there will be some in Iraq who will use those 
strengthened militias to exert power and seek to affect change 
outside of the newly established political channels, especially 
in southern Iraq.
    So, Admiral Mullen, I will start with you. What concrete 
steps are we taking to counter that malign Iranian influence in 
Iraq? I know we've made it clear verbally that it's 
unacceptable, both of you have. But what are we doing about it 
and what can we do about it?
    Admiral Mullen. I talked about the political channel, which 
actually for temporary effect, and that temporary effect is 
still in place, shut it down significantly from where it was 
when it was spiking this summer. General Austin is not sitting 
back at all in terms of his operations, and actually our 
support for Iraqi security forces in these operations.
    I think, along the lines of what you talk about, Senator 
Collins, obviously Sadr and his group are not insignificant, 
but they're outliers, and this is something that, from the 
standpoint of this is an area they also really want to focus 
on. I think the political leadership and I know that Prime 
Minister Maliki very much understands this, I get the vacuum 
piece, but at some point in time Iraq has to take charge of its 
own.
    Iran is not going away. They've had influence on that 
border and particularly in the south forever, and actually over 
the course of my time in that region, which started in the 
early 80s, there is an understanding up to a point. But at some 
point in time the Iraqis say, that's enough.
    I'm hard-pressed to believe that, having fought for what 
they've fought for, that they're going to sacrifice their 
sovereignty to this country. The backgrounds are deep and very 
contentious historically, and that Iraq has to take concrete 
steps, and they are taking some. They're clearly consumed in 
the political battles right now to figure out how they're going 
to move forward here, to include that kind of balance.
    In the end, and I don't know if it's next year or the year 
after that, Iraq is going to have to figure that out. That's 
part of what I think needs to be tied to the strategic 
relationship we have, that they know from a strategic level 
we're not going anywhere, we're going to be there with them in 
support. We certainly want to continue to push back on Iran in 
every single way, not just in what they're doing in Iraq.
    Secretary Panetta. Senator, when I last went to Iraq it was 
right in the middle of these IRAMs being provided that we were 
taking heavy casualties as a result of that. I made very clear 
to them that that was unacceptable.
    I think, as the Admiral has pointed out, we actually did 
have some encouraging results. Prime Minister Maliki was 
concerned. He indicated that concern, but, more importantly, 
his national security adviser and he made very clear to Iran 
that that had to stop. That was a very important message to the 
Iranians.
    Second, there were operations. General Austin conducted 
operations. The Iraqis conducted operations against those 
groups as well, to make clear that we were not going to give 
them a free license to be able to conduct those kinds of 
attacks.
    The combination of that did result in a hiatus in terms of 
what was taking place. We don't assume, however--and General 
Austin has made clear--that this is a temporary thing and that 
Iran is going to come back and try to do the same thing.
    I think Prime Minister Maliki, he understands that his 
country cannot allow Iran to be able to conduct that kind of 
influence within his country, provide those kinds of weapons, 
and basically undermine his government. That's what's 
happening, and I think he gets that message. But we're going to 
have to continue to make sure that they take the right steps, 
and I think Iran needs to understand that we're going to be 
around a while here, making very clear to them that we're not 
simply going to ignore what Iran is doing in Iraq.
    Senator Collins. Another troubling player which all of us 
have discussed is Pakistan providing safe havens and 
undermining the efforts in Afghanistan. Senator Graham and I 
are both members of the Senate Appropriations Committee and 
last night we met late and approved the foreign operations bill 
that places several conditions and restrictions on the Pakistan 
counterinsurgency capability fund. One of them is that the 
Secretary of State must certify that Pakistan is cooperating 
with U.S. efforts against the Haqqani network and other 
terrorist groups.
    Do you, Mr. Secretary, support putting that kind of 
restriction on our assistance to Pakistan?
    Secretary Panetta. I'm going to let DOS reply to you 
directly, but as far as I'm concerned, anything that makes 
clear to them that we cannot tolerate their providing this kind 
of safe haven to the Haqqanis and that they have to take 
action, any signal we can send to them, I think, would be 
important to do.
    Senator Collins. Thank you. I had a feeling you might defer 
to DOS on that. But I do think it's really important, and the 
best way to send a strong message is to start conditioning the 
funding.
    Admiral Mullen, a successful transition in Afghanistan 
depends in part on the Afghan forces' willingness and 
motivation to fight for their own country. I know you've told 
me before that the Afghans are fierce fighters, and I've heard 
that from troops on the front lines as well. But attrition in 
the ANSF continues to run very high, as much as 32 percent per 
year. Between January and June of this year, there were more 
than 24,000 Afghan soldiers who went AWOL.
    What troubles me is that is more than twice as many as for 
the same period a year ago. So that to me does not represent 
progress. DOD has noted in its most recent 1230 report that if 
levels of attrition seen throughout the last 5 months continue 
there is significant risk to the projected ANA growth.
    What efforts have been undertaken to increase the long-term 
commitment among Afghans? After all, as with Iraq, ultimately 
both of these countries' citizens are going to have to take 
responsibility for their own security.
    Admiral Mullen. Ma'am, it wasn't that long ago that we had 
those kinds of numbers and that kind of percent in the police 
as well. I think you've seen the attrition rate in the police 
come down to meet our goal. We're not happy with that. I know 
on the army side in particular that this is an issue that 
General Allen, General Caldwell, and the command address 
regularly.
    Some of it got better tied to how we pay them. But it still 
is, as you've described, a significant issue that's approaching 
roughly, at least my numbers are, about 30 percent per year.
    We do find an awful lot of Afghan soldiers who want to be 
there and who want to provide for their country. But there's 
clearly a lot that don't have that message yet. We need to 
continue to work on that. I know this is a huge priority for 
Minister Wardak, the minister of defense, for General Karimi, 
who is my counterpart there, and that they continue to work 
very specifically to reduce this.
    But we don't have all the answers. To your point, clearly 
it is a significant risk factor in the overall strategy. But at 
least I haven't seen, nor has any commander told me, that it 
puts the strategy at risk. So it's significant, but it's 
something we think we can continue to address over time and 
know we have to.
    Senator Collins. Thank you both.
    Chairman Levin. Thank you, Senator Collins.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen. I know it's been one of those 
mornings on Capitol Hill when we have a lot happening, but I 
think it's illustrative of the importance of this testimony 
today that I think every member of the committee is finding 
time to come and ask questions and engage in a dialogue with 
both of you.
    I think, Admiral--and I wasn't here, but I think in your 
testimony you said that we need to reframe our relationship 
with Pakistan. I want to build on Senator Collins' line of 
questioning about sanctions, with a bit of a focus on how 
sanctions or reductions in military aid to Pakistan might 
hinder our mission in Afghanistan. More broadly, I'd invite 
both of you to just comment further on what we can do to 
reframe that relationship with Pakistan.
    Secretary Panetta. We have indicated, with regards to 
assistance to Pakistan, that it is conditioned on several 
things that we have to pay attention to. Number one, are they 
cooperating with regards to going after targets in al Qaeda, 
the remaining targets? In my prior position, we identified a 
series of those targets that remain and we said, we need your 
cooperation to be able to go after them. So I think that's one 
test.
    Second, is whether or not they're going to take action with 
regards to the safe havens and dealing with the Haqqanis. I 
think that is another area in which we have to say, you have to 
take steps to be able to stop that from happening.
    Third, that we would like, frankly, for them to continue 
efforts to go after the terrorists that are threatening them. 
They did, to their credit, took action in Swat, took action in 
South Waziristan. They took a lot of casualties. I commend them 
for the action they did. But very frankly, they have to 
continue that pressure on those terrorists.
    Look, I have made clear to them that terrorism is as much a 
threat for them as it is for the United States. But it's very 
important that they cannot choose between terrorists. If you're 
against terrorism, you're against all terrorists, and that's 
something, I think, that we have to make clear to them time and 
time again.
    Admiral Mullen. I would try to expand the discussion 
beyond--certainly it has to be where the Secretary mentioned in 
terms of included in the framework. I went to Pakistan in 2008 
and one of the things that I addressed to the political and 
military leadership, along with Steve Kappas, who was then the 
deputy at the CIA, I actually believe that the ISI has to 
fundamentally shift its strategic focus. They are the ones who 
implement, I would argue, as part of government policy the 
support of extremists. It's not just Haqqani, because we've 
also had our challenges with Lashkar-e-Taiba, which is an 
organization they put in place.
    So in many ways it's the proxy piece here, the support of 
terrorism as part of their national strategy to protect their 
own vital interests, because of where they live. That has to 
fundamentally shift.
    I also believe there has to be enough patience on both 
sides. They'll probably be the last ones to shift, and how 
quickly that can be done certainly is an open question.
    I think we need to listen to them. This is a country that's 
generally in decline, although their financial situation is 
better now than it was a year ago. So much of it focuses on, as 
it does in many countries, how is their economy doing? Is there 
a way to open up their markets? As they look out to the future, 
would they like to see Afghanistan settled, I believe for some 
time? Kashmir actually unlocks the whole region. It's an 
enormously difficult problem that I don't think from my 
perspective--there has to be pressure brought to bear on 
solving that problem as well. One of the things I get 
constantly is their number one crop is cotton. They can't 
market that cotton here, for lots of reasons that are well out 
of my lane.
    So much of it is far beyond just the security issue. He has 
2,000 detainees in Swat, roughly. He has no place to put them, 
no place to take them into a legal system that can't handle 
them. So there's a whole rule of law piece here. There's a 
chairman of accountability for corruption in this country that 
needs to sign off on corruption charges. It's a terribly 
corrupt country in many ways, and that chair's been vacant for 
the last 18 months.
    So there's a series of things that I think we need to look 
at and have some patience. I get this has been a long time. 
It's just not going to be solved overnight. But I think we need 
to broaden it, certainly to include the security issue, the 
support. They have, quite frankly, supported us to 
significantly impact al Qaeda. But they're pretty choosy about 
which terrorists they support with us and the ones that they 
won't support.
    Senator Udall. Thank you for that comprehensive overview.
    It strikes me--and I wouldn't want to pin the two of you 
down, but at times it appears like Pakistan and its leadership 
are both playing the role of arsonists and firemen, and that's 
problematic.
    Admiral, you mentioned the economic policy change tied to 
their textile industry. It would, I think, still be worth 
considering on behalf of Congress, or on the part of Congress, 
and that's some homework for us.
    Let me move in the time I have remaining to reports of 
fraud, waste, and abuse in Federal contracts in Iraq and 
Afghanistan. The Commission on Wartime Contracting estimated 
that at least $31 billion has been lost to fraud and waste. 
This is not a surprise to you two. It's not acceptable in good 
economic times, certainly not when we're in tough times.
    But at the same time, I think we have to be careful that we 
don't in putting in place more oversight bog down the good 
projects that are under way. How do we get the right amount of 
money to the right projects on time? Mr. Secretary, what other 
steps are we going to take to ensure that tax dollars are not 
squandered by contractors?
    Secretary Panetta. There actually were some pretty good 
recommendations in that report. I've asked our people to 
implement those recommendations. I think the key here is that, 
without burdening the operation with additional bureaucracy, 
the fact is in the contracts themselves, when you develop the 
contracts, that's the first point where you put the right 
requirements in and you do the kind of immediate oversight at 
that point that assures you that these contracts are being 
handled right.
    There's a series of other steps that they've recommended. 
But my goal is to try to put those into effect because, 
frankly, that kind of waste, that kind of loss, is something 
that's intolerable.
    Admiral Mullen. Can I just make one quick comment? When 
General Petraeus took over there out at ISAF, he put in place a 
Navy two-star admiral that had done this work in Iraq for him 
to run a task force over the course of about, I think, 6 or 8 
months, to attack this issue. She came up with many good 
recommendations, and those now are being implemented against 
existing contracts. Some contracts were cancelled as a result 
of that because we recognized we were feeding the enemy in too 
many places.
    We've also in DOD and this came out of Iraq--over the 
course of the last many years, dramatically increased the 
number of contract expertise in our own department, which we 
had devastated in the 1990s, to put back in place individuals 
that can oversee this.
    So I think we all recognize that this is an area that we 
have to improve on, one, financially; two, we're feeding the 
fight against us. We're trying to do that as rapidly as we can.
    Senator Udall. Admiral, good points. That's the worst kind 
of two-fer, taxpayers' dollars being squandered plus going to 
the enemy.
    Any opportunities to recoup some of those pilfered funds? 
Any plan in place to do so?
    Secretary Panetta. Frankly, it's too early to tell right 
now. I have asked that they look at that and determine whether 
or not some of that can be regained. I doubt it, but I think 
it's worth a shot.
    Senator Udall. Maybe Admiral Mullen in retirement could 
take that on as one of his missions.
    Thank you, Admiral Mullen, by the way, for your tremendous 
service. I know we all on the committee wish you the very best. 
I think it's a tribute to you--you don't like to hear these 
expressions of gratitude, but we're going to keep them coming 
your way regardless of your sentiments. So, thank you so much.
    Chairman Levin. Thank you, Senator Udall.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you both for your service. I apologize if I go over 
questions that other members have asked when I was absent.
    Admiral, what advice would you give us as to the right 
number of U.S. troops to keep in Iraq next year?
    Admiral Mullen. I actually believe that it's--and this is 
in the training piece. I really do believe it's tied to the 
mission. I think, first of all, assuming there is a number, 
first and foremost we have to be able to protect ourselves. We 
cannot put anybody in a position that is not able, whatever our 
mission, to protect ourselves. I'm actually confident that's 
well-understood up my entire chain of command.
    Second, we're in the middle of negotiations right now and 
honestly, in the end I actually believe, and we've been working 
with the Iraqi military for a significant period of time, so we 
think we understand where the gaps are, the Iraqi military 
understands where the gaps are. In the end, it's going to be 
something that now Prime Minister Maliki and the political 
leadership makes a decision on, tied to actually not just the 
training mission, but also to look at, there's a DOS mission 
here as we move to normalize and put a relatively significant 
mission in under the DOS umbrella as well.
    There has been a lot of analysis on this. Lloyd Austin has 
covered this extraordinarily well. But it really, in the end, 
depends on the mission, and that's not determined yet.
    Senator Vitter. Let's take parts of that at a time. What's 
the minimum number, in your opinion, that would be required to 
protect themselves? That's the way you start.
    Admiral Mullen. But inside, how much training am I going to 
do, who's going to do it, again assuming we're going to do 
this, where is it going to exist? It depends on where it is in 
the country. It's different west than it is north than it is 
south or in Baghdad. I know people, you, others, would love to 
have me get a number out there. Honestly, just it's not 
determined yet. It really does depend on what we're going to do 
and where we're going to do it and how often we're going to do 
it.
    Senator Vitter. I guess I'm a little frustrated, Admiral, 
because on our side, on the U.S. Government side, we're part of 
the political leadership. So I'm asking for that advice as we 
have that discussion.
    Admiral Mullen. Secretary Panetta said earlier, and I think 
it's important, that when we get to that point, I probably 
won't be here, but he'll consult with Congress, we'll consult 
with Congress when we get to that point. But honestly, we're 
just not there yet. We'd be having, from my perspective, 
circular conversations about this, because we just don't know 
what's going on in Baghdad.
    Senator Vitter. To both of you: We've talked a lot about a 
new approach to Pakistan and it's been a pretty broad 
discussion. It seems like we don't have a clearly defined new 
approach and that's because it's a difficult issue, and I'm not 
suggesting it's an easy thing. But it seems very important to 
me that we come up with a clearly defined approach and clearly 
lay that out.
    I think that's important to the Pakistani Government. I 
think it's also important for the American people to have 
confidence that we're not just moving along and being taken 
advantage of again.
    When do you think and how do you think we'll lay out that 
clear new approach?
    Secretary Panetta. Senator, I think that's already 
happening. The Pakistanis--as we all understand, this is a 
complicated relationship. On the one hand, it's necessary 
because we're fighting a war there and we're trying to defend 
our country there. They do give us some cooperation in that 
effort. Just recently they helped us with a guy named Maritani, 
who's a terrorist who they helped capture. They've given us 
other areas of cooperation.
    At the same time, we know what these other problems are 
when they allow these safe havens to take place from which 
forces attack our people.
    I think the most important thing is that the United States 
and Congress, we all have to speak with one voice, one clear 
voice to the Pakistanis, that makes very clear that we cannot 
tolerate their having these kinds of safe havens. We cannot 
tolerate having terrorists coming across the border, attacking 
our forces, killing our soldiers, and then escaping back into 
that safe haven. That is not tolerable, and they are the first 
ones that ought to take action on that.
    My experience with the Pakistanis is that if everybody 
speaks with one voice, if we all convey the same message--
Admiral Mullen has done that with Kayani, Director Petraeus has 
done that with General Pasha, I've done that with my 
counterparts, send a very clear message that this is 
unacceptable, that the more we keep that kind of pressure on 
them, the more they understand that they have to do something 
about it.
    Now, that's just the nature of the relationship. Sometimes 
that's not very satisfying. But frankly, the only way to deal 
with the Pakistanis is to keep giving them a clear message 
where the lines are.
    Senator Vitter. I agree with all of that, and I agree with 
speaking with one voice. Has it been articulated about what the 
consequences of their not changing in those ways are?
    Secretary Panetta. I have made very clear that we will do 
everything necessary to protect our forces. I haven't spelled 
that out for them, but I would be very surprised if they were 
surprised by what we did to fulfill that commitment.
    Senator Vitter. What about in terms of aid to the Pakistani 
Government?
    Admiral Mullen. I like the term that Senator Collins used, 
and obviously Senator Graham. I think it needs to be 
conditioned. I think we need to be careful about definitions 
and terms here, because if they're too broad there can be lots 
of things, did they make progress or didn't they make progress. 
I think I've been there 27 times. I've met with them multiple 
more times than that, with Kayani and with the rest of their 
leaders many times. It's an enormously complex problem.
    The strategic way to approach this from my perspective? 
Secretary Panetta, Secretary Gates before him, Secretary 
Clinton, the President, the Vice President, SRAP Holbrooke, 
SRAP Grossman, terribly talented people, and not just our 
country, for a long time. I think we need to continue to stay 
engaged. I don't know where the breakthrough is going to take 
place, but I think we can get there and we need to be there 
when the light goes on. If we're not, I think it's a very 
dangerous long-term outcome should we cut it off. So I think we 
have to be careful about the conditioning, and yet it is an 
area, it's a lot of money. This is a two-way street.
    Senator Vitter. Let me just end on how I began this line of 
questioning, which is, I think, a new approach to Pakistan 
needs more definition, at least for the American people. Maybe 
it's been more clearly defined in private discussions with 
them. I don't know. I think it needs more definition for 
purposes of our continuing to support any engagement, and I 
would encourage that, because I don't think it's clearly 
defined even among members, much less the American people.
    Thank you.
    Chairman Levin. Thank you, Senator Vitter.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    First of all, Admiral Mullen, again congratulations on a 
most successful career. I look forward to your next career of 
service, because I'm sure it will be something. I don't think 
that you're ready to retire.
    Admiral Mullen. Oh, yes I am. [Laughter]
    Senator Manchin. Of course, Secretary Panetta, I have the 
utmost respect, but mostly the confidence. I feel more 
encouraged and confident with you coming in in this new venture 
of yours and all your past service. So I look forward to much 
success.
    With that, I want to make a statement. I think you probably 
have known my feelings about what is going on and how I feel 
about the engagements we have. But it's my deep belief that we 
should be rebuilding America, not Afghanistan or Iraq. Today, 
with our Nation facing a stagnant economy and a death spiral of 
debt, I don't believe we can have it all, or pretend that we 
can. We must choose what as a Nation that we can and cannot 
afford to do. We must make a choice whether we will spend 
hundreds of billions of dollars to rebuild our own Nation, or 
build other nations.
    Some may believe that making the choice will weaken our 
security and I truly don't believe that. Admiral Mullen, as you 
have said yourself, debt is the greatest threat to our national 
security. If we as a country do not address our fiscal 
imbalances in the near-term, our national power will erode, and 
the cost to our ability to maintain and to sustain influence 
could be great.
    This Nation cannot in good conscience cut billions in 
services and programs at Home or call on Americans to pay more 
in taxes in order to fund nation-building in Afghanistan that 
is estimated to cost $485 billion just over the next decade. 
Let there be no mistake, we are at a crossroads in our Nation's 
history and, I think, every one of us in Congress and the 
President and, Secretary, yourself as Secretary of Defense, we 
all have choices to make.
    I, for one, will not ask Americans to pay to rebuild 
another nation, and I have simply said I choose to rebuild 
America. To be clear, I want to share with you just a few of 
the facts and insights that have helped me formulate my opinion 
that we must, for the good of our Nation and our national 
security, fundamentally shift from the President's strategy in 
Afghanistan to a pure mission of counterterrorism. I will be 
specific for the record.
    At the current rate of our deficit spending, the 
Congressional Research Service (CRS) projects our national debt 
will exceed $23.1 trillion by 2021. By the next decade, we will 
spend more on interest on our debt than defense, education, and 
energy combined. At the same time, the Afghan economy is 
growing at leaps and bounds, while our economy stagnates, and 
that's only because American tax dollars are funding the Afghan 
economy.
    Preliminary estimates suggest that Afghanistan's GDP growth 
rate was 20.4 percent in fiscal years 2009 and 2010, while the 
U.S. growth rate of GDP was 2.2 percent.
    Also, in 2011 Afghanistan's growth rate was 8.2 percent, 
while our United States of America's growth rate was only 1.6 
percent.
    This might be worthwhile if we were building a stable and 
self-sufficient Afghanistan. But instead of building capacity, 
the World Bank reports that Afghan imports and exports have 
declined for the last 4 years. Domestic revenues funded only 9 
percent of Afghanistan's public expenditures from 2006 to 2010. 
This isn't an economy that can function on its own in any way. 
It's an economy that is entirely fueled by American tax 
dollars.
    In the coming days and weeks, we will engage in endless 
partisan fights over whether we could and should be investing 
$50 billion more to rebuild American transportation 
infrastructure, funding that I do support. But we could have 
already paid for that and more with the $72.7 billion we have 
already invested to build Afghanistan infrastructure since 
2002, not to mention the billions more that we are projected to 
spend in the years ahead.
    We will debate how to pay for the billions needed to 
modernize American schools, while the Commission on Wartime 
Contracting estimates that $30 to $60 billion has been wasted 
on corruption in Iraq and Afghanistan. That is money wasted and 
stolen from the taxpayers that could pay for all the school 
modernization that the President has proposed and again that I 
support.
    Perhaps the greatest insult of all is that, in spite of the 
blood and treasure that we have invested in Afghanistan, we are 
still not their preferred partner of future economic growth 
projects, and I'll be specific. In 2007 the state-owned China 
Metallurgical Group Corporation won a contract to develop the 
Aynak copper deposits in Logar Province. This deposit may yield 
up to $88 billion of copper ore. To my knowledge, China does 
not have one boot on the ground and has not contributed one 
penny to security of Afghanistan. Instead, we are directly and 
indirectly helping China profit while we lose our brave men and 
women fighting to keep Afghanistan safe.
    Secretary Panetta, as I've said, I have great respect for 
you, I truly do, and for your service, Admiral Mullen. I know 
that this is a new challenge for you, Secretary Panetta, but I 
hope that you would take these concerns to heart. I am truly 
sincere about what I believe and what I've said, and I've given 
it great thought and I have researched the best that I can with 
all of the different information available to me to come up 
with the conclusion that I have come up with, that we should 
get out as quickly as we can, go and fight terrorism anywhere 
and everywhere it may take us to keep it from the shores of 
America, and I think the American people will be behind us. But 
I do not believe that we can win and change the Afghans or the 
Iraqis or the Pakistanis from what they believe in.
    With that being said, I hope that we really do prevent that 
from happening here again as happened on 9/11, and we will 
support that effort.
    So, with that I have a statement for you on that, if your 
people would like to respond to that. If either one of you 
would want to, you're more than welcome.
    Secretary Panetta. Senator, you've shared those views with 
me before and I understand your concerns. I think all of us, as 
the Admiral has expressed, are concerned about the economic 
situation in this country and that it is a threat to our 
national security, and that we have to pay attention to it.
    At the same time, it's important that if we're going to 
protect this country, protect our economy and protect our 
people, that we also have to be able to respond to those 
threats to our national security, and that it would not behoove 
us to just focus on the economic challenges without focusing on 
the national security challenges as well. That's our 
responsibility.
    I think the reality is that from 9/11, we just celebrated 
the tenth anniversary of 9/11, we were attacked. This country 
was attacked and a lot of people died as a result of that 
attack. We had a responsibility to respond to that. What we 
have to do now is to make sure that places like Afghanistan and 
Pakistan don't become safe havens so that al Qaeda can again 
plan those kinds of attacks against the United States, 
particularly with regards to Afghanistan.
    So that's the mission here. I know there are differences as 
to why we got into it. I know there are differences that are 
there as to how a lot of this has been conducted. But I also 
want to tell you that I think all of the efforts and all of the 
blood that has been spilled, that, in fact, we have made 
important progress here, that with regards to terrorism, I 
think, we have seriously weakened al Qaeda and their ability to 
conduct those same attacks.
    I think, with regards to Iraq and Afghanistan, we've turned 
a corner. We're in the process of beginning to draw down in 
Iraq. We're in the process of drawing down as well in 
Afghanistan. I really do think that if you look at that we're 
on the right path in both places towards hopefully having a 
stable government there in both areas that can both secure and 
govern themselves.
    It's going to take work. It's going to take commitment. I 
understand there's been waste. I understand that mistakes have 
been made. But I also believe that this is a point where the 
United States has to stick with it and not just walk away from 
those responsibilities, largely because the last thing we 
should do is to say to those families who have lost loved ones 
that somehow all of this was in vain. The most important thing 
we can do to pay tribute to those that have lost their lives is 
to make this right.
    Senator Manchin. Sir, I know my time has expired, and I 
would only say that I support the war on terror wherever it may 
take us and whatever it costs. I just don't think, at the 
expense of the United States, when we have our infrastructure 
crumble, that we're building their infrastructure, which does 
not seem to give us much of an advantage with them because they 
don't seem to appreciate it or respect what we're doing, the 
sacrifices we're making. So let's take the war of terror to 
them anywhere they may go. Let's make sure that we never forget 
what they have done, and we'll punish and bring justice 
wherever it may be.
    Thank you, sir.
    Chairman Levin. Thank you.
    Admiral Mullen. If I could just say very quickly to 
Secretary Panetta's last point, I just think we have to be very 
careful and thoughtful about the consequences of how we come 
out, how we withdraw, and that against the price that has been 
paid, and what does that mean for the future about the health 
of our force and that sacrifice.
    Then lastly, just briefly on Iraq, I was there not too long 
ago, a month and a half, 2 months ago, flying over Baghdad at 
night, and I had a couple of soldiers with me who had fought, 
lost colleagues, troops that they cared dearly about in 
Baghdad. It looked like--the lights at night, it almost looked 
like Las Vegas. But more importantly, they saw traffic on the 
streets. They'd never seen traffic on the streets in Baghdad at 
night.
    It is a different place. When I took this job, we were at 
the height of the surge discussion and debate then. The despair 
about where this was going was enormous, with no end in sight. 
Now the end is in sight. There is potential for 26 million 
people to lead a better life.
    I understand the investment. This isn't about how we got 
there, why we got there. It's just where we are right now. 
That's why the responsible movement here in the course of the 
next year or so, whatever it is, and the strategic partnership 
and the opportunity that we have in that part of the world to 
have a friend, is pretty enormous.
    Chairman Levin. Thank you, Senator Manchin.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Admiral Mullen, when you look back on your time in DOD. I 
hope you feel very satisfied, because it's been a tough tour of 
duty. We haven't always agreed, but there's been a lot of 
social change in the military, there's been a lot of change in 
the world. You have been consistent. You have told us what you 
think, what you think is best for the country, for the 
military, and that's the best anybody could do. So I am very 
proud of your service and I consider you a friend.
    To my good friend from West Virginia, I couldn't disagree 
with you more. Let me tell you that if you don't see things 
different in Iraq, you just haven't been there lately.
    To those Iraqis who have fought and died, God bless you. Al 
Qaeda is the biggest loser in Iraq; would you agree with that, 
Secretary Panetta?
    Secretary Panetta. Absolutely.
    Senator Graham. They came to Anbar and they tried to take 
over, and the Iraqi people said: No, thank you. With our help, 
al Qaeda was delivered a punishing blow in Iraq. Do you agree 
with that?
    Secretary Panetta. Yes.
    Senator Graham. Now, you're the guy that said we need to go 
into Pakistan and get bin Laden. God bless you. That was a hard 
decision by the President and he took your advice and he made a 
calculated risk. Well done, Mr. Secretary. Going in on the 
ground was the most risky option, but the highest payoff, and 
well done.
    To be secure, don't we have to do more than just kill 
terrorists in the war on terror?
    Secretary Panetta. That's right.
    Senator Graham. All right. So here's my construct. It's 
great to kill bin Laden because that deters other people from 
wanting to be bin Laden, if they can be deterred. But the best 
thing I think we could do as a Nation, Admiral Mullen, is to 
provide capacity to will. If there is a country out there who 
says, ``I see al Qaeda just like you do, and I don't like the 
Taliban any more than you do, and I am willing to fight them 
with your help,'' isn't it in our national security interest to 
help them?
    Admiral Mullen. Yes, sir, certainly in terms of 
counterterrorism.
    Senator Graham. There will be 352,000 Afghans under arms by 
the end of the year, is that correct?
    Admiral Mullen. That's correct, by the end of next year.
    Senator Graham. Excuse me, by the end of next year.
    So that makes me feel good as an American, knowing that 
those 352,000 Afghans will take the fight to the Taliban 
because, talk about infrastructure crumbling here at home, the 
World Trade Center crumbled. That infrastructure crumbled 
because a place called Afghanistan provided sanctuary to al 
Qaeda and they executed the whole attack for less than a 
million dollars.
    Do you agree with me, Secretary Panetta, that if things 
continue to go like they're going in Afghanistan, the 
likelihood of Afghanistan ever becoming a safe haven for 
terrorists to attack this country is very remote?
    Secretary Panetta. That's correct. The whole point is for 
them to achieve sufficient stability so that never happens 
again.
    Senator Graham. Simply put, isn't it better to fight them 
in their back yard, with the help of people who live in their 
back yard, than having to do it all from home?
    Secretary Panetta. Yes.
    Senator Graham. All right. So those who've served in 
Afghanistan and Iraq, you are changing the world. It is costly, 
it takes more time, it's more labor intensive, to build will, 
capacity to will, than it is to kill a single individual.
    Drone attacks are part of a strategy, but the ultimate blow 
to this ideological movement called the war on terror is to 
have the good people over there fight back and win. You know 
what? They want to fight back. With our help, they'll win. So 
that's my two cents worth.
    Back here at home, you're trying, Secretary Panetta, to go 
through the defense budget and over the next decade take out a 
substantial amount of money because we're broke as a Nation, 
right?
    Secretary Panetta. That's what they tell me.
    Senator Graham. It's painful.
    Secretary Panetta. It is.
    Senator Graham. You do it with a smile on your face, but 
you have to--and I want to help, because the defense budget 
should be on the table. Nothing is sacrosanct. The Senator from 
West Virginia is right, we're broke. But you don't become 
wealthy by allowing your enemies to grow in strength and come 
back and get you the second time.
    So, we're going to put the defense budget under scrutiny. 
Whether it's $400 billion, $350 billion, $450 billion, it's 
going to be substantial over the next decade. Triggers in the 
debt ceiling bill, are you familiar with them?
    Secretary Panetta. Yes.
    Senator Graham. As I understand this legislation, if this 
supercommittee can't find the $1.4 trillion they're charged 
with finding in terms of savings over the next decade, there 
will be a trigger pulled to achieve those savings, and $600 
billion will come out of DOD. Is that correct?
    Secretary Panetta. Roughly in that area.
    Senator Graham. On top of what you're trying to do.
    Secretary Panetta. That's right.
    Senator Graham. If we pull that trigger, would we be 
shooting ourselves in the foot?
    Secretary Panetta. We'd be shooting ourselves in the head. 
[Laughter.]
    Senator Graham. That's why I like you.
    It would be the dumbest thing. Do you know why Congress 
would do such a dumb thing? You don't have to answer that. I 
don't know either.
    That's the dumbest construct in the entire world, to try to 
find $600 billion in savings, is to put DOD at risk, destroy 
the finest military in the history of the world. I am 
disappointed in my Republican Party for allowing that to be 
part of the puzzle.
    Now, let's go to Iraq. You're not going to tell me the 
number. I understand why you're not going to tell me the 
number. But we're going to talk about Iraq in terms of our 
strategic interests. On a scale of 1 to 10, how important is it 
that Iraq end well in terms of our national security interest?
    Secretary Panetta. It's certainly eight and above.
    Senator Graham. Okay. So let's look at it in terms of eight 
and above. The resourcing for an eight-and-above situation 
should be robust, but reasonable. When General Odierno says 
that we don't want too large a force, I agree. The Iraqis want 
to take over, but they need our help.
    If you looked at the Kurdish-Arab dispute as a potential 
failure point in the future of Iraq where fighting could break 
out, Admiral Mullen, how would you rate that as a risk?
    Admiral Mullen. High.
    Senator Graham. If you look at the construct that you've 
come up with, where you have a Peshmerga, Iraqi security force, 
and American soldier forming a new brigade or company, that 
construct is paying dividends, isn't it?
    Admiral Mullen. Yes, sir, it has.
    Senator Graham. They call it the Lion's Brigade. So what I 
would ask you to do when you sit down and look at the numbers 
of troops, to make sure that that fault line does not crack, 
because we have a plan to integrate the Peshmerga, the Iraqi 
security forces, and we're the referee. Over time, we're going 
to build a transition force that will be more stable.
    You said something, capacity and capability are as 
important as numbers. I agree with that, but there's a time in 
military engagements where numbers do matter. We're at the 
point now where capability matters.
    So my point about 3,000--and I know that's not the number--
providing intelligence-gathering; but what ability do the 
Iraqis have to gather intelligence on their own, compared to 
us?
    Admiral Mullen. I would describe that as one of the gap 
areas that they clearly need to work on. It's not none, but 
it's an area that----
    Senator Graham. But they don't have close to what we have, 
and if you want to keep Iran at bay, the more we know about 
what Iran is doing, the better off the Iraqis are?
    Admiral Mullen. But, Senator Graham, I don't think we 
should make them us, either. Yes, they need to improve, but 
it's not----
    Senator Graham. But we have a national security interest 
still in Iraq, right? So it's in our national security interest 
to know what's going on inside that country. So when you look 
at the fault line of the Kurd-Arab dispute, you look at 
intelligence-gathering capabilities they don't have, when you 
look at training their air force, training their army, and 
having a force protection plan for our diplomats, the numbers 
begin to add up. Would you feel comfortable with a member of 
your family serving in a follow-on force of 3,000?
    Admiral Mullen. I would, I have confidence that whatever, 
assuming there is a number, that force protection will be, that 
our force protection will meet the needs of whoever might be 
there. So in that regard, yes.
    Senator Graham. Okay. One last question. I know my time has 
expired. Secretary Panetta, we've come up in the Appropriations 
Committee, Foreign Operations Subcommittee markup with some 
conditions and benchmarks on Pakistan. I want to provide it to 
you and would you write me a letter and see if you think we're 
on the right track?
    Secretary Panetta. Sure.
    Senator Graham. Simply put, you have informed the 
Pakistanis that enough is enough. I believe we can't trust them 
or abandon them. Do you agree with that simple statement?
    Secretary Panetta. That's where we are.
    Senator Graham. You can't trust them, but you can't abandon 
them. But would you agree with me, if something doesn't change 
in Pakistan substantially that we're on a collision course with 
Pakistan?
    Secretary Panetta. It has to change. We can't continue the 
situation that's there now.
    Senator Graham. Thank you both for your service.
    Senator Shaheen [presiding]. Thank you all very much, 
Secretary Panetta, Admiral Mullen, for being here this morning 
and for your endurance. Hopefully, this is the end.
    I want to echo all of my colleagues, Admiral Mullen, in 
expressing my deep appreciation for your leadership and for 
your service to the country. Thank you.
    I would like to pick up from where Senator Graham ended on 
Pakistan, because, as you both pointed out in your comments, 
what happens in Pakistan has a great deal to do with what 
happens in Afghanistan. I had the opportunity to accompany 
Chairman Levin to Afghanistan in August. Senator Merkley was 
with us as well. One of the things that we heard from our 
military leaders when we were there was the growing influence 
of the Haqqani network and the impact that they were having, 
because of not only their own operations, but because of their 
support for the Taliban and other terrorist groups, not only in 
Afghanistan, but inside Pakistan itself.
    So my question, Admiral Mullen, is first to you, and that 
is, do you think that General Kayani, the Pakistani leadership, 
recognizes the threat that the Haqqanis present not only to 
Afghanistan and to our forces there, but also to their own 
internal security and to their own military?
    Admiral Mullen. You said something very important, Senator, 
and I think the Secretary would agree with this, which is what 
we've seen over the course of the last several years is the 
coming together of many of these terrorist organizations in 
ways that--years ago, they didn't like each other much at all. 
But we see more and more of that, including recently the attack 
on our embassy, and that's worrisome.
    With respect to the future, it's very clear the toughest 
fight's going to be in the east, and the Haqqani network is 
embedded in Pakistan, essentially across from Khost, Paktia, 
and Paktika, which, as General Petraeus said, is the jet stream 
to Kabul. They want to own that. That's really their goal.
    But they also have, because of the relationships with other 
organizations--Tehrik-i-Taliban Pakistan would be one, al Qaeda 
would be another, there is also an internal threat that 
Pakistan is trying to deal with, and, in fact, they've 
sacrificed greatly, lost lots of soldiers, lost lots of 
citizens. That is a priority for General Kayani and his 
leadership.
    He has about 150,000 troops deployed in the west. He can't 
sustain that. He can't rotate them. Not many of them have been 
able to rotate out over the last several years. So I think we 
need to recognize there has been plenty of sacrifice there.
    Haqqani, that group is a tough group and they have not been 
willing to take them on militarily. There's concern about the 
ability to do that. That's why this emphasis, I think, is so 
important, and in the end it's going to be the strategic 
leadership of the Haqqani network, not the troops on the ground 
for the Haqqanis, that can affect this change.
    So I think the risk there is very high over the course of 
the next couple of years. I think the biggest fight is going to 
be in the east, enabled certainly by us, but also Afghan 
Security Forces and coalition forces, more than anyplace else. 
The south I'm not going to say is not problematic, but we're in 
a much better place in Kandahar and Helmand than we were a 
couple of years ago. It's going to be the east, I think, that 
in the end answers this from a security standpoint, and Haqqani 
is at the heart of that.
    We haven't talked about Quetta today. We haven't talked 
about Mullah Omar and the Taliban. They haven't gone away, and 
that's a part of this which also we need to work with the 
Pakistanis to help address. We do get some cooperation there as 
well.
    So it's a mixed bag in terms of their overall support. In 
ways, as the Secretary said, they've helped; in other ways they 
haven't.
    Senator Shaheen. Thank you. I was not aware until we had 
our meetings in Pakistan of the extent to which they still had 
troops fighting the terrorists within Pakistan and the amount 
of casualties, both civilian and within their military, that 
they have already endured. So I think it is important to point 
that out.
    We also visited Regional Command East while we were there. 
Are you confident that we have enough troops and we have a 
strategy on the ground there that can address the growing 
influence of the Haqqanis and that path or trail that goes back 
and forth between Pakistan and Afghanistan in that region?
    Admiral Mullen. I think one of the things that General 
Petraeus did while he was there was set up this layered 
defense, and it's a much tougher spot, tougher fight, for the 
Haqqanis than it was a couple of years ago. We have a new 
commander, we didn't talk about this today and, I think, 
actually it's important, but there is a new team there with 
Ambassador Crocker, as well as General Allen. It's an 
exceptionally strong team and I look for a positive outcome 
because of that team and a positive trend.
    General Allen is looking at how to, first of all, finish 
this fighting season, if you will, and then based on the 
results most of us expect, he's going to have to redistribute 
some forces in the east from the south for next year. The 
specifics of that I think he's still working his way through.
    So, in that regard, my expectation is that there will be 
some net increase in the east, not coming from outside the 
country but from inside the country, as things have gotten 
better in the south and he looks to the tougher fight in the 
east in the next couple of years.
    Senator Shaheen. I appreciate your mentioning the new team 
there. They were very impressive.
    I think both of you also mentioned the confluence of India 
and their impact in the region. One of the things that we heard 
from the leadership in Pakistan was their overtures to try and 
reduce tensions with India. How much of that do you think is 
real and has the potential to have a real impact, and how much 
of it is show and not going to have any real impact?
    Secretary Panetta. I think it is real. I think they are 
making an effort at trying to see if they can find a way to 
resolve the issues between Pakistan and India. They've made 
efforts at that. I think what has to happen is that they really 
do have to make this a higher priority. They have to really 
focus on this.
    I think in terms of the security of Pakistan that if they 
could find a way to resolve their differences with India that 
country would be a different country. But to do that, to 
achieve that, I really do think that they have to put a much 
larger effort into trying to resolve those differences with 
India. You can't meet one day and then wait a long time and 
then come together. It has to be constant, and that's something 
that they're not doing right now.
    Senator Shaheen. My time has expired, but just a final 
follow-on. How receptive do you think India is to those kinds 
of overtures?
    Secretary Panetta. India has in some ways resisted engaging 
as well. I think both sides need to roll up their sleeves and 
get to work on this. It's tough. It's tough politically in both 
areas. But in the end we are never going to achieve stability 
in that region until the issues between Pakistan and India are 
resolved.
    Senator Shaheen. Thank you both very much.
    At this time we'll close the hearing. We are adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Claire McCaskill
                         strategic stewardship
    1. Senator McCaskill. Secretary Panetta and Admiral Mullen, as much 
as I'm concerned about finding specific savings, I strongly believe we 
have a new imperative for strategic stewardship of our national 
treasure by the Department of Defense (DOD) and its leadership. I am 
sure we are in agreement that DOD must continue to aggressively look 
for ways to save money without compromising its ability to fight and 
win the Nation's wars, but what really concerns me is that DOD has not 
fully and thoroughly come to embrace the fact that the way it spends 
money is just as important as the way it fights because we can't win if 
we continue to waste money. In fact, I believe we will erode the will 
of the American people if we are not good stewards of both the lives of 
our servicemembers and the treasure of our country. As you are fully 
aware, without the trust and confidence of the American people we can 
win every tactical fight on the ground and still not be strategically 
successful. Given the incredibly challenging financial times in which 
we find ourselves and the hard slog of the past 10 years at war, how 
does DOD, and each of the Military Services, ensure leadership at every 
level pay as much attention to how it uses its resources as it does to 
how it takes care of its men and women?
    Secretary Panetta. I am confident DOD can meet its national 
security responsibilities and do its part to help the country get its 
fiscal house in order. To do this, DOD must work even harder to 
overhaul the way it does business. An essential part of this effort is 
improving the quality of financial information and moving towards 
auditable financial statements. To that end, I directed DOD to cut in 
half the time it will take to achieve audit readiness for the Statement 
of Budgetary Resources, so that in 2014 it will have the ability to 
conduct a full budget audit. This focused approach prioritizes the 
information used to manage DOD, and will give financial managers the 
key tools needed to track spending, identify waste, and improve the way 
DOD does business as soon as possible.
    This is a priority for me across DOD. I will engage in this effort 
personally and directed the Deputy Secretary, in his role as DOD's 
Chief Management Officer, to conduct periodic reviews. Auditability is 
a goal that every commander, every manager, and every functional 
specialist must understand and embrace to improve efficiency and 
accountability within DOD. Financial Improvement Audit Readiness (FIAR) 
goals are being included in Senior Executive performance plans 
throughout DOD in fiscal year 2012 and DOD is working to include them 
in General and Flag Officer performance plans as well.
    Admiral Mullen. DOD is adapting to the changing fiscal environment 
and will continue to strengthen its analytical processes for making 
difficult budget choices. DOD will also reinforce a culture of cost 
discipline, which will enhance our ability to be good stewards of our 
national resources. These focused approaches will give our financial 
managers, at all levels, the key tools they need to track spending, 
identify waste, and improve the way DOD does business.
    The Chief Financial Officer and the Military Departments play an 
integral role in the financial governance processes, including 
overseeing the processes and implementation of new systems. Senior 
leadership within DOD is committed to, and accountable for, 
accomplishing the goals of FIAR.

                    leadership in contracting policy
    2. Senator McCaskill. Secretary Panetta and Admiral Mullen, it 
seems to me that part of the problem is that contingency contracting 
continues to be side-lined in DOD as something it requires and 
therefore something it must do, but something to which it does not give 
adequate oversight or priority. As a case in point, in June the 
Subcommittee on Contracting Oversight of the Committee on Homeland 
Security and Governmental Affairs (HSGAC) had a hearing on this issue, 
where I addressed this concern with DOD officials. I simply asked who's 
in charge of contingency contracting within DOD--its planning, its 
oversight, et cetera. To put it mildly, the answer was lacking and 
elusive. Who is the most senior official, aside from the Secretary of 
Defense, in charge of contingency contracting policy, planning, and 
execution within DOD?
    Secretary Panetta. Specific to contingency acquisition and 
contracting, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (AT&L) is the senior official in DOD 
responsible for supervising acquisition and establishing policies for 
acquisition, to include contingency contracting efforts in DOD. Within 
AT&L, these responsibilities are discharged by the Director, Defense 
Procurement and Acquisition Policy, and the Deputy Assistant Secretary 
of Defense for Program Support.
    The importance of contingency contracting is recognized within both 
operational and acquisition communities and currently being 
institutionalized across DOD in policies, doctrine, and plans. 
Operational Contract Support (OCS) has been defined as the ability to 
orchestrate and synchronize the provisions of integrated contract 
support and management of contractor personnel providing support to the 
joint force within a designated operational area.
    OCS responsibilities within DOD are set forth in DOD Directive 
3020.49, ``Orchestrating, Synchronizing, and Integrating Program 
Management of Contingency Acquisition Planning and its Operations 
Execution,'' which recognizes the roles of the Office of the Secretary 
of Defense, the Joint Staff, the Military Services, and the combatant 
commanders with respect to OCS.
    Admiral Mullen. The Assistant Secretary of Defense for AT&L is the 
senior official in DOD responsible for contingency contracting policy, 
oversight, and execution. The Chairman of the Joint Chiefs of Staff, in 
coordination with the Assistant Secretary of Defense for Policy, is 
responsible for issuing strategic planning guidance to the combatant 
commands, planning system automation support, and review of operational 
plans for adequacy and compliance with said guidance. The combatant 
commands develop and execute operational plans and the Military 
Services provide actual contracting in accordance with Title 10 
authority.

                    afghanistan infrastructure fund
    3. Senator McCaskill. Secretary Panetta and Admiral Mullen, DOD and 
U.S. Agency for International Development (USAID) are now planning for 
the implementation of the Afghan Infrastructure Fund, which will spend 
$400 million in DOD funds and hundreds of millions more from the 
Department of State (DOS) and USAID. The projects include maintaining 
and operating power generators in Kandahar, building power transmission 
networks, and $23 million for a new road connecting Nawa to Lashkar 
Gah. I have asked questions about this fund before in hearings in the 
Subcommittee on Contracting Oversight of HSGAC and I continue to have 
serious concerns about the fact that DOD is building these projects 
that the Afghan Government cannot possibly sustain, particularly in a 
time of budget shortfalls and real needs here at home. Can you tell me 
how DOD plans to ensure that this $400 million doesn't go down the 
drain?
    Secretary Panetta. Sustainability is critical to the success of 
infrastructure projects. Recognizing this, DOD continues to develop and 
implement a number of processes to ensure that the infrastructure it 
builds can, and will, be sustained by the Afghan Government and people. 
For example, the electrical, water, and other infrastructure projects 
funded by the Afghan Infrastructure Fund (AIF) are reviewed for 
sustainability by a variety of stakeholders, including DOS, USAID, 
international donors, the Government of Afghanistan (GoA), and regional 
and local government officials and citizens. All AIF projects must also 
have sustainability plans, which identify local responsibilities, non-
U.S. funding sources, and maintenance and operation requirements. In 
addition, to help ensure that the electrical projects are sustained, 
USAID is engaged in a robust initiative to build the capacity of the 
national power utility company, Da Afghanistan Breshna Sherkat, to 
generate revenue and sustain necessary infrastructure. Through 
interagency and intergovernmental partnerships such as this, DOD is 
working to ensure that all infrastructure projects are sustainable by 
the GoA.
    Admiral Mullen. We acknowledge that, if unassisted, the Afghan 
Government would likely have challenges maintaining these 
infrastructure projects. However, there are capacity-building efforts 
underway to assist the Government of Afghanistan in developing the 
required abilities to maintain these infrastructure projects. In the 
case of Kandahar power generation, the Afghan Public Utility has made 
great progress in the last few years training the necessary maintainers 
for some of these projects. USAID has been engaged in training and 
capacity development, and has planned $300 million over the next 5 
years to work specifically on capacity development in order to provide 
the depth of manpower needed to manage operations.
    In the cases cited, future plans for additional power generation 
from more sustainable sources, like an additional turbine planned for 
the Kajaki Damn and integration of the power transmission networks, 
serve to reduce the requirements for sustaining the diesel power 
generation stations in Kandahar. Twelve-month contractor warranty 
periods have also been added for such projects as the Nawa to Lashkar 
Gah road. These types of projects, coupled with capacity development 
efforts, and the security efforts provided by the International 
Security Assistance Forces (ISAF) and Afghan National Security Forces 
(ANSF) will contribute toward the long-term sustainability desired.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe
                             iraq strategy
    4. Senator Inhofe. Secretary Panetta, there are approximately 
46,000 U.S. troops in Iraq. The 2008 security agreement between Baghdad 
and Washington requires all U.S. forces to be out of Iraq by December 
2011. The Iraqi Government must ask for and approve the presence of 
U.S. forces beyond 2011. Iraqi Prime Minister Maliki and other Iraqi 
leaders have indicated they would like a U.S. presence beyond 2011, 
focused on training their forces, intelligence, and protecting their 
air space and borders. Massoud Barzani, President of Iraqi Kurdistan, 
said if American troops leave, the sectarian violence that plagued Iraq 
after U.S.-led operations began might erupt anew and called on the 
Iraqi Government to sign an agreement with the Americans to keep forces 
in the country. The Obama administration is finalizing several options 
that could leave as few as 3,000 to 4,000 U.S. Forces in Iraq beyond 
December 2012. No official decision has been made by Iraq or the United 
States. This number is significantly lower than the 14,000 to 18,000 
recently presented at DOD by General Lloyd Austin, Commanding General, 
U.S. Forces-Iraq. I believe leaving 3,000 to 4,000 U.S. forces in Iraq 
increases the risk to those forces and jeopardizes the successes 
achieved by the Iraqi people and the coalition of nations who help 
liberate them. How does U.S. force presence contribute to the U.S. 
Government's strategic plan in Iraq?
    Secretary Panetta. Strategically, a long-term partnership with the 
Iraqi Government and people is in the United States' interest, and a 
relationship with the Iraqi Security Forces (ISF) will be an important 
part of that partnership. We are currently in discussions with the 
Iraqi Government about the nature of that relationship. These 
discussions to date have focused on possible mission sets to support 
the ISF in areas that Iraqi commanders have identified as shortfalls, 
such as: logistics, air and maritime security training, combined arms 
training for Iraq's external defense, and intelligence fusion for Iraqi 
counterterrorism operations.
    Iraq no longer needs large numbers of U.S. forces to maintain 
internal stability, and U.S. commanders in the field assess that the 
ISF can handle counterinsurgency operations. The ISF has the lead for 
security, and levels of violence remain dramatically reduced from where 
they were in 2006 and 2007.
    At this point, no decisions have been made about any force levels 
in Iraq after 2011. We are drawing down U.S. forces in accordance with 
the U.S.-Iraq Security Agreement.

    5. Senator Inhofe. Secretary Panetta, what are the courses of 
action (COA) currently being looked at in Iraq?
    Secretary Panetta. Courses of action are focused on discussions 
with the Iraqi Government about the nature and scope of a potential 
future relationship between the United States and Iraq. Any future 
security relationship would be fundamentally different from the one we 
have had since 2003. We want a normal, productive relationship with 
Iraq going forward--a partnership similar to those we have with other 
countries in the region and around the world.
    For some time, we have been engaged in informal consultations with 
our Iraqi partners, including senior ISF officials, regarding ISF gaps 
and areas in which the ISF might request training post-2011. These 
areas include combined arms training necessary for Iraq's external 
defense; intelligence fusion (essential for a counterterrorism 
capability); air and maritime security training; and logistics.
    Discussions to date with the Iraqis have focused on possible 
mission sets to support the ISF in these and other areas. Any post-2011 
U.S. force presence upon which the United States and Iraq might 
ultimately agree would involve forces appropriate to support training 
and related mission sets.
    Again, we have made no final decisions--nor reached any agreement 
with the Iraqis--about a post-2011 U.S. force presence in Iraq. We are 
drawing down U.S. force in accordance with the U.S.-Iraq Security 
Agreement.

    6. Senator Inhofe. Secretary Panetta, what are the risks associated 
with COAs with regard to troop levels and what missions can be 
accomplished with those force levels?
    Secretary Panetta. We are currently in discussions with the Iraqi 
Government about the nature and scope of a potential future 
relationship. These discussions are focused on the types of training 
the United States may provide after December 31, 2011, and no final 
decisions about the nature of a U.S. presence in Iraq post-2011 have 
been made.
    With regard to missions and force levels, discussions with the 
Iraqis are focused on possible mission sets to support the ISFs in 
areas that Iraqi commanders have identified as shortfalls, including 
logistics, air and maritime security training, combined arms training 
for Iraq's external defense, and intelligence fusion for 
counterterrorism. Any post-2011 U.S. force presence upon which the 
United States and Iraq might agree would involve forces appropriate to 
support the training Iraq identifies and requests.
    Again, we have made no final decisions--nor reached any agreement 
with the Iraqis--about a post-2011 U.S. force presence in Iraq. We are 
drawing down U.S. forces in accordance with the U.S.-Iraq Security 
Agreement.

                          afghanistan strategy
    7. Senator Inhofe. Secretary Panetta and Admiral Mullen, 
Afghanistan remains one of the epicenters of violent extremism. 
Progress is being made, but it is fragile and reversible. The July 2011 
and December 2014 deadlines seem to loom over all operations in 
Afghanistan. Enemy activity in Afghanistan historically intensifies 
during the summer, and this summer proved no different as evidenced by 
the bombing in Wardak Province on Sunday, the high level attacks in 
Kabul, and the greatest single month of U.S. casualties during 
Operation Enduring Freedom. A drawdown of U.S. Forces began in July 
2011. Almost 1,000 soldiers from the 45th Infantry Brigade Combat Team 
(IBCT) from Oklahoma were rerouted at the 11th hour to Kuwait. This 
strategy of not replacing units as they rotate out of Afghanistan is 
disruptive and increases risk as the Oklahoma 45th IBCT is required to 
complete a mission at about two-third strength. Since July 29, 13 
Oklahoma soldiers have been killed in Afghanistan--they are doing a 
great job, are well-trained, and are executing the mission we have 
given them. President Obama has ordered the withdrawal of 10,000 U.S. 
forces this year and another 23,000 by the summer of 2012, leaving 
about 68,000 forces on the ground. What rationale drove the drawdown at 
the height of fighting season?
    Secretary Panetta. The surge of U.S. forces ordered by President 
Obama in 2009 was never intended to be open-ended, and has always been 
connected to the transition process, which began in 2011. Campaign 
progress has set the conditions that allowed us to begin recovering 
surge forces, marking an important milestone toward the completion of 
the transition of lead security responsibility to the ANSF by the end 
of 2014. Further, decisions over the pace and timing of the drawdown, 
within the designated milestones, have been delegated to Commander, 
USFOR-A/ISAF. DOD is carefully monitoring campaign progress, and will 
ensure that decisions about force strength support our strategy.
    Admiral Mullen. President Obama's decision to begin the deliberate, 
responsible redeployment of 10,000 U.S. surge forces from Afghanistan 
over the course of this year, with a further recovery of the remaining 
23,000 by the end of summer 2012 was based on clear progress in our 
strategy, particularly in our core goal of disrupting, dismantling, and 
ultimately defeating al Qaeda. We are seeing steady progress in the 
development of the ANSF, and there has been a clear decline in violence 
in 2011 when compared to the previous year.
    At the end of summer 2012--when the recovery of U.S. surge forces 
is complete--there will be a greater number of Afghan and coalition 
forces in the fight than there are today because we will have added an 
additional 55,400 members to the ANSF.
    Additionally, over the coming year, we will continue to develop and 
professionalize an even more capable ANSF. A well-trained, 
operationally effective ANSF will allow Afghans to assume greater 
responsibility as we redeploy the U.S. surge forces, maintain a 
necessary level of combat operations against anti-coalition forces, and 
prepare for the successful transition of lead security responsibility 
to the Afghans by the end of 2014.

    8. Senator Inhofe. Secretary Panetta and Admiral Mullen, Ambassador 
Crocker said earlier this month that the United States must demonstrate 
strategic patience to win this long war in Afghanistan. Do you believe 
setting withdrawal dates of July 2012 and December 2014 demonstrate 
strategic patience and shows U.S. long-term commitment?
    Secretary Panetta. The date of July 2011 marks the beginning of the 
transition to Afghan security lead, which will be completed by December 
2014. July 2011 also marks the beginning of our withdrawal of 33,000 
U.S. surge forces, which will be completed by the end of summer 2012. 
At that time, the United States would still have 68,000 forces in 
Afghanistan.
    Our approach demonstrates strategic patience and long-term 
commitment. When the surge began, there were roughly 190,000 personnel 
in the ANSF. Today, there are more than 305,000 members, and by the 
time we complete the withdrawal of our surge forces, the ANSF will be 
approaching their approved level of 352,000 personnel. The ANSF of 
today and the future benefits from extensive training and partnering by 
U.S. and coalition forces that is producing a far more capable army and 
police force than we had in 2009, and that has already begun proving 
itself in transitioned areas.
    Finally, the strategic partnership document that we are negotiating 
with Afghanistan is a clear message that the United States will not 
abandon Afghanistan when transition is done. U.S. forces will continue 
to train and advise the ANSF and support them with important enabling 
capabilities. This is a patient and strategic approach focused on 
securing our long-term security interests.
    Admiral Mullen. President Obama's decision to begin the deliberate, 
responsible redeployment of U.S. surge forces from Afghanistan by the 
end of summer 2012 was based on clear progress in our strategy, 
particularly in our core goal of disrupting, dismantling, and 
ultimately defeating al Qaeda. We are seeing steady progress in the 
development of the ANSF, and there has been a clear decline in violence 
in 2011 when compared to the previous year.
    The United States and the international community have sacrificed 
an extraordinary amount--in lives and resources--for the Afghan people. 
We remain committed to assisting Afghanistan in seeking a secure 
country that is free of al Qaeda safe havens. Ultimately, however, the 
Afghans must be responsible for taking the lead for security in their 
country. The transition process supports this objective.
    President Obama and President Karzai have agreed that the United 
States and Afghanistan should have an enduring strategic partnership 
beyond 2014. NATO and the international community have also made clear 
that their commitment to Afghanistan is enduring and will continue 
beyond the completion of the transition to Afghan security 
responsibility. We are currently engaging with the Afghans to outline, 
in broad terms, a vision for our long-term cooperation and presence.
    Afghanistan will require international assistance for many years to 
come; this is the reality of over 30 years of war. Our assistance, 
however, must be focused on helping the Afghans take full 
responsibility for their own future. We need to ensure that, as a 
nation, they begin to develop the capacity and the resources they need 
to reduce their reliance on international aid.

    9. Senator Inhofe. Secretary Panetta and Admiral Mullen, do you 
believe that a stable Afghanistan will help prevent future attacks on 
this country like that of 9/11?
    Secretary Panetta. Yes. President Obama's strategy--as laid out in 
his West Point address on December 1, 2009--focuses on the core goal, 
which is to disrupt, dismantle, and defeat al Qaeda and its affiliates 
and prevent al Qaeda's capacity to threaten the United States and our 
allies and partners in the future.
    To accomplish this, DOD is pursuing three objectives that will 
secure and stabilize the country: deny al Qaeda a safe haven, reverse 
the Taliban's momentum, and strengthen the capacity of Afghanistan's 
security forces and government so that they can take lead 
responsibility for Afghanistan's future.
    The United States made substantial progress on these objectives. We 
have exceeded our expectations on our core goal of defeating al Qaeda, 
removing 20 of its top 30 leaders from the battelfield, including Osama 
bin Laden. We have broken the Taliban's momentum in their heartland in 
Kandahar and Helmand. We have trained more than 305,000 ANSF personnel, 
who are now in the lead for security responsibilities in seven areas of 
the country, with more to follow with the implementation of the second 
tranche of transitioning areas currently scheduled for December 2011.
    This undeniable progress is important to American security because 
it helps foster an Afghanistan that is stable and secure--a country in 
which extremists will not find a safe haven or a platform for launching 
attacks on the United States and our allies and partners.
    Admiral Mullen. I believe that a stable Afghanistan, one that 
denies our enemies a safe haven, will prevent future attacks from 
Afghanistan on our country like those experienced on 9/11.

boycotts of certain u.s. defense contractors by foreign interest groups
    10. Senator Inhofe. Secretary Panetta, in recent years, global 
activists, foreign business enterprises, and certain governments have 
demonstrated an increased willingness to advance de facto foreign 
boycotts on contractors and subcontractors of DOD that provide certain 
products. If successful, such actions would not only harm the U.S. 
defense industrial base, but also impede the military strategy and 
tactics of our Armed Forces and allies in regions where our forces are 
deployed or our interests are at stake. Such endeavors include a recent 
effort to classify the Sensor Fuzed Weapon (SFW) as a prohibited weapon 
under the terms of the Convention on Cluster Munitions (CCM), and 
ongoing attempts today to pressure investors and suppliers to terminate 
their relationships with U.S. manufacturers that provide key SFW 
components to DOD. Meanwhile, similar but less reliable weapons 
possessed by other governments are permitted for use under the CCM. The 
motivations and efforts of those now seeking to enforce the CCM--which 
was forged outside recognized international bodies--contrast sharply 
with ongoing efforts by our government and others to address the true 
humanitarian impact of cluster munitions while recognizing the SFW's 
enduring and critical importance to our military strategy on the Korean 
Peninsula, Persian Gulf, and other sensitive regions. I understand that 
in the coming weeks, U.S. diplomats will have an important opportunity 
to advance a responsible course of action with regard to cluster 
munitions during preparations for a review of the United Nations (UN) 
Convention on Prohibitions or Restrictions on the Use of Certain 
Conventional Weapons (CCW). Given the potential negative impact of the 
CCM on the SFW, its role in our military strategy, the defense 
industrial base, and foreign military sales (FMS) to allies in key 
regions, what actions will you take to support and reinforce U.S. 
diplomatic efforts to achieve tangible progress on an alternative 
agreement under the auspices of the CCW?
    Secretary Panetta. The administration supports concluding a 
comprehensive and binding protocol to the Convention on CCW that 
addresses all aspects of cluster munitions, including use, transfer, 
stockpiling, and destruction, and that will have a significant 
humanitarian impact on the ground while preserving an important 
military capability. The draft protocol presented by the CCW Group of 
Governmental Experts Chair provides the basis for such a protocol.
    I am committed to protecting the U.S. defense industrial base and 
our national security interests. To that end, DOD is actively 
supporting current DOS efforts to contact CCW High Contracting Parties 
to urge these states to seize the opportunity to conclude a new 
protocol regulating cluster munitions at the CCW Review Conference in 
November. This includes targeted ministerial-level engagements with key 
detractors of the proposed protocol, as well as pressing major users 
and producers of cluster munitions for increased transparency. I will 
join in these efforts to engage foreign governments on such issues, as 
appropriate.

           operation enduring freedom/afghanistan benchmarks
    11. Senator Inhofe. Secretary Panetta, on April 10, 2008, the 
Senate Armed Services Committee held a hearing on the situation in 
Iraq, progress made by the Government of Iraq in meeting benchmarks and 
achieving reconciliation, the future U.S. military presence in Iraq, 
and the situation in Afghanistan. Admiral Mullen and Secretary Gates 
were the witnesses. The hearing focused on Iraq, conditions on the 
group post-surge, and status of Iraq meeting specific benchmarks. The 
aforementioned was one of many hearings and discussions this committee 
had regarding progress being made in Iraq. The weekly updates on 
benchmarks along with 10 visits to Iraq allowed me to understand what 
was going on in Iraq and how we were executing our mission--which often 
differed drastically from what was being reported in the news back in 
the United States. During a press conference with General McChrystal on 
June 10, 2010, he was asked about benchmarks and what metrics where 
being used to determine conditions on the ground and how the United 
States is meeting strategic objectives in Afghanistan. His answer did 
not give specifics but touched on a variety of metrics such as capacity 
of Afghan governance, basic rules of law, freedom of movement, combat 
capacity of ANSFs, IEDs, and price of goods. In 2009, Congress imposed 
a new reporting requirement in the Supplemental Appropriations Act. It 
required the President on behalf of the administration as a whole to 
submit regularly a policy report on Afghanistan and Pakistan. An 
initial report submitted on September 2009 listed eight objectives. It 
was followed by a March 2010 report that provided some metrics, 
additional reports, and classified briefings to Congress. The reports 
describe developments in each objective area. However, determining if 
enough progress has been made in each area to be successful and how 
that translates into achieving our overall strategic objectives in 
Afghanistan is difficult at best. Like in Iraq, Congress and the 
American people want to know how we are doing in Afghanistan and how 
that is being determined. What are the benchmarks being used in 
Afghanistan?
    Secretary Panetta. In summer 2009, the National Security Staff 
(NSS) coordinated the interagency effort to develop a series of 
indicators and metrics to measure progress against the objectives in 
the administration's Afghanistan-Pakistan Strategic Implementation Plan 
(SIP). The NSS worked with--and received input from--congressional 
staffs, and, in fall 2009, the NSS provided both classified and 
unclassified metrics and indicators (or benchmarks) to Congress.
    The SIP metrics track progress in Afghanistan against:

        <bullet> disrupting, dismantling, and defeating al Qaeda and 
        its affiliates;
        <bullet> reversing the Taliban's momentum;
        <bullet> building the ANSF capacity to enable transition;
        <bullet> building the capacity of the Afghan Government to 
        allow the Afghans to solidify security gains in transitioning 
        areas; and
        <bullet> involving the international community more actively to 
        forge an international consensus to stabilize Afghanistan.

    The SIP for Pakistan assesses three main focus areas, which are the 
following:

        <bullet> Status of security (level of militant-initiated 
        violence in Pakistan; and extent of militant affected areas in 
        Pakistan);
        <bullet> Perceptions of security and stability (internally 
        displaced persons population; population perception of security 
        in the community; and, economic opportunities in the 
        community); and
        <bullet> Security forces capability and capacity (effectiveness 
        of Pakistani COIN operations).

    12. Senator Inhofe. Secretary Panetta, what are the trends and 
status of those benchmarks?
    Secretary Panetta. Overall, the United States and our coalition 
partners are seeing clear progress with regard to the benchmarks as a 
result of our strategy in Afghanistan, particularly with regard to our 
core goal of disrupting, dismantling, and ultimately defeating al Qaeda 
and its affiliates. As was reported in the September 2011 metrics 
report, our surge forces--along with those of our allies and partners 
and the expanding ANSF--have broadly reversed the insurgency's 
momentum. There has also been a marked decline in violence in 
Afghanistan so far in 2011, compared to the same period last year. We 
have also made steady progress in assisting Afghanistan's development 
of its own forces, which have begun assuming the lead for security for 
more than a quarter of the Afghan population, with the transition of 
seven provinces and municipalities having occurred this past summer. 
President Karzai is expected to announce the second tranche of areas to 
transition later this fall, which would result in the ANSF having 
security lead for as much as 50 percent of the Afghan population.

    13. Senator Inhofe. Secretary Panetta, what do we need to do to 
achieve success in each of the benchmarks?
    Secretary Panetta. Achieving and sustaining success in each of the 
benchmarks requires continued congressional support for the Afghanistan 
Security Forces Fund, for Overseas Contingency Operation funds, and for 
our counterparts in civilian agencies whose efforts are central to 
developing Afghanistan's capacity for governance and sustained economic 
growth. Sustained support will ensure U.S. and Afghan forces have the 
resources needed to maintain our security gains, complete the process 
of transition, and build an enduring partnership with the Afghan 
Government. In turn, a secure and stable Afghanistan--bolstered by an 
enduring partnership with the United States--will further enable the 
Afghans to deny safe haven to terrorists. Additionally, continued 
financial support to the Afghan campaign will signal to the Afghans and 
the region that the United States remains committed, and that the 
hedging strategy used by some in the region is futile. Thus, a positive 
political environment in Afghanistan will better enable coalition and 
Afghan forces to meet the operational benchmarks in Afghanistan.
    We must also continue our efforts to professionalize the Afghan 
forces, especially in the areas of literacy, leadership, and 
operational performance. NATO Training Mission-Afghanistan (NTM-A) 
estimates that the ANSF will achieve 50 percent overall literacy rates 
at the third-grade level in 2012, with more than 70,000 police and 
55,000 soldiers having received some level of literacy training. 
Achieving a 50 percent literacy rate in the ANSF will not only increase 
the ANSF's operational effectiveness, but it will also contribute to 
Afghanistan's overall economic development in the longer-term. Equally 
important is maintaining our focus on improving the quality and 
quantity of leaders in order to further accelerate the ANSF's 
development.
    Lastly, DOD must continue to work alongside the DOS to engage the 
international community to help build Afghan governance capacity and 
ensure stability in that country (and the region) over the long-term. 
Afghanistan will require international assistance for many years to 
come. Our assistance, however, must be focused on helping the Afghans 
take full responsibility for their own future.

    14. Senator Inhofe. Secretary Panetta, how does achieving these 
benchmarks translate into meeting overall U.S. strategic objectives in 
Afghanistan?
    Secretary Panetta. The benchmarks were created as a mechanism for 
measuring progress against strategic objectives, so achieving 
benchmarks translates directly into meeting overall strategic 
objectives. Military doctrine states that measures of effectiveness 
(including benchmarks and indicators) are criteria used to determine if 
operations are achieving strategic objectives. While strategic 
objectives are broad, complex, and often abstract, qualitative and 
quantitative metrics represent a tangible translation of objectives 
into benchmarks that can be measured and tracked over time. These 
measures of effectiveness are intended to answer the following 
questions:

        <bullet> Are we doing the right things?
        <bullet> Are our actions producing the desired effects?
        <bullet> Are other actions required?

    With this in mind, these benchmarks--taken as a whole--are a 
representation of strategic objectives, so that when success is 
assessed across the benchmarks, the strategic objective is achieved. 
Conversely, they also provide a mechanism to adapt operations that are 
not showing progress toward the objectives.
    With regard to the SIP, the National Security Council assigned DOD 
with lead responsibility for the Afghanistan strategic objectives 
associated with defeating the extremist insurgency, securing the Afghan 
populace, and developing a self-reliant, capable Afghan security force. 
If DOD sees success in all of the benchmarks described in its response 
to Question for the Record #11, it will assess that the strategic 
objectives have been achieved.

                    afghan national security forces
    15. Senator Inhofe. Secretary Panetta and Admiral Mullen, the 
United States pays over $12 billion a year for Afghan security forces 
training. I personally saw the fruits of that labor during my latest 
visit to Afghanistan over New Year's Day. I observed the training of 
Afghan soldiers at Kabul Military Training Center (KMTC) and spoke with 
several of the new recruits and new leaders of the Afghan Army. I was 
impressed with what I saw and with the leadership Afghan Brigadier 
General Patyani, KMTC Commander, British Brigadier David Patterson, and 
U.S. Major General Gary Patton, then Commander and Deputy of NATO 
Training Mission Afghanistan (NTM-A). The Government Accountability 
Office's (GAO) report last month highlighted the significant progress 
that the Afghan National Army is making in recruiting and training. 
However, shortfalls remain and they need significant amounts of 
trainers and support for many years to come. Is it correct to say that 
the capability of the Afghan Security Forces is the decisive point of 
our Afghan strategy?
    Secretary Panetta. The development of capable and sustainable ANSF 
is indispensible to strategic success in Afghanistan. Afghanistan will 
only be able to continue developing and providing credible and capable 
governance and economic opportunities if it has a foundation of army 
and police forces that are able to deal effectively with the 
insurgency, secure the nation's sovereignty, and enforce the rule of 
law. NATO Training Mission-Afghanistan has made remarkable strides in 
developing the ANSF, but developing specialized capabilities such as 
logistics, medical, and intelligence remain essential to the ANSF's 
future ability to sustain itself and reduce its dependence on coalition 
forces. The ANSF's success in the transitioned areas where it already 
has the security lead is a promising indicator of the progress made to 
date and the prospects for a full transition process by the end of 
2014. Nonetheless, even after transition is complete, DOD will have a 
continuing interest in Afghanistan's sustainment of capable security 
forces.
    Admiral Mullen. Yes. The ANSF are a critical element in the 
accomplishment of our strategy in Afghanistan. The ANSF are the most 
highly developed component of the Afghan Government. Our literacy 
programs are making the ANSF one of the largest literate populations in 
Afghanistan. Polling data indicates that the population considers the 
ANSF the most professional element of the Afghan Government. The ANSF 
will enable ISAF to transition responsibility back to GIRoA and the 
people of Afghanistan.

    16. Senator Inhofe. Secretary Panetta and Admiral Mullen, will they 
be ready by the 2014 timeline that President Karzai has requested?
    Secretary Panetta. The ANSF are on track to reach the goal of 
completing transition by the end of 2014--as proposed by President 
Karzai and confirmed by our allies and partners at the November 2010 
NATO Summit in Lisbon.
    This is because the ANSF continues to grow in quantity, 
professionalism, and operational effectiveness. Both the Afghan 
National Army (ANA) and the Afghan National Police (ANP) reached their 
October 2011 end strengths of 171,600 and 134,000 personnel, 
respectively. Further, literacy training--an invaluable force 
multiplier--continues to expand; more than 86,000 ANSF personnel are in 
various stages of literacy training. The ANSF continues to translate 
this training into operational effectiveness, as 72 percent of ANA 
units and 70 percent of ANP units have been assessed as ``effective 
with coalition assistance'' or better. This progress became readily 
apparent as the ANSF began to assume lead security for over a quarter 
of the Afghan population, with the transition of seven provinces and 
municipalities announced this past summer. This transition continues to 
move forward. The ANSF personnel in the lead in these areas proved to 
be capable and resilient, and met the insurgency's challenges to 
security.
    I expect that, in mid-November, President Karzai will announce the 
next tranche of districts and provinces to enter the transition 
process. After implementation begins on this next tranche, 
approximately half of the Afghan population could be living in 
transitioned areas where the ANSF is in the lead for security, with 
continuing coalition support.
    Admiral Mullen. The decision to begin security transition in a 
geographic area is determined by four assessed conditions:

    1.  ANSF must be capable of handling additional security 
responsibilities with less assistance.
    2.  Security in a given area must be at a threat level that permits 
the population to pursue routine daily activities.
    3.  Local governance must be sufficiently developed to provide a 
complementary layer of stability as ISAF assistance is gradually 
reduced.
    4.  ISAF must be properly postured to reduce its presence as ANSF 
capacity and capabilities increase and the security environment 
improves.

    Meeting these conditions will enable the ANSF to assume security 
responsibility for Afghanistan according to President Karzai's 
timeline.

    17. Senator Inhofe. Secretary Panetta and Admiral Mullen, can the 
Afghan Government continue to fund and equip these robust security 
forces in the future?
    Secretary Panetta. The cost of sustaining the ANSFs will continue 
to outpace the Government of Afghanistan's near-term resourcing 
abilities. The ANSF will need continued international assistance until 
new national sources of revenue can be brought on-line.
    To that end, DOD is currently looking at how to reduce the 
remaining ANSF development and long-run sustainment costs. This effort 
includes looking into changes to the force size and shape that might be 
possible in a post-counterinsurgency environment, as well as avoiding 
redundancies and building only to the standards required in 
Afghanistan. As we transition areas to Afghan lead for security, we 
have emphasized to our allies and partners the importance of 
maintaining their overall financial commitment to security in 
Afghanistan. In addition, our allies and partners continue to make 
contributions to ANSF sustainability through multi-donor trust funds, 
such as the U.N. Law and Order Trust Fund for Afghanistan, which 
supports the ANP. DOD has also implemented programs through its Task 
Force for Business and Stability Operations to connect outside 
investors to potential Afghan producers, and to help Afghanistan build 
the capacity to develop its mineral and other natural resources in 
environmentally sound and sustainable ways.
    DOD also continues to participate in a concerted interagency effort 
to develop an overall economic strategy for improving Afghanistan's 
economic sustainability, economic development, revenue generation, and 
budget execution. Over time, such efforts will help enable the Afghans 
to take on increasing financial responsibility for their own security 
forces, with decreasing reliance on donor support.
    Admiral Mullen. We are currently working with the Afghan Government 
and our coalition partners to develop long-term plans for the ANSF. 
Part of the planning process will include identifying the forces 
required to secure Afghanistan at a level that they are capable of 
sustaining with their internal resources and limited international 
contributions.

                      reintegration of the taliban
    18. Senator Inhofe. Secretary Panetta, 1,700 Taliban fighters have 
accepted the offer of reintegration from the Karzai Government. 
Estimates of the strength of the various Taliban factions vary from 
20,000 to 40,000. The reintegration program is aimed at the so-called 
``accidental guerillas'' for whom fighting in the insurgency is just a 
job. What is the status of the reintegration program?
    Secretary Panetta. Since the Afghanistan Peace and Reintegration 
Program (APRP) was created in the summer of 2010, the Afghan Government 
has made steady progress in establishing structures at the national and 
sub-national levels to support the program. Several groups have 
reintegrated in recent months, bringing the number of former insurgents 
formally enrolled in the APRP to 2,657 (as of late October). The High 
Peace Council has conducted extensive outreach activities to spread 
awareness of the APRP. To encourage greater reintegration in the South, 
the High Peace Council convened a conference on September 12-13 with 
more than 300 representatives of civil society, local elders, and local 
government. A shared understanding of reintegration is important for a 
program that centers on community support for the reintegration 
candidates. Almost all provinces now have access to donor funds 
provided for program implementation, and APRP officials have been 
trained on proper execution of these funds. Furthermore, the Ike 
Skelton National Defense Authorization Act for Fiscal Year 2011 
authorized DOD to use its funds to support reintegration.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                              defense cuts
    19. Senator Sessions. Secretary Panetta, in your testimony, you 
stated DOD will be implementing more than $450 billion in savings over 
the next 10 years in order to comply with the spending caps in the 
Budget Control Act (BCA). Please provide a table showing the estimated 
$450 billion in cuts to the base on a year-by-year basis.
    Secretary Panetta. The BCA does not specify budgets for DOD. Rather 
it specifies limits for broader categories of funding. If DOD takes a 
proportional share of cuts, DOD's reduction appears to be roughly $450 
billion over the next 10 years. All cuts are relative to the 
President's fiscal year 2012 budget plan. During our comprehensive 
review, which is anticipated to be completed this fall, we will 
accurately determine how the $450 billion impacts each of the fiscal 
years. We will provide the requested data with the fiscal year 2013 
budget request.

    20. Senator Sessions. Secretary Panetta, on July 31, 2011, the 
White House stated that the BCA required savings of $350 billion from 
DOD's base budget. Is the $350 billion figure part of the $450 billion 
figure?
    Secretary Panetta. The $350 billion reduction is equivalent to the 
$450 billion cut but it is measured against the Congressional Budget 
Office (CBO) baseline, which OMB and Congress often use, rather than 
the fiscal year 2012 budget plan. The CBO baseline is about $100 
billion lower than the fiscal year 2012 budget plan, which makes these 
two cuts roughly equivalent in size.

    21. Senator Sessions. Secretary Panetta, why do these two estimates 
of savings differ?
    Secretary Panetta. The $350 billion reduction is equivalent to the 
$450 billion cut but it is measured against the CBO baseline, which OMB 
and Congress often use, rather than the fiscal year 2012 budget plan. 
The CBO baseline is about $100 billion lower than the fiscal year 2012 
budget plan, which makes these two cuts roughly equivalent in size.

    22. Senator Sessions. Secretary Panetta, in August, the CBO 
released ``The Budget and Economic Outlook: An Update'' that noted that 
the BCA set separate caps on security and non-security funding for 
fiscal years 2012 and 2013, but no such distinction was made for 
appropriations for fiscal years 2014 to 2021. While the programs funded 
under the security cap, which comprises not only DOD but also the 
Department of Homeland Security (DHS), the Department of Veterans 
Affairs (VA), the National Nuclear Security Administration (NNSA), the 
Intelligence Community management account, and all accounts in budget 
function 150, would face a total cut of $48 billion over the initial 2-
year period, CBO stated that the BCA's caps could be met in the future 
through many different combinations of defense and non-defense 
appropriations. Do you agree with CBO's assessment that the BCA's caps 
could be satisfied through different levels of defense and non-defense 
spending?
    Secretary Panetta. Yes, it's possible the BCA caps could be 
satisfied through different levels of defense and non-defense spending, 
but DOD is exploring the best way to reduce our budget by more than 
$450 billion over the next 10 years in accordance with the direction 
provided in the BCA of 2011.

    23. Senator Sessions. Secretary Panetta, how did DOD arrive at the 
$450 billion figure you cite as being consistent with the reductions 
required by the BCA?
    Secretary Panetta. If DOD takes a proportional share of cuts, DOD's 
reduction appears to be more than $450 billion over the next 10 years 
(fiscal year 2012-fiscal year 2021). All cuts are relative to the 
President's fiscal year 2012 budget plan.

    24. Senator Sessions. Secretary Panetta, what is the baseline DOD 
is using for the reduction of $450 billion?
    Secretary Panetta. All cuts are relative to the President's fiscal 
year 2012 baseline budget plan.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                  iraq
    25. Senator Wicker. Secretary Panetta, the U.S. Status of Forces 
Agreement (SOFA) with Iraq calls for the withdrawal of U.S. combat 
troops by the end of 2011. However, the security environment in Iraq 
continues to deteriorate. Iraqi political leaders realize the need for 
continued presence of U.S. troops but are unwilling to publicly discuss 
this possibility. What is your assessment of the situation in Iraq as 
far as the Iraqi Government's desire to extend the U.S. mission there?
    Secretary Panetta. In August, the Iraqi political leadership 
indicated publicly that they are interested in an ongoing training 
relationship with the United States post-2011. We believe that an 
enduring partnership with the Iraqi Government and people is in the 
interest of the United States, and a relationship with the ISFs will be 
an important part of that partnership. Any future security relationship 
will be fundamentally different from the one that we have had since 
2003.
    We are currently in discussions with the Iraqi Government about the 
nature and scope of that relationship. Those discussions are ongoing, 
and no decisions have been made at this point. In the meantime, we are 
drawing down U.S. forces in accordance with the U.S.-Iraq Security 
Agreement.

    26. Senator Wicker. Secretary Panetta, how can we encourage the 
Iraqis to extend the U.S. military mandate? Should we encourage them to 
do so?
    Secretary Panetta. The U.S.-Iraq Security Agreement will expire at 
the end of this year, so any potential relationship with the Iraqis 
will be different from the relationship we have had with Iraq since 
2003. The Iraqis stated in August that they are interested in a long-
term relationship, so we are discussing with Iraq the nature of U.S. 
military training that might be provided to the ISF. The primary 
objective of this training would be to improve ISF capabilities in 
furtherance of the President's objective of a sovereign, stable, self-
reliant Iraq that is a force for security in the region and a long-term 
strategic partner of the United States, in accordance with the 
Strategic Framework Agreement (SFA).

    27. Senator Wicker. Secretary Panetta, how can the United States 
best nurture the Iraqi security forces should this mandate not be 
extended?
    Secretary Panetta. We are currently in discussions with the Iraqi 
Government about the nature and scope of a future relationship. Those 
discussions are ongoing. Any future security relationship will be 
fundamentally different from the one we have had since 2003.
    Regardless of how the discussions evolve, a cornerstone of our 
relationship with Iraq and with the ISF will be the transformation of 
the U.S. train-and-equip mission under the leadership of the Office of 
Security Cooperation under Chief of Mission authority--similar to 
security cooperation offices in other countries in the region--to 
maintain a robust security assistance and cooperation relationship. 
U.S. Central Command (CENTCOM) is also planning to propose regional 
training and combined exercises with the ISF.
    No decisions have been reached at this point. We are drawing down 
U.S. forces in accordance with the U.S.-Iraq Security Agreement.

    28. Senator Wicker. Admiral Mullen, the administration's current 
strategy is to complete a near total withdrawal from Iraq, leaving only 
3,000 troops in the country by the end of the year. Iraqi Ambassador 
Jeffrey and General Austin, Commander U.S. Forces Iraq, have both 
acknowledged before this committee that Iraq currently lacks the 
ability to adequately defend itself from attacks against its 
sovereignty. It is unlikely that Iraq will possess such capability by 
the end of the year. Both Ambassador Jeffery and General Austin agreed 
that the U.S. military would be the best force to support and nurture 
the Iraqi armed forces. However, the Iraqi Government has not yet been 
able to reach agreement on SOFA modifications that would allow American 
troops to stay past the end of 2011. In light of recent violence and 
unrest in Iraq, do you anticipate the Iraqi Government requesting an 
extension to the American military presence there?
    Admiral Mullen. Iraq's political bloc leaders expressed a desire 
for U.S. training and assistance beyond 2011. However, absent a follow-
on agreement, the United States will withdraw our forces from Iraq by 
31 December 2011 in accordance with the 2008 U.S.-Iraq Security 
Agreement.

        <bullet> Iraq has the capability to defend against internal 
        threats and possesses a confident and capable counter-
        insurgency force
        <bullet> Iraq does have capability gaps that effect its ability 
        to adequately defend against an external threat such as:

                <bullet> Iraqi Army combined arms capability
                <bullet> Cross-ministerial and interagency intelligence 
                and information sharing
                <bullet> Strategic logistics and sustainment operations
                <bullet> Air sovereignty and integrated air defense
                <bullet> Counterterrorism force professionalism

        <bullet> Despite episodic high-profile attacks by AQI, overall 
        attacks in Iraq have decreased significantly
        <bullet> Absent a SOFA we will reduce our footprint to a small 
        Office of Security Cooperation to manage the extensive FMS 
        program
        <bullet> The United States will still have considerable 
        military capabilities in the region that will deter threats 
        against Iraqi sovereignty
        <bullet> The U.S. military will continue to develop the ISF 
        through a robust Office of Security Cooperation. U.S. and Iraqi 
        leaders agree that we can adequately continue ISF development 
        through rotational training and exercises and through arms 
        sales

    29. Senator Wicker. Admiral Mullen, how extensive is our engagement 
with the Iraqi political and military leadership towards pursuit of a 
modification to the SOFA to enable our presence in Iraq?
    Admiral Mullen. Ambassador Jeffrey is the lead agent for engagement 
with the Government of Iraq to pursue a new security agreement to 
facilitate a U.S. military presence beyond 2011. Senior leaders 
throughout the government including the President and Vice President 
have been extremely engaged in the process. The interagency met weekly 
on Iraq to ensure a whole-of-government approach on this issue. 
Additionally, Secretary Panetta and I both visited Iraq in recent 
months and met with senior Iraqi leaders including Prime Minister 
Maliki. Iraqi lawmakers expressed a desire for U.S. training and 
assistance beyond 2011. However, without a follow-on security 
agreement, we will--in accordance with Article 24 of the 2008 U.S.-Iraq 
Security Agreement--withdraw all our forces from Iraq by 31 December 
2011. A very small office of security cooperation will remain to manage 
the extensive ($6.4 billion) FMS program.

    30. Senator Wicker. Admiral Mullen, we are quickly approaching the 
point where such a decision must be made. How much longer can we wait 
before our planning and logistics capabilities cannot adjust for a 
change in the current withdrawal plan?
    Admiral Mullen. As the President has stated, we intend to fulfill 
our obligations under the 2008 U.S.-Iraq Security Agreement, which 
requires all U.S. forces to withdraw by the end of the year. We are on 
track to meet that objective and are rapidly approaching the time where 
a follow-on agreement would create significant logistical costs and 
challenges for our forces. Although changes to the current plan would 
likely increase costs, the U.S. military has sufficient planning and 
logistics capacity to react to changes.

    31. Senator Wicker. Admiral Mullen, do you believe our 
servicemembers and their families are prepared to deal with a continued 
presence in Iraq should that eventuality come to pass?
    Admiral Mullen. We intend to fulfill our obligations under the 2008 
U.S.-Iraq Security Agreement, which requires all U.S. forces to 
withdraw by the end of the year. A small number of servicemembers will 
remain in Iraq to support the U.S. Embassy and manage the extensive FMS 
program as part of the Office of Security Cooperation-Iraq (OSC-I). The 
servicemembers working in the OSC-I will not be operational in nature. 
Instead, they would perform functions such as managing FMS cases, just 
as servicemembers do in our embassies around the world. The men and 
women are prepared to handle these deployments like every other 
military assignment: with strength, fortitude, and character in support 
of U.S. strategic objectives.
    We are also working to ease the deployment burden on our troops and 
their families. For example, in 2012, the Army will shorten unit 
deployment times from 12 months to 9 months.

    32. Senator Wicker. Secretary Panetta, what is your assessment of 
the security situation on the ground in Iraq?
    Secretary Panetta. Iraq no longer needs large numbers of U.S forces 
to maintain internal stability. The ISFs have had the lead for security 
for some time, and levels of violence have remained dramatically 
reduced from where they were in 2006 and 2007. U.S. commanders in the 
field assess that the ISF are competent at counterinsurgency 
operations. The drawdown of nearly 100,000 U.S. forces since January 
2009 without a significant or sustained uptick in attacks is evidence 
that the ISF have made significant progress.

    33. Senator Wicker. Secretary Panetta, it seems to me that the 
Iraqi Government is extremely fragile. Iraqi leaders privately concede 
the need for an extended U.S. troop presence in Iraq but we all know 
this may be a politically difficult--if not impossible--request for the 
Iraqis to make. It appears on a practical level to me that the Iraqis 
would prefer the presence of U.S. combat troops to the presence of 
poorly-regulated contractors roaming the country. I pursue these 
questions since the same issues will arise for us in Afghanistan in 
2014. Iraq 2011 is definitely a test-case for Afghanistan 2014. What do 
you think will happen at the end of 2011?
    Secretary Panetta. In accordance with the 2008 U.S.-Iraq Security 
Agreement, U.S. forces will redeploy from Iraq by the end of this year. 
This is the drawdown that the President began with his announcement of 
the U.S. strategy for Iraq in February 2009, which included an end to 
the combat mission in August 2010, and a drawdown of all U.S. forces by 
the end of this year.
    In terms of security, Iraq no longer needs large numbers of U.S 
forces to maintain internal stability. The ISFs have had the lead for 
security for some time, and levels of violence have remained 
dramatically reduced from where they were in 2006 and 2007. U.S. 
commanders in the field assess that the ISF are competent at 
counterinsurgency operations.

    34. Senator Wicker. Secretary Panetta, will the Iraqis ask us to 
stay?
    Secretary Panetta. In August the Iraqi political leadership stated 
publicly that they are interested in an ongoing training relationship 
with the United States post-2011. We believe that an enduring 
partnership with the Iraqi Government and people is in the interest of 
the United States, and a relationship with the ISFs will be an 
important part of that partnership.
    We are currently in discussions with the Iraqi Government about the 
nature and scope of that relationship. Those discussions are ongoing. 
Any future security relationship will be fundamentally different from 
the one we have had since 2003. We want a normal, productive, healthy 
relationship with Iraq going forward--a partnership similar to those we 
have with other countries in the region and around the world.
    No major decisions have been made at this point. We are drawing 
down U.S. forces in accordance with the U.S.-Iraq Security Agreement.

                              afghanistan
    35. Senator Wicker. Admiral Mullen, in light of continuing violence 
and unrest in Afghanistan, do you anticipate the Afghan Government 
requesting an extension to the NATO military presence after 2014?
    Admiral Mullen. While the ISAF mandate will likely expire upon the 
completion of transition in 2014, NATO will continue its presence as a 
component of the international community's enduring commitment to 
Afghanistan. NATO, the United States, and other international partners 
are currently negotiating long-term strategic agreements with the 
Afghan Government.
    After 2014, the ANSF are on track to have the internal capability 
needed to deal with internal threats and to preserve Afghan 
sovereignty. These forces will continue to require limited enabler, 
training, and financial support. The international community's 
strategic agreements will define their enduring enabler, training, and 
financial commitments to support the ANSF and the people of 
Afghanistan. Post-2014 enabler requirements presume the responsible 
drawdown of U.S. surge recovery forces in Afghanistan as directed by 
the President of the United States in June 2011.

    36. Senator Wicker. Admiral Mullen, wouldn't an expedited 
withdrawal from Iraq and Afghanistan that is not conditions-based be 
irresponsible given our expenditure of American blood and taxpayers' 
dollars? I am particularly concerned that local political 
considerations on the ground in Iraq and Afghanistan may override the 
practical need for U.S. combat troops to help maintain a stable and 
secure environment in those countries.
    Admiral Mullen. With respect to Iraq, as of January 1--and in 
keeping with our SFA with Iraq--we will maintain a normal strategic 
relationship with Iraq. A relationship between sovereign nations, and 
an equal partnership based on mutual interest and mutual respect. The 
OSC-I will have a capacity to train Iraqis on the new kinds of weapons 
and weapons systems that the Iraqis have purchased in recent years, 
including F-16s. OSC-I will also facilitate future FMS with Iraq. U.S. 
and Iraqi leaders agree that we can adequately continue ISF development 
through rotational training and exercises and through arms sales. OSC-
I, training, and exercises coupled with thousands of U.S. forces 
stationed throughout the Middle East, will help maintain stability in 
Iraq and the region.
    The transition and drawdown of troops in Afghanistan is a 
conditions-based approach. Unfortunately, Afghanistan will require 
international assistance for many years to come--a difficult reality 
stemming from over 30 years of war. Our efforts to date have been aimed 
at developing Afghan capacity and resources to reduce their reliance on 
international support and aid. President Obama and President Karzai 
have agreed that the United States and Afghanistan should have an 
enduring strategic partnership beyond 2014. Our enduring presence in 
Afghanistan must be focused on helping the Afghans take full 
responsibility for their own future. NATO and the international 
community have also made clear that their commitment to Afghanistan is 
enduring and will continue beyond the completion of the transition to 
Afghan security responsibility. We are currently engaging with the 
Afghans to outline, in broad terms, a vision for our long-term 
cooperation and presence.

    37. Senator Wicker. Admiral Mullen, what efforts are you making to 
ensure our allies continue their commitment to the mission in 
Afghanistan?
    Admiral Mullen. We have maintained a thorough engagement strategy 
with our coalition partners to achieve unity of effort with respect to 
our mission in Afghanistan.
    This engagement is founded on the basic expectations jointly 
expressed in the NATO Lisbon Summit Declaration of 20 Nov 2010: 
``Transition will be conditions-based, not calendar-driven, and will 
not equate to withdrawal of ISAF-troops. Looking to the end of 2014, 
Afghan forces will be assuming full responsibility for security across 
the whole of Afghanistan.''
    This understanding has been reinforced by the Secretary of 
Defense's strategic engagement with the contributing nations to ISAF 
(most recently with the NATO defense ministers in Brussels) and the 
Secretary of State's engagement with international partners for the New 
Silk Road Initiative. Additional engagements in Bonn, Istanbul, and 
Chicago will further solidify our relations with our allies.
    Finally, the ISAF commander continues his ongoing program of senior 
leader visits in Kabul facilitating the strategic dialog with our 
allied partners.

                   training of afghan security forces
    38. Senator Wicker. Admiral Mullen, since fiscal year 2005, annual 
funding to train Afghan forces has grown rapidly from $1.3 billion to 
$7.4 billion in fiscal year 2007. In 2008, DOD announced plans to 
double the size of the Afghan security forces over the next 4 years at 
a cost of about $20 billion. Building the capacity of the Afghan 
security forces is a key element of the administration's Afghanistan 
policy. Beyond measuring the number of graduates of Afghan security 
training programs, it is difficult to gauge the capacity and 
effectiveness of these troops. How capable are graduates of our 
training programs in Afghanistan?
    Admiral Mullen. NTM-A's efforts at expanding ANSF capacity and 
building a professional ANSF that will transition to a lead security 
role through 2014 continue to show significant gains. Prior to 2009, 86 
percent of the ANSF were illiterate. Since 2009, over 50,000 members of 
the ANSF have gone through officer and NCO training programs, over 
134,000 ANSF have attended literacy training, and over 116,000 have 
graduated from literacy programs. Moreover, the ANSF's internal 
training capacity continues to grow. The ANA has opened all 12 of its 
branch schools and 7 regional training facilities, and the ANP are 
running 37 regional training facilities. The ANSF's increased 
leadership, literacy, and training capacity have allowed the Ministry 
of Defense and Ministry of the Interior to generate their own forces 
internally. These institutional improvements are indicators of the 
increased capability and capacity of the ANSF.

    39. Senator Wicker. Admiral Mullen, I believe we must do all we can 
to avoid a ``garbage-in/garbage-out'' situation with regard to our 
training programs in Afghanistan. How are we screening applicants for 
our training programs?
    Admiral Mullen. All recruits currently go through an 8-step vetting 
process prior to entering the ANSF training pipeline. The vetting 
process includes the following critical steps:

    1.  Each applicant must have a valid national ID card.
    2.  Applicants must have two letters from their village elders 
vouching for them.
    3.  Applicants must provide all of their personal information: 
(name, father's name, village, and two photos).
    4.  Criminal records and background check.
    5.  Complete recruiting application and get it validated by 
recruiters.
    6.  Complete drug screening.
    7.  Complete medical screening.
    8.  All recruits are enrolled into Afghan and coalition biometrics.

    This screening process results in approximately 900 to 1,400 
applicants being denied entry into the ANSF each month.

    40. Senator Wicker. Admiral Mullen, what tools do you utilize to 
ensure that prospective applicants are not members of the Taliban?
    Admiral Mullen. All recruits currently go through an 8-step vetting 
process prior to entering the ANSF training pipeline. The vetting 
process includes the following critical steps:

    1.  Each applicant must have a valid national ID card.
    2.  Applicants must have two letters from their village elders 
vouching for them.
    3.  Applicants must provide all of their personal information: 
(name, father's name, village, and two photos).
    4.  Criminal records and background check.
    5.  Complete recruiting application and get it validated by 
recruiters.
    6.  Complete drug screening.
    7.  Complete medical screening.
    8.  All recruits are enrolled into Afghan and coalition biometrics.

    This screening process results in approximately 900 to 1,400 
applicants being denied entry into the ANSF each month.

    41. Senator Wicker. Admiral Mullen, are applicants literate and 
willing to learn?
    Admiral Mullen. Literacy continues to be a challenge for the ANSF. 
The Afghan recruiting base averages an 86 percent illiteracy rate. This 
varies depending on whether recruits come from rural or urban areas. In 
either case, literacy training is critical for new recruits and is now 
mandatory in every initial training course and at all ANSF schools. 
These programs are having a profound effect on the ANSF as a whole. 
Since 2009, over 134,000 ANA and ANP have gone through some form of 
literacy training and over 116,000 have graduated from literacy 
training. ANA and ANP recruits receive the same literacy training 
reinforcing NTM-A's goal to graduate each new trainee at a first grade 
level. These major changes in literacy levels greatly enhance the 
professional development of the ANSF. Additionally, the ANSF have 
recognized the value of the literacy programs which encourages their 
willingness to learn.

    42. Senator Wicker. Admiral Mullen, are graduates of our training 
programs able to comprehend American military values of respect for 
civilian authority, rule of law, et cetera?
    Admiral Mullen. Rule of law is a critical component of the training 
we provide to all of the members of the ANSF. In light of recent 
reports, ISAF has increased the number of institutional training hours 
dedicated to rule of law, civil rights, and respect for the people. 
ISAF Joint Command supports this effort by emphasizing rule of law 
during all joint operations and engagements with key ANSF leaders.

    43. Senator Wicker. Admiral Mullen, are these graduates able to 
effectively lead their own forces and pass on knowledge obtained from 
American trainers?
    Admiral Mullen. Yes. This can be seen in the actions of the ANSF 
currently operating in the tranche 1 transition areas. In each area the 
ANSF have dealt with numerous threats and enemy engagements with 
limited to no coalition support. Although their reactions have not 
always been perfect, they clearly demonstrate the ability to lead and 
execute operations on their own.

               pakistan counterinsurgency capability fund
    44. Senator Wicker. Secretary Panetta, the committee recently took 
up the fiscal year 2012 DOD authorization bill. The administration has 
asked that Congress provide $1.1 billion for the Pakistan 
Counterinsurgency Capability Fund (PCCF) which would be authorized in 
that bill. I am taking a close look at the $1.1 billion requested by 
the administration for the PCCF. I am of two minds: on the one hand, I 
understand the importance of Pakistan if we are to succeed in 
Afghanistan and in the region; on the other hand, Pakistan has received 
a lot of U.S. assistance over the past few years (nearly $6 billion 
combined in fiscal year 2010 and fiscal year 2011 and over $5 billion 
alone in the fiscal year 2012 request). My initial thinking is that the 
funding needs additional benchmarks and criteria which ensure that our 
money is spent wisely and that the Pakistanis are cooperating with us. 
I am interested in your perspective on this subject, both broadly and 
specifically on what Pakistan is doing (or not doing) to ensure 
accountability for any aid we provide to the country.
    Secretary Panetta. The DOS's PCCF and DOD's Pakistan 
Counterinsurgency Fund (PCF) have enabled us to train, advise, and 
equip the Pakistan military and paramilitary forces so that they can 
eliminate terrorist sanctuaries and be more effective in disrupting the 
al Qaeda network.
    DOD provides Congress updates on the effectiveness of these efforts 
and the use of funds through both the biannual report to Congress, 
Progress Towards Security and Stability in Pakistan, and notifications 
of spending plans for PCF/PCCF appropriations. In particular, the 
Pakistan report has addressed the question of Pakistan's will and 
ability to fight, describing how PCF/PCCF has contributed to the 
Pakistan military's effectiveness in operations since 2009 in Khyber-
Pakhtunkhwa province and the federally Administered Tribal Areas. For 
example, PCF/PCCF has enhanced the tactical-level capacity building of 
Pakistan's Frontier Scouts and Special Services Group personnel, where 
the provision of weapons and ammunition, complemented by training by 
U.S. forces, has improved the effectiveness of these forces to engage 
in targeting militants in counterinsurgency operations.
    At the same time, the Pakistan report also addresses Pakistan's 
unwillingness to operate against insurgents in other areas, such as 
North Waziristan Agency. These existing means of reporting to Congress 
provide adequate benchmarks and assessments of performance to support 
decisionmaking about future assistance levels under PCF/PCCF.

                               education
    45. Senator Wicker. Secretary Panetta, the cost of educating our 
military personnel seems to be increasing. At a time when we are trying 
to downsize our forces and asking fewer personnel to do more work, I am 
concerned that our military schools and education facilities are not as 
efficient as they could be. I constantly hear anecdotal references made 
to military schools that ``cram a week-long curriculum into a month-
long school,'' for example. This sounds ironic to me considering 
today's fiscal environment. What are you doing to ensure that our 
warfighters are receiving the best education and training possible in 
the most efficient manner possible? By efficient, I mean both in terms 
of time and money.
    Secretary Panetta. To ensure that servicemembers are receiving the 
preeminent education and training to prepare for the challenges of 
warfare while remaining mindful of efficiencies, DOD must remain 
vigilant to best utilize resources. DOD is taking advantage of every 
available option to streamline, including online training and 
concentrated learning modules incorporating multiple concepts. In early 
2010, Secretary Gates directed DOD to take a hard, unsparing look at 
how it operates and prioritizes its resources with the objective of 
identifying inefficient expenses that could be reinvested. The 
Secretary of Defense Efficiency Initiative also tasked the Services 
with cutting $100 billion over the next 5 years through a reduction in 
operating overhead and administrative processes which included 
examining all aspects of educating and training servicemembers.
    To build on these efficiency goals, I challenged the entire DOD to 
identify further savings, again with an astute focus on eliminating 
inefficiency and finding cost saving changes in business practices 
accumulated in a period of budget growth. DOD continues to take 
dedicated action with regard to efficiencies in training programs. 
Given the fiscal environment and the current operations tempo, DOD 
cannot afford the time and expense of inefficient practices, but rather 
must maintain the world's premier fighting force.

                              contracting
    46. Senator Wicker. Secretary Panetta, I am also troubled by the 
expanding use of contractors and consultants to perform jobs typically 
performed by our Active Duty personnel. Can you explain to me how it is 
cost-effective when, for example, a senior enlisted servicemember 
retires from Active Duty and returns to do essentially the same job as 
a civilian, with a higher salary?
    Secretary Panetta. DOD's ``sourcing'' of functions and work between 
military and civilian personnel, as well as contract support, must be 
consistent with workload requirements, funding availability, readiness 
and management needs, and applicable laws. These staffing decisions for 
jobs must also be consistent with departmental policies such as those 
regarding workforce mix and risk criteria which are governed by DOD 
Instruction 1100.22, Policy and Procedures for Determining Workforce 
Mix, and cost, governed by Directive Type Memorandum-09-007: Estimating 
and Comparing the Full Costs of Civilian and Military Manpower and 
Contract Support.
    Consistent with these policies, and all applicable laws, DOD is 
committed to conduct an annual inventory and review of its contracted 
services, identifying those that may not be most cost effectively 
performed by the private sector. Some of these services may be 
determined to be no longer required or of low priority, and as a 
consequence may be eliminated or reduced in scope, while others may be 
identified for insourcing to government performance.
    While the use of Active and Reserve Duty military personnel is 
considered in making staffing decisions, functions that are commercial 
in nature are designated for civilian performance. The exceptions are 
when one or more of the following conditions apply: military-unique 
knowledge and skills are required for performance of the duties; 
military incumbency is required by law, executive order, treaty, or 
international agreements; military performance is required for command 
and control, risk mitigation, or esprit de corps; and/or military 
staffing is needed to provide for overseas and sea-to-shore rotation, 
ensure career development, maintain operational readiness and training 
requirements, or to meet contingencies or wartime assignments. In 
making staffing decisions, commanders must be mindful of using military 
personnel to perform tasks that limit their availability to perform the 
operational mission.

    47. Senator Wicker. Secretary Panetta, why are these people 
performing maintenance or conducting training that has traditionally 
been performed by the Active-Duty Force?
    Secretary Panetta. The withdrawal and drawdown of forces in Iraq 
and Afghanistan, respectively, and decreasing operational tempos, as 
well as current national fiscal realities, have resulted in decisions 
to decrease end-strength and make force structure revisions. As a 
result, certain functions which in the past may have been performed by 
military personnel, to include maintenance and training, are being 
realigned to civilian performance. In conjunction with the 
comprehensive review called for by the President and implementation of 
the fiscal reductions called for in the BCA, DOD is assessing mission 
requirements, associated workload, and necessary force structure 
decisions. Recommendations for sizing the force will be based on 
mission requirements and informed by our combatant commanders' needs to 
meet the national military strategy and maintain necessary a state of 
operational readiness while minimizing and mitigating any risks.
                                 ______
                                 
             Questions Submitted by Senator Scott P. Brown
protocol on cluster munitions to the convention on conventional weapons
    48. Senator Brown. Secretary Panetta, a proposed Sixth Protocol to 
the Convention on Conventional Weapons (CCW) is currently being 
negotiated in Geneva. This protocol would establish sensible controls 
on the production, stockpiling, and use of cluster munitions. The 
negotiations which produced the current draft protocol have been 
ongoing for several years with the active involvement of the U.S. 
delegation to the CCW. The current draft is widely-supported within the 
CCW, and would significantly advance global efforts to minimize the 
risks to civilian populations of modern warfare while simultaneously 
preserving the ability of the United States and its allies to utilize 
munitions that will limit American casualties in future conflicts. The 
draft is opposed by some nongovernmental organizations (NGO), however, 
and several governments participating in the CCW may block approval of 
the protocol at the CCW Review Conference in November, thereby killing 
it. Does the Obama administration support the proposed CCW protocol on 
cluster munitions?
    Secretary Panetta. The administration supports concluding a 
comprehensive and binding protocol to the Convention on CCW that 
addresses all aspects of cluster munitions, including use, transfer, 
stockpiling, and destruction, and that will have a significant 
humanitarian impact on the ground while preserving an important 
military capability. The draft protocol presented by the CCW Group of 
Governmental Experts Chair provides the basis for such a protocol.

    49. Senator Brown. Secretary Panetta, does the Obama administration 
have in place a strategy for preventing a small group of countries from 
blocking consensus on the proposed CCW protocol on cluster munitions? 
If so, please describe that strategy.
    Secretary Panetta. DOD is actively supporting current DOS efforts 
to contact CCW High Contracting Parties to urge these states to seize 
the opportunity to conclude a new protocol regulating cluster munitions 
at the CCW Review Conference in November. This includes targeted 
ministerial-level engagements with key detractors of the proposed 
protocol, as well as pressing major users and producers of cluster 
munitions for increased transparency on the number or percentage of 
weapons that would be affected by the draft protocol in order to show 
that a CCW protocol would have a significant humanitarian impact 
despite NGO claims to the contrary.

    50. Senator Brown. Secretary Panetta, will you work actively to 
support approval of the cluster munitions protocol and to raise this 
issue in your discussions with foreign counterparts?
    Secretary Panetta. The draft CCW cluster munitions protocol 
represents an important and successful balance between military 
necessity and humanitarian interests, and is fully compatible with 
DOD's June 2008 Cluster Munitions Policy. In this regard, I will work 
actively to ensure that the efforts of the U.S. delegation to the CCW 
Review Conference to obtain consensus on the draft protocol are 
successful.

                 foreign boycotts of u.s. defense firms
    51. Senator Brown. Secretary Panetta, there is an aggressive 
campaign underway, led by foreign NGOs, and apparently abetted by some 
foreign governments, to boycott U.S. companies involved in the 
manufacture pursuant to contracts with DOD of weapons systems that they 
don't think the United States should have. This campaign is currently 
focused on manufacturers of landmines and cluster munitions, but can 
easily be expanded to manufacturers of nuclear weapons-related items, 
depleted uranium weapons, et cetera. The campaign has made surprising 
headway in dissuading foreign banks from doing business with some key 
U.S. defense contractors, and is clearly aimed at dissuading these 
companies from continuing to supply the United States with these 
weapons. Are you aware of this campaign?
    Secretary Panetta. Yes, it is my understanding that DOD advisers on 
the U.S. delegation to the CCW Review Conference are aware of the NGO 
campaign to pressure banks and other investors not to invest in 
companies participating in the manufacture of cluster munitions that 
have been banned pursuant to the CCMs, to which the United States is 
not a state party. I would emphasize that DOD is committed to ensuring 
that the U.S. military has a supply chain that is able to fulfill the 
needs of our forces.

    52. Senator Brown. Secretary Panetta, does the Obama administration 
believe that this campaign is exclusively driven by NGOs, or are some 
foreign governments also complicit in it? If so, which ones?
    Secretary Panetta. To DOD's knowledge, the campaign is driven by 
NGOs and not by foreign governments. That said, a handful of states 
party to the CCM (Belgium, Ireland, Luxembourg, and New Zealand) have 
chosen to criminalize investment in the production of cluster 
munitions. DOD is not aware of any foreign governments currently 
boycotting U.S. defense contractors for producing cluster munitions for 
the U.S. Government.

    53. Senator Brown. Secretary Panetta, what is the policy of the 
Obama administration with respect to foreign boycotts of U.S. defense 
contractors?
    Secretary Panetta. Given the interdependence of global commerce, I 
share the concern that national security and economic security face 
interconnected risks. Foreign laws, policies, and international 
agreements to which the United States is not a party, may affect our 
industrial base and thus affect our national defense. If notified of 
such a boycott by a foreign government, it is my understanding that DOS 
would be willing to raise the issue with the appropriate foreign 
officials. With respect to particular steps taken in responses to 
action by specific foreign governments, I defer to the Secretary of 
State.

    54. Senator Brown. Secretary Panetta, if the Obama administration 
opposes foreign boycotts of U.S. defense contractors, what specific 
steps has DOS taken to resist this campaign and support U.S. defense 
contractors that have been targeted by it?
    Secretary Panetta. If notified of such a boycott, it is my 
understanding that DOS would be willing to raise the issue with the 
appropriate foreign officials. With respect to particular steps taken 
in responses to action by specific foreign governments, I defer to the 
Secretary of State.

    55. Senator Brown. Secretary Panetta, if the Obama administration 
opposes foreign boycotts of U.S. defense contractors, what steps do you 
intend to take to resist this campaign and support U.S. defense 
contractors that have been targeted by it? Are you committed, for 
example, to raising this issue with foreign government officials?
    Secretary Panetta. The influence of activists and foreign 
governments on the U.S. defense industrial base is a complex issue. 
Protecting the U.S. defense industrial base and national security 
interests will require DOD to collaborate effectively with other 
executive branch agencies and Congress. We must do more to understand 
and communicate the risks to the industrial base and work closely with 
other nations to preserve domestic industrial capabilities. I will join 
in our administration's efforts to engage foreign governments on such 
issues, as appropriate.

    56. Senator Brown. Secretary Panetta, do you believe the U.S. 
Government should continue to do business with foreign banks and other 
foreign businesses that are engaged in boycotts of U.S. defense 
contractors?
    Secretary Panetta. The influence of activists and foreign 
governments on the U.S. defense industrial base is a complex issue. 
Protecting the U.S. defense industrial base and national security 
interests will require the DOD to collaborate effectively with other 
executive branch agencies and Congress. Before taking action, such as 
ceasing business with a particularly entity, we must ensure we 
thoroughly understand potential risks and communicate those risks to 
our industrial base. We will work closely with industry and foreign 
nations to preserve domestic industrial capabilities.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                                al qaeda
    57. Senator Cornyn. Secretary Panetta, in your prepared testimony 
you note that ``al-Qaeda and violent extremism has spread to new 
geographical centers such as Yemen, Somalia, and North Africa.'' In 
July, you said that the United States was ``within reach of 
strategically defeating al Qaeda.'' How has your assessment changed 
since July?
    Secretary Panetta. My assessment hasn't fundamentally changed. In 
my July comments, I also acknowledged that al Qaeda operates in Yemen, 
Somalia, and North Africa. If we maintain pressure on key leadership, 
while also building partner nation counterterrorism capacity and 
undermining al Qaeda's ideology, I still believe we can strategically 
defeat al Qaeda. Our success stems from a steady pace of operations 
over the past 3 years against core al Qaeda leaders and external 
operations planners in Pakistan. We've recently intensified our efforts 
in Yemen as well, and the deaths or detentions of several al Qaeda in 
the Arabian Peninsula top leaders in the past few months have 
negatively impacted the group's capabilities. Likewise in Somalia, the 
loss of al Qaeda leaders combined with increased effectiveness against 
al-Shabaab by our regional partners has forced our adversaries to focus 
more on their personal security than on external operations planning. 
In North Africa, al Qaeda's efforts to exploit the Arab Awakening lack 
resonance, and our counterterrorism partners in the region are steadily 
improving their capabilities to control remote regions exploited by 
terrorists and other extremists.

    58. Senator Cornyn. Secretary Panetta, do you equate dispersal to 
regions outside Afghanistan with defeat?
    Secretary Panetta. While we have done much, particularly in the 
past 3 years, to degrade core al Qaeda in Pakistan, we must continue 
the pressure until the organization is operationally dismantled and 
then strategically defeated, meaning that they no longer function as an 
organization and do not find sanctuary from which to conduct external 
attacks. This includes operations and activities to disrupt, degrade, 
and defeat key al Qaeda affiliates that pose a direct threat to the 
United States and its allies, wherever they may operate.

    59. Senator Cornyn. Secretary Panetta, given the administration's 
stated intent to continue withdrawing U.S. forces from Afghanistan at a 
pace more rapid than recommended by military commanders, do you believe 
that the al Qaeda factions that have dispersed to these other regions 
will actively seek to reestablish a foothold in Afghanistan? In your 
opinion, what are their chances of success?
    Secretary Panetta. The size and pace of reduction in U.S. forces 
from Afghanistan will continue to be made based upon the advice of our 
commanders and the operational and political conditions on the ground. 
As we transition to Afghans assuming the lead for security by the end 
of 2014, we are developing the ANSF necessary to prevent a degraded 
insurgency from being able to threaten the Afghan Government and to 
prevent al Qaeda from reestablishing an operational presence in 
Afghanistan. Over the longer term, the United States will remain 
committed to supporting a stable, democratic order in Afghanistan.

                                pakistan
    60. Senator Cornyn. Secretary Panetta, earlier this month, Admiral 
Mullen gave a speech at the Carnegie Endowment for International Peace 
where he stated that Pakistan's Inter-Services Intelligence (ISI) is 
waging a ``proxy war'' via the Haqqani Network. In Admiral Mullen's 
prepared testimony for this hearing, he stated that extremist 
organizations are ``serving as proxies of the Government of Pakistan.'' 
Do you share Admiral Mullen's opinion on this matter, and if so, can 
you elaborate?
    Secretary Panetta. [Deleted.]

    61. Senator Cornyn. Secretary Panetta, what is your assessment of 
the risk of Pakistan's ISI gaining a strong stake and influence in any 
Afghan political settlements following a U.S. troop withdrawal?
    Secretary Panetta. The United States supports a reconciliation 
process that is Afghan-led, politically inclusive within Afghan civil 
society, and has the support of Afghanistan's neighbors and the 
international community. We recognize that the Government of Pakistan 
plays an important role in this process and in achieving our goals and 
objectives in Afghanistan and the region. This administration has 
raised repeatedly with Pakistan our concerns about the terrorist safe 
havens that are used to attack our forces, the Afghan people, and the 
Afghan Government. We know that Pakistan seeks to play a role in the 
region, but for that to happen, it must act responsibly by developing a 
constructive relationship with the Afghan Government, denying 
insurgents and terrorists safe havens inside Pakistan, and supporting 
the efforts of the Afghan Government to reconcile with the Taliban.

    62. Senator Cornyn. Secretary Panetta, in your prepared remarks you 
stated that a reduced training and liaison presence in Pakistan has 
``diminished our ability to coordinate respective military operations 
in the border regions,'' which in turn ``has given insurgents greater 
freedom of movement along the border.'' Can you elaborate on that 
statement?
    Secretary Panetta. The border between Afghanistan and Pakistan has 
some of the harshest terrain on earth, making it difficult for forces 
on both sides of the border to deny insurgents freedom of movement. The 
ability to coordinate between the Pakistan military and ISAF forces and 
ANSF forces operating along the border can be enhanced by a training 
and liaison presence in Pakistan that facilitates communications 
through the technical knowledge of communications equipment and through 
a conceptual understanding of ISAF and ANSF forces. We are working 
closely with both Afghanistan and Pakistan to help them improve 
communications and coordination along the border to minimize insurgent 
freedom of movement.

    63. Senator Cornyn. Secretary Panetta, in your opinion does the 
United States need an increased presence of military liaison and 
training personnel in Pakistan to effectively combat insurgents who 
find refuge within Pakistan's borders?
    Secretary Panetta. Since 2009, Pakistani military operations in 
Swat, South Waziristan, and other areas put continued pressure on 
insurgent groups. U.S. training and equipment provided under the PCF 
helped enhance Pakistan's counterinsurgency capabilities so that 
Pakistan's security forces are more effective in these operations. An 
example of these enhanced capabilities is in the tactical-level 
capacity building of Pakistan's Frontier Scouts and Special Services 
Group personnel, where the provision of machine guns, sniper rifles, 
and ammunition, complemented by training by U.S. forces, improved the 
effectiveness of these forces to engage in targeting militants in 
counterinsurgency operations. U.S. liaison and training personnel have 
been integral to these efforts, benefiting both U.S. and Pakistani 
counterinsurgency interests, and providing a high return on investment. 
Nonetheless, although an increased presence of these personnel would 
strengthen Pakistan's counterinsurgency capability, the United States 
must also use other means to address these challenges.

    64. Senator Cornyn. Secretary Panetta, in prepared statements and 
during your testimony, you and Admiral Mullen made very strong 
statements regarding Pakistan's active and passive support for 
insurgent groups. In light of your allegations, would you agree that 
aid to Pakistan is naive at best and counter-productive at worst?
    Secretary Panetta. Our relationship with Pakistan is both vital and 
consequential. Pakistan remains a critical country in the fight against 
terrorism, and it provides critical counterterrorism cooperation that 
we hope will continue to expand over the coming months and years to 
bring about the regional stability that is in the interests of both of 
our nations.
    We provide Pakistan with assistance in accordance with our national 
security interests. Security-related assistance--such as the PCF and 
Coalition Support Fund reimbursements--have been an important component 
in pursuing the near-term objective of improving Pakistan's 
counterterrorism and counterinsurgency capabilities and enhancing 
cross-border coordination.
    It is vital, however, that Pakistan own up to its responsibilities, 
including cooperating more fully in counterterrorism matters, expanding 
its counterinsurgency campaign against all extremists that have found 
safe haven in the Federally Administered Tribal Areas and Khyber 
Pakhtunkhwa province, and ceasing to provide sanctuary to Afghan 
Taliban and other militant groups.
    In the wake of the Osama bin Laden raid, we asked Pakistan to take 
a number of concrete steps to demonstrate its continued commitment to a 
cooperative and mutually-beneficial relationship. The future provision 
of security-related assistance will be informed by Pakistan taking 
concrete steps that demonstrate its continued commitment to 
cooperation.

    65. Senator Cornyn. Secretary Panetta, do you agree that continued 
unconditional foreign aid to Pakistan serves to undermine the 
diplomatic efforts of yourself and Admiral Mullen?
    Secretary Panetta. Our civilian and security-related assistance to 
Pakistan directly advances U.S. national interests in Pakistan, but 
that assistance is not unconditional. This assistance is designed to 
promote a stable and prosperous Pakistan that is democratic and able 
and willing to address the scourge of extremism. As President Obama has 
said, it is in our national interest to support Pakistan's efforts to 
develop democratic institutions, foster economic growth, and reject 
violent extremism. To this end, we are continuing our civilian 
assistance to demonstrate to the Pakistani people that the United 
States is committed to a long-term relationship with them and their 
civilian-led government. We are also closely reviewing our security-
related assistance to Pakistan, largely because Pakistan has directed a 
drawdown of our military trainers, harassed our personnel in country, 
and demonstrated insufficient cooperation with us on core objectives. 
We have communicated to Pakistan's civilian and military leaders that 
we are committed to improving their military's capabilities, but that 
we cannot continue to provide this assistance at the same pace we have 
been until our relationship improves.

    66. Senator Cornyn. Secretary Panetta, why or why not would 
conditional foreign aid to Pakistan serve as an incentive for the 
Pakistani Government to disrupt ISI support for terrorist groups and 
deny insurgents their safe havens?
    Secretary Panetta. We have communicated to Pakistan that it cannot 
pick and choose among extremists, that terrorism remains a common 
threat to both of our countries, and that support for extremists who 
are crossing the border and attacking our forces in Afghanistan must 
end.
    That said, we must remember that Pakistan remains a critical 
country in the war against terrorism and does cooperate with the United 
States. Since 2009, Pakistani military operations in Swat, South 
Waziristan, and other areas have put continued pressure on insurgent 
groups. Pakistan's level of commitment is reflected in the enormous 
casualties it has suffered as a result of military operations and acts 
of terrorism in the last few years, including more than 11,000 military 
personnel killed or wounded in action and more than 30,000 civilians 
killed or wounded. As the President has said, we could not have been as 
successful as we have been in going after al Qaeda in the border region 
between Pakistan and Afghanistan without the cooperation of the 
Pakistan Government. Placing additional conditions on security-related 
assistance to Pakistan would minimize the flexibility needed to provide 
such assistance, which contributes to Pakistan's counterinsurgency 
campaign and its ability to disrupt support for terrorist groups and 
deny insurgents their safe havens.

                                 india
    67. Senator Cornyn. Secretary Panetta, estimates show that the 
budget for the ANSF is over $11 billion for this year. Conversely, the 
Afghan Government collected only $1 billion of tax revenue in 2010. It 
is clear that the Afghan Government will require continued financial 
assistance to support enduring ANSF efforts against insurgents, many of 
whom find refuge and assistance in Pakistan, after U.S. forces depart 
in 2014. To pay the enduring costs of supporting the ANSF, should the 
United States pursue a financial partnership with India to defray the 
expenses that are expected?
    Secretary Panetta. The United States supports enhancing the 
international commitment to the long-term stability and security of 
Afghanistan. As noted, the costs of the ANSFs will require 
international financial support, which India and other international 
partners may contribute through established trust funds, such as the 
NATO-led Afghan National Army Trust Fund or the U.N.-led Law and Order 
Trust Fund for Afghanistan, supporting the ANP. Prime Minister Manmohan 
Singh's visit to Kabul in May 2011--his first since 2005--underscored 
India's enduring commitment to diplomatic and development efforts in 
Afghanistan. During his visit, PM Singh announced to a joint session of 
the Afghan parliament an increase in Indian economic support to 
Afghanistan. PM Singh's pledge of an additional $500 million in aid--to 
be spent mainly on development projects--raised India's overall 
assistance pledge to a total of $2 billion.
    During his June 2011 visit to New Delhi, Afghan Defense Minister 
Wardak and Indian Defense Minister A.K. Antony discussed expanding 
cooperation to train ANSF personnel. India's assistance to the ANSF is 
currently limited to training personnel in Indian institutions and some 
transfers of mostly non-lethal materiel. India currently provides 
scholarships for ANSF personnel to study in India, and the Indian 
Government is also exploring options for training female Afghan police 
in India. However, the recent strategic partnership agreement 
reiterated India's interest in expanding efforts to build the capacity 
of the ANSF. Indian support to Afghanistan could help defray the 
enduring costs of supporting the ANSF.

                            iraq withdrawal
    68. Senator Cornyn. Secretary Panetta, earlier this month, it was 
reported that you would support a plan to keep 3,000 to 4,000 troops in 
Iraq after December 31, 2011, to train Iraqi security forces. Reports 
also indicate that the commander of U.S. forces in Iraq, General Lloyd 
J. Austin, is advocating keeping as many as 14,000 to 18,000 troops in 
Iraq next year. What is your rationale for supporting this plan?
    Secretary Panetta. The post-2011 U.S. forces presence and mission, 
if any, will be addressed through U.S. discussions with Iraqi leaders. 
Discussions are ongoing, no final agreement with Iraq has been reached, 
and no final decisions have been made. U.S. forces continue their 
scheduled redeployment from Iraq.
    Again, we have made no final decisions, nor reached any agreement 
with the Iraqis, about a post-2011 U.S. forces presence in Iraq.

    69. Senator Cornyn. Secretary Panetta, how does your evaluation of 
the current situation in Iraq differ from General Austin's, who is the 
senior U.S. commander on the ground?
    Secretary Panetta. I am not aware of differences between our 
assessments. I rely on General Austin and his staff for regular 
updates, and his judgments are essential to informing my own.

    70. Senator Cornyn. Secretary Panetta, in your opinion, what effect 
would 3,000 troops have in Iraq, and what are the benefits and risks of 
this proposal?
    Secretary Panetta. The post-2011 U.S. forces presence size and 
mission, if any, will be addressed through U.S. discussions with Iraqi 
leaders. Discussions are ongoing, no final agreement with Iraq has been 
reached, and no final decisions have been made. U.S. forces continue 
their scheduled redeployment from Iraq.

    71. Senator Cornyn. Secretary Panetta, do the perceived benefits 
outweigh the risks?
    Secretary Panetta. We believe that an enduring partnership with the 
Iraqi Government and people is in America's interest. A relationship 
with the ISFs will be an important part of that partnership. We want a 
normal, productive, healthy relationship with Iraq going forward--a 
partnership similar to those we have with other countries in the region 
and around the world. Our and Iraq's primary objective for this 
training relationship would be to improve ISF capabilities in 
furtherance of the President's objective of a sovereign, stable, self-
reliant Iraq that is a force for security in the region and a long-term 
strategic partner of the United States.
    No decisions have been made at this point. We are drawing down U.S. 
forces in accordance with the U.S.-Iraq Security Agreement.

    72. Senator Cornyn. Secretary Panetta, what is your assessment of 
the ability of a 3,000-troop force to defend itself against attack, 
much less to have a positive impact?
    Secretary Panetta. It is important to note that the security 
situation in Iraq is much different than in years past, so Iraq no 
longer needs large numbers of U.S. forces to maintain internal 
stability. The ISFs had the lead for security for some time, and levels 
of violence remained dramatically reduced from where they were in 2006 
and 2007. U.S. commanders in the field assess that the ISF are 
competent at counterinsurgency operations.
    Again, there are no final decisions, nor any reached agreement with 
the Iraqis, about a post-2011 U.S. forces presence in Iraq. DOD is 
drawing down U.S. forces in accordance with the U.S.-Iraq Security 
Agreement.

    73. Senator Cornyn. Secretary Panetta, what is the status of 
current negotiations to reach a post-2011 agreement with the Iraqi 
Government regarding military-to-military relations?
    Secretary Panetta. In August, the Iraqi political leadership 
indicated publicly that they are interested in an ongoing training 
relationship with the United States post-2011. We believe that an 
enduring partnership with the Iraqi Government and people is in the 
interest of the United States, and a relationship with the ISF will be 
an important part of that partnership. We are currently in discussions 
with the Iraqi Government about the nature and scope of that long-term 
relationship. Those discussions are ongoing. We want a normal, 
productive, healthy relationship with Iraq going forward--a partnership 
similar to those we have with other countries in the region and around 
the world.
    Again, discussions are ongoing, and we have made no final 
decisions, nor reached any agreement with the Iraqis about a post-2011 
U.S. forces presence in Iraq. We are drawing down U.S. forces in 
accordance with the U.S.-Iraq Security Agreement.

                   iraqi air force and f-16 purchase
    74. Senator Cornyn. Secretary Panetta, last week, Major General 
Russell Handy, commander of the 9th Air and Space Expeditionary Task 
Force-Iraq and Director of the Air Component Coordination Element-Iraq, 
told reporters that the potential sale of 18 F-16 fighters to Iraq now 
looks ``very promising.'' He went on to say, ``Everyone that I talk to 
at every level of the government in Iraq is convinced that that's the 
right approach for them. We're very encouraged by those words and we 
feel that we're very close to them signing that letter of offer and 
acceptance (LOA).'' What steps is DOD taking to move this important 
sale forward?
    Secretary Panetta. In late September, the Government of Iraq both 
signed and funded a LOA for 18 F-16 aircraft. Concrete steps are now 
being taken to establish U.S. and Iraq program offices, select a main 
operating base, let contracts for aircraft and support equipment, and 
further refine Iraq's requirements for F-16-related facilities, 
support, and training. Although production schedules may not be 
finalized until the end of November 2011, we expect the delivery of the 
first F-16 to Iraq to occur not later than the end of 2014.

    75. Senator Cornyn. Secretary Panetta, military and civilian 
leaders have expressed serious concern about the Iraqi air force's 
ability to protect its own air space once U.S. forces withdraw. It is 
my understanding that 10 Iraqi pilots are already going through F-16 
flight school in the United States, but the Air Force estimates that 
should the F-16 sale go through, the ``best case'' for the first 
aircraft delivery is probably ``late 2013.'' What steps have been taken 
to date to enable Iraq to adequately defend its airspace following the 
U.S. withdrawal?
    Secretary Panetta. When the United States leaves, Iraq will have 
radar coverage over approximately 60 percent of its airspace, a nascent 
air command and control construct with minimally trained controllers, 
and a limited number of air defense assets with which to respond to 
airborne threats. Armed helicopters operated by the Iraqi Army Air 
Corps provides a rudimentary armed intercept capability for low and 
slow aircraft.
    Despite a limited defense picture for Iraq in January 2012, they 
will gradually mature and possess an organic air defense capability by 
mid- to late-2015. Some of the steps we expect to occur, with U.S. 
support, between now and late 2015 include:

    (1)  Completing the installation of two Long Range Radars (LRR) 
providing approximately 60 percent coverage of Iraqi airspace. 
(December 2011)
    (2)  Training Air Operations Center (AOC) and Sector Operations 
Center (SOC) controllers. (April 2013)
    (3)  Developing a second SOC with two additional LRRs to provide 
robust airspace coverage and additional regional control nodes. 
(Expected; no program yet underway)
    (4)  Training F-16 aircrew and maintainers. (2012 to 2015)
    (5)  Delivering F-16 aircraft in sufficient quantity (estimated 12 
or more aircraft required) to provide a basic 24-hour alert capability. 
(mid- to late-2015)
    (6)  Developing a ground-based air defense system. (Expected; no 
program yet underway)
    (7)  Executing a robust CENTCOM-directed security cooperation 
program with exercises, continued advising and mentoring, military 
personnel exchanges, and international military education and training 
to expand air defense capacity and effectiveness.

    76. Senator Cornyn. Secretary Panetta, particularly, what is being 
done to ensure Iraq's self-defense capabilities during the interim 
period before potential F-16 delivery?
    Secretary Panetta. Strengthening the Iraqi Air Force is an 
essential element of the contribution to the enduring SFA (signed in 
2008). The SFA states: ``In order to strengthen security and stability 
in Iraq, and thereby contribute to international peace and stability, 
and to enhance the ability of the Republic of Iraq to deter all threats 
against its sovereignty, security, territorial integrity, the Parties 
shall continue to foster close cooperation concerning defense and 
security arrangements without prejudice to Iraqi sovereignty over its 
land, sea, and air territory.''
    As of 1 January 2012, when the 2008 Security Agreement (SA) 
expires, the United States cannot ensure Iraq's self-defense 
capabilities during the interim period before potential F-16 delivery. 
Iraq is a sovereign nation that must determine how to secure its own 
future. Going forward, the United States will work closely with the 
Iraqi Government and its armed forces to assist in building a stronger 
and more prosperous country. In the interim, the United States will 
conduct various Air Force-centric activities, training, and exercises. 
These will be executed by the current program of record: the OSC-I. 
From an air perspective, OSC-I is charged to develop and train the 
Iraqi Air Force so it can defend its borders and airspace against 
external threats. The Government of Iraq will go about this through 
several means such as FMS, Foreign Military Financing, International 
Military Education and Training programs, and security cooperation 
activities, to include: exercises, combined arms training, and 
mentoring activities.
    There are several FMS cases that will aid development of the 
foundational capabilities necessary for Iraq to build and maintain an 
independent air force. Some examples include: Long Range Radars, Sector 
Operations Control training, Ground Based Air Defense Systems, Air 
Traffic Control training, Contractor Logistics Support, training in 
various Attack, Mobility and Trainer aircraft (T-6, KA-350, F-16, UH-1, 
C-130E, and C-130J, as examples). The long-term goal is to develop an 
Iraqi Air Force that is independent, credible, and can provide enduring 
activities and capabilities.

                           influence of iran
    77. Senator Cornyn. Secretary Panetta, you acknowledge in your 
prepared testimony that an ``ongoing challenge in Iraq is the push for 
influence by Iran, and the activities of Iranian-backed militias that 
have attacked U.S. forces and the Iraqi people.'' What is your 
assessment of the evolution of this threat and has it grown in 
correlation with the draw-down of U.S. forces in Iraq?
    Secretary Panetta. Earlier this year, we made clear we believed 
that Iran was furnishing new, more deadly weapons to militant groups 
targeting U.S. troops in Iraq as part of a pattern of renewed attempts 
to exert influence in the region. These Shia proxy groups temporarily 
escalated attacks against U.S. personnel this summer before declaring a 
ceasefire following U.S. and Iraqi pressure. To this point, however, 
these groups have failed to undermine the Iraqi public's confidence in 
the ISF or the Iraqi Government.
    The ISF have the lead for security, and levels of violence have 
remained dramatically reduced from--for instance--where they were in 
2006 and 2007. U.S. commanders in the field assess that the ISF are 
competent at counterinsurgency operations.

    78. Senator Cornyn. Secretary Panetta, in your opinion, how capable 
is the Iraqi Government to resist Iranian influence after U.S. forces 
have been withdrawn?
    Secretary Panetta. U.S. policy supports Iraqi efforts to counter 
the most destabilizing and destructive elements of Iranian policy in 
Iraq. U.S. policy leverages three key characteristics of Iraq that 
serve to counter Iranian hegemony in Iraq as U.S. forces draw down. 
These key characteristics--evident in almost all levels of Iraqi 
society--combine to indicate that despite Iran's efforts and rhetoric, 
Iran's influence will ultimately be attenuated.
    The first and most important is Iraqi nationalism. Nationalism 
remains a strong and enduring force motivating the Iraqi people. Iraq's 
Kurdish and Sunni Arab populations are no friends of Iran, and 
nationalism counteracts Iranian influence among the Iraqi Shia 
population, as well.
    A second key characteristic of Iraq that runs counter to Iran's 
hegemonic ambitions is Iraq's publicly stated interest in a long-term 
partnership with the United States.
    A third is Iraq's objective to achieve regional reintegration. We 
seek to support a strong, democratic Iraq, on mutually beneficial and 
friendly terms with all its neighbors. To achieve this vision, we are 
working hard to encourage Iraq's neighbors, particularly Gulf Arab 
states, to overcome their inherent distrust of Iraq's new Shia leaders 
and to establish mutually productive relations. We are encouraged that 
some of Iraq's neighbors have leaned forward to engage the new Iraq--
including Turkey, Jordan, and Egypt--in part to counter Iranian 
influence.

    [Whereupon, at 12:45 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
